<html>
<title> - DOE MODERNIZATION: ADVANCING DOE'S MISSION FOR NATIONAL, ECONOMIC, AND ENERGY SECURITY OF THE UNITED STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                  DOE MODERNIZATION: ADVANCING DOE'S 
                  MISSION FOR NATIONAL, ECONOMIC, AND
                  ENERGY SECURITY OF THE UNITED STATES

=======================================================================

                                 HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 9, 2018

                               __________

                           Serial No. 115-90
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                    
                    
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-537                     WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ddbaadb29dbea8aea9b5b8b1adf3beb2b0f3">[email&#160;protected]</a>                    
                    
                    
                                       
                    
                    
                    
                    
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina
                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     2
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     8

                               Witnesses

Dan Brouillette, Deputy Secretary, U.S. Department of Energy.....     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................   193
Mark Menezes, Under Secretary of Energy, U.S. Department of 
  Energy.........................................................    25
    Answers to submitted questions...............................   266
Paul Dabbar, Under Secretary for Science, U.S. Department of 
  Energy.........................................................    26
    Answers to submitted questions...............................   278
Frank Klotz, Under Secretary for Nuclear Security, and 
  Administrator National Nuclear Security Administration, U.S. 
  Department of Energy...........................................    27
    Answers to submitted questions...............................   280
Thomas Zacharia, Director, Oak Ridge National Laboratory.........    73
    Prepared statement...........................................    75
Donald Levy, Albert A. Michelson Distinguished Service Professor 
  Emeritus, University of Chicago and Co-Chair, Panel to Track 
  and Assess Governance and Management Reforms in the Nuclear 
  Security Enterprise............................................    92
    Prepared statement...........................................    94
Sarah Ladislaw, Director, Energy and National Security Program, 
  Center for Strategic And International Studies.................   100
    Prepared statement...........................................   102
Steve Wasserman, Director, Lilly Research Laboratories 
  Collaborative Access Team, Advanced Photon Source, Argonne 
  National Laboratory, on behalf of the Society for Science at 
  User Research Facilities.......................................   112
    Prepared statement...........................................   114
Dan Reicher, Executive Director, Stanford University Steyer-
  Taylor Center for Energy Policy and Finance and Senior Fellow, 
  Brookings Institution..........................................   122
    Prepared statement...........................................   124
Rich Powell, Executive Director, Clearpath Foundation............   158
    Prepared statement...........................................   160

                           Submitted Material

Statement of the Office of Energy Efficiency and Renewable 
  Energy, submitted by Mr. Upton.................................   185
Statement of the Department of Energy Loan Programs Office, 
  submitted by Mr. Upton.........................................   188

 
DOE MODERNIZATION: ADVANCING DOE'S MISSION FOR NATIONAL, ECONOMIC, AND 
                  ENERGY SECURITY OF THE UNITED STATES

                              ----------                              


                        TUESDAY, JANUARY 9, 2018

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:02 in room 
2123, Rayburn House Office Building, Hon. Fred Upton (chairman 
of the subcommittee) presiding.
    Present: Representatives Upton, Olson, Barton, Shimkus, 
Latta, Harper, McKinley, Kinzinger, Griffith, Johnson, Long, 
Bucshon, Flores, Mullin, Hudson, Cramer, Walberg, Duncan, 
Walden (ex officio), Rush, Peters, Doyle, Castor, Sarbanes, 
Welch, Tonko, Loebsack, Schrader, Kennedy, Butterfield, and 
Pallone (ex officio).
    Staff Present: Ray Baum, Staff Director; Mike Bloomquist, 
Deputy Staff Director; Samantha Bopp, Staff Assistant; Allie 
Bury, Legislative Clerk, Energy Environment; Karen Christian, 
General Counsel; Kelly Collins, Staff Assistant; Wyatt 
Ellertson, Professional Staff, Energy/Environment; Margaret 
Tucker Fogarty, Staff Assistant; Adam Fromm, Director of 
Outreach and Coalitions; Jordan Haverly, Policy Coordinator, 
Environment; A.T. Johnston, Senior Policy Advisor, Energy; Ben 
Lieberman, Senior Counsel, Energy; Mary Martin, Chief Counsel, 
Energy/Environment; Katie McKeogh, Press Assistant; Brandon 
Mooney, Deputy Chief Counsel, Energy; Mark Ratner, Policy 
Coordinator; Annelise Rickert, Counsel, Energy; Dan Schneider, 
Press Secretary; Peter Spencer, Professional Staff Member, 
Energy; Jason Stanek, Senior Counsel, Energy; Madeline Vey, 
Policy Coordinator, DCCP; Andy Zach, Senior Professional Staff 
Member, Environment; Priscilla Barbour, Minority Energy Fellow; 
Rick Kessler, Minority Senior Advisor and Staff Director, 
Energy and Environment; John Marshall, Minority Policy 
Coordinator; Jon Monger, Minority Counsel; Alexander Ratner, 
Minority Policy Analyst; Tim Robinson, Minority Chief Counsel; 
Andrew Souvall, Minority Director of Communications, Outreach 
and Member Services; Tuley Wright, Minority Energy and 
Environment Policy Advisor; and C.J. Young, Minority Press 
Secretary.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Good morning. Good morning, everybody. Happy New 
Year.
    Today's hearing begins this subcommittee's work in this 
session to identify what steps we need to do to make sure that 
DOE can address the national economic and energy security 
challenges that are going to be confronting the Nation over the 
coming number of decades.
    Recent years, we have been updating certain agency programs 
and authorities to shift DOE's mission focus more fully away 
from the energy scarcity mind-set of its founding back in the 
1970s. We have worked to position the agency more appropriately 
toward the tremendous energy resources now available to our 
country and the economic and geopolitical benefits of those 
resources. We have sought to modernize the Department's 
strategic petroleum reserve and its response capabilities, and 
we have upgraded DOE's emergency preparedness for energy supply 
distributions and its authorities to protect critical 
infrastructure from physical as well as cyber attacks.
    But we are reminded almost daily that more needs to be 
done. Growing nuclear weapons, threats, and tens of billions of 
dollars needed to maintain the nuclear deterrent underscores 
the urgency for creating efficient, effective, and durable 
governance and management of DOE's nuclear security missions.
    So increasingly complex interconnections of our modern 
energy systems propelled by the digital efficiencies of the 
cyber age present new and growing risks. Getting ahead of these 
risks requires secretarial leadership and coordinated attention 
across the agency's many programs and operations. Modernizing 
the Department of Energy means ensuring it has the appropriate 
statutory authorities and sound management structures to meet 
not only the challenges that we know about today, but what may 
be coming over the horizon. It means ensuring agency leadership 
can align with the Department's operations and resources to 
meet those priorities, and it means ensuring the tremendous 
scientific and technological assets of this agency are 
effectively focused for the benefit of the long-term security 
and prosperity of all Americans.
    Our two panels today will help look at what is needed to 
meet current and emerging challenges. We are going to hear from 
the senior leadership of the Department on the first panel. And 
with that, who once served this committee very well as its 
staff director, is the deputy secretary for the Department. He 
is essentially DOE's CEO. So I look forward to hearing his 
plans for aligning the Department to meet the administration's 
priorities and to discuss those priorities.
    He is joined by three Department Under Secretaries 
responsible for the bulk of its missions. Under Secretary of 
Energy Mark Menezes, also a capable alumnus of this committee, 
can help us understand what is necessary to enhance the 
Department's work regarding all of our national energy policy 
interests, and what more may be needed to enhance DOE's 
emergency and cyber functions. General Frank Klotz, who heads 
the Department's nuclear security enterprise, and with several 
years under his belt at DOE, has important perspective on what 
is needed for efficient and effective execution of the 
Department's vital nuclear and nonproliferation programs and 
related work across the DOE's enterprise. And finally, Under 
Secretary of Science Paul Dabbar can help examine how best to 
deploy and maintain the scientific and technological 
capabilities at the national laboratory system and its 
facilities offer to support the Department's missions. He also 
has new responsibilities for the Office of Environmental 
Management which oversees complicated environmental cleanup 
projects that present a host of management challenges.
    The second panel offers broader perspectives to help us 
assess what more is needed to improve execution of the agency's 
mission and to prepare for future challenges. We will hear from 
distinguished leaders and scientists on what is necessary to 
unleash the full benefits of the national lab system. We will 
hear how to ensure appropriate oversight in management of 
projects and programs in the national and nuclear security 
space and across departmental activities. We will hear how 
better to focus DOE's support of innovation and what our era of 
the energy abundance means for DOE responsibilities, both here 
and abroad.
    Our testimony today will start a record to inform our 
modernization efforts and to assist us as we prioritize what 
program authorizations to tackle in this new session of the 
Congress.
    With that, I yield for an opening statement from my friend 
and colleague, the ranking member of the energy subcommittee, 
Mr. Rush, from the good State of Illinois.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing begins the subcommittee's work this session 
to identify what steps Congress may take to be sure DOE can 
address the national, economic, and energy security challenges 
that will be confronting the Nation over the coming decades.
    In recent years, we've been updating certain agency 
programs and authorities to shift DOE's mission focus more 
fully away from the energy scarcity mindset of its founding in 
the 1970s.
    We've worked to position the agency more appropriately 
towards the tremendous energy resources now available to our 
nation--and the economic and geopolitical benefits of those 
resources. We've sought to modernize the department's Strategic 
Petroleum Reserve and its response capabilities. And we've 
upgraded DOE's emergency preparedness for energy supply 
disruptions and its authorities to protect critical 
infrastructure from physical and cyber threats.
    But we are reminded almost daily that more needs to be 
done. Growing nuclear weapons threats and the tens of billions 
of dollars needed to maintain the nuclear deterrent underscore 
the urgency for creating efficient, effective, and durable 
governance and management of DOE's nuclear security missions.
    The increasingly complex interconnections of our modern 
energy systems, propelled by the digital efficiencies of the 
cyber age, present new and growing risks. Getting ahead of 
these risks requires Secretarial leadership and coordinated 
attention across the agency's many programs and operations.
    Modernizing the Department of Energy means ensuring it has 
the appropriate statutory authorities and sound management 
structure to meet not only the challenges we know about today, 
but what may be coming over the horizon.
    It means ensuring agency leadership can align the 
department's operations and resources to meet priorities. It 
means ensuring the tremendous scientific and technological 
assets of this agency are effectively focused for the benefit 
of the long-term security and prosperity of Americans.
    Our two panels today will help us look at what is needed to 
meet current and emerging challenges. We will hear from the 
senior leadership of the Department on the first panel.
    Dan Brouillette, who once served this Committee very well 
as its staff director, is the Deputy Secretary for the 
Department. He is essentially DOE's chief operating officer, 
and so I look forward to hearing his plans for aligning the 
department to meet the Administration's priorities, and to 
discuss those priorities.
    He is joined by the three Department Under Secretaries, 
responsible for the bulk of its missions. Under Secretary of 
Energy Mark Menezes, also a capable alumnus of this committee, 
can help us understand what is necessary to enhance the 
department's work regarding all our national energy policy 
interests, and what more may be needed to enhance DOE's 
emergency and cyber functions.
    General Frank Klotz, who heads the Department's nuclear 
security enterprise and, with several years under his belt at 
DOE, has important perspective on what is needed for efficient 
and effective execution of the Department's vital nuclear and 
nonproliferation programs, and related work across DOE's 
enterprise.
    Finally, Under Secretary for Science Paul Dabbar, can help 
examine how best to deploy and maintain the scientific and 
technological capabilities the national laboratory system and 
its facilities offer to support the Department's missions. He 
also has new responsibilities for the Office of Environmental 
Management--which oversees complicated environmental cleanup 
projects that present a host of management challenges.
    Our second panel offers broader perspectives to help us 
assess what more is needed to improve execution of the agency's 
missions and to prepare for future challenges.
    We'll hear from distinguished leaders and scientists on 
what is necessary to unleash the full benefits of the national 
laboratory system. We'll hear how to ensure appropriate 
oversight and management of projects and programs in the 
national and nuclear security space and across departmental 
activities.
    We'll hear how better to focus DOE's support of innovation 
and what our era of energy abundance means for DOE 
responsibilities, here and abroad.
    Our testimony today will start a record to inform our 
modernization efforts and to assist us as we prioritize what 
program authorizations to tackle in the upcoming session of 
Congress.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. I want to thank you, Mr. Chairman, for holding 
this important hearing on modernizing the Department of Energy. 
I also want to welcome all of the witnesses to this hearing.
    Mr. Chairman, for constituents, such as those I represent, 
one of the most pressing issues regarding DOE involves a matter 
of ensuring that the agency is representative of all 
communities, and that the needs of all citizens are being 
addressed through its energy policy and initiatives including 
the loan and grant programs as well as through engagement at 
the national labs, and access to contracting and vendor 
opportunities. Many of my constituents are constantly seeking 
ways to break into what has essentially become an onerous, good 
ol' boys network.
    As you are aware of, Mr. Chairman, my office worked 
extensively with former Secretary Moniz to establish the 
minorities and energy initiative which was designed to help 
foster increased minority participation in all sections of the 
energy industry. And this initiative, Mr. Chairman, was 
successful in beginning the process of raising awareness and 
engagement between DOE, industry, and minority communities. 
However, Secretary Perry did not seem to even be aware of the 
program, and many of the activities that were established by 
this initiative seemed to have tapered off.
    Mr. Chairman, as we go through this process of modernizing 
the Department, it is imperative that we examine the leadership 
profile of the agency and work to ensure that there is 
diversity at the top where most of the decisions and policies 
are first enacted. We need more people of color in the top 
echelons of the Department from the Secretary's office as well 
as in the Office of Science, which directs billions of research 
dollars to higher education institutions.
    Mr. Chairman, we need more diversity of people, and so, on 
the review boards, and the boards and counselors which are 
responsible for making key decisions regarding the national 
labs, among many other issues. Mr. Chairman, when it comes to 
these same national labs, we need more women and people of 
color running these institutions so that decisions regarding 
increased inclusion and diversity are made inherently, and not 
simply as an afterthought or as a checklist, or as an empty 
token act.
    Additionally, Mr. Chairman, we need to ensure that the 
senior executive staff, or SES, who play pivotal roles in 
running the Department and making important decisions regarding 
the agency's policies and priorities also include men and women 
of color.
    Mr. Chairman, it is easy to overlook the importance of 
these issues if you are not among the groups that have been 
historically excluded. But when we are using taxpayer dollars 
to fund the labs or to dole out loans and grants to the same 
schools, the same universities, or to provide millions of 
dollars to contractors and vendors, then it must be incumbent 
upon us, the policymakers here in Congress, to ensure that 
everyone is given the same opportunity to share in the wealth 
and to share in the resources.
    So, Mr. Chairman, that said, I look forward to working with 
Mr. Martin as well as other members of this subcommittee to 
restructure the Department in a way that addresses the systemic 
and institutional discrepancies that exist in the agency today.
    With that, I yield back.
    Mr. Upton. Thank you.
    The chair will now recognize the chair of the full 
committee, Mr. Walden, from Oregon.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. Thank you very much, Mr. Chairman. And I want 
to welcome our panelists here today. This is a really important 
hearing for the committee, and it is a goal of this committee 
to begin the process to modernize the Department of Energy, an 
agency that was created in an era of scarcity. And we find 
ourselves in an era of abundance but of new challenges 
involving the environment and energy. And so we look forward to 
your testimony today. In October, we heard directly from 
Secretary Perry on his vision for the Department. Today, we 
will hear from the top leaders of that Department on how the 
Secretary's vision can be advanced and the role Congress is 
being asked to play.
    We also have a distinguished second panel. This panel 
features important perspectives on Department of Energy's 
various operations concerning the national labs, nuclear 
oversight, research, and energy security challenges. So I 
appreciate all of your participation today. It is also always a 
pleasure to welcome back to the Energy and Commerce Committee 
alumni, including both Deputy Director Brouillette and Under 
Secretary Menezes, who served this committee with distinction. 
Dan was staff director and Mark as the Energy and Environment 
chief counsel. So we look forward to having you back. It is 
always fun to question former members of the committee who 
wrote questions for all of us to ask other witnesses in the 
past.
    I also understand that Under Secretary Dabbar visited the 
Hanford site this last week. Thank you for doing that. 
Secretary Perry was kind enough both to come out and visit 
Hanford as well as take a look at McNary Dam, one of our great 
hydro energy, noncarbon-emitting energy sources in the 
northwest last year.
    Hanford is just up the Columbia River from my home and 
across from my district. And all of us in the Pacific Northwest 
are deeply concerned about the cleanup, making sure it says on 
schedule, on budget, and on time. I also want to recognize 
Administrator Klotz's long service to our country, sir. General 
Klotz has served in distinguished positions in both Republican 
and Democratic administrations throughout his career, including 
almost 4 years as NNSA administrator. So we are glad for your 
service and your participation today.
    While the domestic international energy posture is 
substantially different from what it was when Congress 
established the Department more than 40 years ago, the 
importance of DOE's role in serving the national and the public 
interest has only increased. We are reaping the benefits of 
energy abundance. But legacy challenges remain, such as the 
cleanup of Cold War sites and permanent disposal of nuclear 
waste, which my colleague, Mr. Shimkus, has played an 
incredibly important, strong, and dedicated role toward 
achieving permanent and interim storage.
    New risks have evolved, such as cybersecurity threats, the 
electric grid, managing and overseeing the modernization of our 
aging energy infrastructure.
    So our responsibility is to ensure that a modernized 
Department of Energy is fully prepared to meet these 21st 
century challenges. So as we examine the DOE management and 
mission priorities today, we should keep in mind the benefits 
of the interconnected nature of the Department's missions. 
These missions, national security, energy security, 
environmental remediation, and mission enabling scientific 
research across the DOE enterprise, can be difficult and 
expensive to manage.
    I am confident the team of professionals on our first panel 
today are up to this task. This committee will work through the 
remainder of this Congress and beyond to ensure the 
Department's organization and missions are aligned with the 
energy security challenges of the Nation and that we are nimble 
enough to meet the challenges of tomorrow. At my direction, the 
committee has been examining whether DOE resources are focused 
on its core missions. Going forward, we will review certain DOE 
authorizations--by the way, many of which expired a decade 
ago--to ensure proper program alignment.
    I believe in collaboration with the Department of Energy. 
Many bipartisan good government policies can be implemented if 
we work together. So I look forward to continuing a positive 
working relationship.
    The basic scientific and applied energy research conducted 
throughout the DOE lab system is the foundation for new 
technological advances. These advances enable us to remain an 
international leader in innovation, security, and scientific 
know-how. This is the fundamental question before us today: How 
can we best harness the Department's enormous scientific, 
technical, and world-class capabilities to enhance America's 
national, economic, and energy security?
    So I look forward to your testimony today and your response 
to our questions, both this panel and the one that follows.
    With that, Mr. Chairman, I yield back the balance of my 
time. And thank you for your leadership on this issue.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Good morning and welcome to this morning's hearing as we 
continue our efforts to modernize the Department of Energy. In 
October, we heard directly from Secretary Perry on his vision 
for the department and today we will hear from his top 
lieutenants as to how the secretary's vision will be advanced.
    We also have a distinguished second panel, featuring 
important perspectives on DOE's various operations concerning 
the national labs, nuclear oversight, research and energy 
security challenges. I appreciate all of our witnesses joining 
us today.
    It is always a pleasure to welcome Energy and Commerce 
alumni back to the committee. Both Deputy Secretary Brouillette 
and Under Secretary Menezes served this committee with 
distinction--Dan as staff director and Mark as the Energy and 
Environment Chief Counsel. I appreciate that you know how this 
committee operates, and look forward to accomplishing much 
together.
    I also understand that Under Secretary Dabbar visited the 
Hanford site last week, which I appreciate. Hanford is just up 
the Columbia River from my Oregon district and all of us in the 
Pacific Northwest have a great interest in seeing the cleanup 
there completed. I would also like to recognize Administrator 
Klotz's long service to our country. General Klotz has served 
in distinguished positions in both Republican and Democrat 
administrations throughout his career, including almost 4 years 
as NNSA Administrator.
    While the domestic and international energy posture is 
substantially different from what it was when Congress 
established the department over 40 years ago, the importance of 
DOE's role in serving the national and public interest has 
increased. We are reaping the benefits of energy abundance, but 
legacy challenges remain, such as cleanup of Cold War sites and 
permanent disposal of nuclear waste. New risks have evolved, 
such as cyber security threats to the electric grid and 
managing and overseeing the modernization of our aging energy 
infrastructure. Our responsibility is to ensure a modernized 
DOE is fully prepared to meet these 21st Century challenges.
    As we examine the DOE management and mission priorities 
today, we should keep in mind the benefits of the 
interconnected nature of the department's missions. These 
missions--national security, energy security, environmental 
remediation, and mission-enabling scientific research-across 
the DOE enterprise can be difficult and expensive to manage. I 
am confident that the team of professionals on our first panel 
today are up to this task. This committee will work through the 
remainder of this Congress, and beyond, to ensure the 
department's organization and missions are aligned with the 
energy security challenges of today and are nimble enough to 
meet the challenges of tomorrow.
    At my direction, the committee has been examining whether 
DOE resources are focused on its core missions. Going forward, 
we will review certain DOE authorizations--many of which 
expired over a decade ago--to ensure proper program alignment. 
I believe, in collaboration with DOE, many bipartisan, good 
government policies can be implemented. I look forward to a 
positive working relationship.
    The basic scientific and applied energy research conducted 
throughout the DOE lab system is the foundation for new 
technological advances. These advances enable us to remain an 
international leader in innovation, security, and scientific 
know how. This is the fundamental question before us today: how 
can we best harness the department's enormous scientific, 
technical, and world-class capabilities to enhance America's 
national, economic, and energy security? I look forward to 
hearing from all the witnesses today.

    Mr. Upton. Thank you.
    The chair will now recognize the ranking member of the full 
committee, Mr. Pallone, from New Jersey, 5 minutes.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    As we start a new year, it is nice to finally have a full 
panel of agency witnesses before us. Last year, I was 
repeatedly disappointed by the Trump administration's 
unwillingness to send agency witnesses before our committee. 
Today, we have an experienced panel of senior leadership 
officials from the Department of Energy, including two 
distinguished former Energy and Commerce staffers, Deputy 
Secretary Dan Brouillette, and Under Secretary for Energy Mark 
Menezes. I am pleased they are back with us, and I want to 
welcome them, as well as the other agency officials.
    The purpose of this hearing, according to my Republican 
colleagues, is to weigh whether DOE is in need of 
modernization, and what parts of its mission are still 
necessary. Now, publicly, my colleagues have discussed a full-
fledged effort to reauthorize the Department, an effort that 
has not occurred since the creation of DOE over 40 years ago. 
However, so far, they have been short on details, and I hope to 
learn more today about what my Republican colleagues want to 
achieve in this endeavor. Specifically, we need to know what 
real problems at the Department we are attempting to solve. If 
my Republican colleagues want to take a targeted look at DOE 
programs to see where improvements can be made, then I am open 
to listening to their proposals. We might be able to find the 
areas of agreement where we could work together to enact 
solutions.
    However, if the goal is simply to eliminate scores of 
successful programs and arbitrarily shrink of size of DOE, like 
the unrealistic and flawed Trump budget proposal last year, 
then you are going to find opposition on this side of the 
aisle. Last year, President Trump made his priorities clear by 
proposing a budget for DOE that gutted or eliminated critical 
programs that historically had bipartisan support. The 
President's budget took a hatchet to popular bipartisan 
programs like energy efficiency, renewable energy, the Loan 
Programs Office and the Weatherization Assistance Program.
    If my Republican colleagues hope to work together on this, 
they should know in advance that we will not support any 
reorganization that harms these programs or others which 
benefit consumers and help combat climate change. And 
similarly, we will not support any reorganization that attempts 
to shift some or all of EPA's programs into the Department of 
Energy. I do believe there are ways that the DOE can improve, 
and more successfully, fulfill its mission. And I think we can 
work together to make those improvements. For example, 
according to the Government Accountability Office, DOE's Office 
of Environmental Management and the National Nuclear Security 
Administration have demonstrated limited progress in improving 
contract management and have struggled to ensure that they have 
the financial and staffing capacity to mitigate risk. So we can 
and must develop bipartisan solutions that address these and 
other critically important issues.
    The Department of Energy is a vital part of the executive 
branch, playing a critical role in incentivizing the 
development of clean energy technologies, conducting cutting-
edge scientific research, and maintaining our Nation's nuclear 
security. DOE is also home to a number of other agencies that 
operate independently and are vital to our Nation's energy 
policy, including the Energy Information Administration and the 
Federal Energy Regulatory Commission, or FERC. And it is 
critical that the independence of these agencies be maintained. 
I was pleased to see that FERC reaffirmed its independence 
yesterday when the five commissioners unanimously rejected 
Secretary Perry's proposal to provide preferential rates to 
coal and nuclear generation.
    So we have two knowledgeable panels of witnesses before us 
today, and I hope, and I look forward to hearing their 
perspective. And I yield back the balance of my time. I don't 
think any of my colleagues want the time, so I will yield back, 
Mr. Chairman.
    Mr. Upton. The gentleman yields back, so we are ready for 
testimony.
    I want to thank you all of you for sending your testimony 
up in advance. We could look at it half-time between the 
Alabama and the Georgia game. And we appreciate that. Your 
testimony will be made part of the record in its entirety, and 
we will give each of you 5 minutes to summarize that before we 
do the questions. You know the drill, and we will start with 
our friend, Dan Brouillette.
    Thank you.
    You have got to turn that--we have new switches since you 
were here.

  STATEMENTS OF HON. DAN BROUILLETTE, DEPUTY SECRETARY, U.S. 
  DEPARTMENT OF ENERGY; HON. MARK MENEZES, UNDER SECRETARY OF 
  ENERGY, U.S. DEPARTMENT OF ENERGY; HON. PAUL DABBAR, UNDER 
  SECRETARY FOR SCIENCE, U.S. DEPARTMENT OF ENERGY; AND HON. 
    FRANK KLOTZ, UNDER SECRETARY FOR NUCLEAR SECURITY, AND 
 ADMINISTRATOR NATIONAL NUCLEAR SECURITY ADMINISTRATION, U.S. 
                      DEPARTMENT OF ENERGY

                  STATEMENT OF DAN BROUILLETTE

    Mr. Brouillette. You guys have gotten a little technology 
since I have been here. And I am more accustomed to being on 
that side. The view is a little better from over there.
    Chairman Upton and Ranking Member Rush and members of the 
committee, speaking for myself and my three colleagues, who 
will also testify today, it is on honor to appear before you on 
behalf of the administration and the Department of Energy. This 
is my first opportunity to testify before Congress as the 
Deputy Secretary of Energy, and I appreciate the opportunity to 
update you on our progress.
    I am proud to work for such an outstanding Department, and 
especially under Secretary Perry, who is a true leader with 
exceptional management skills. He has set for us several 
priorities, and we will walk through this today. But just to 
run through them really quickly: Promoting America energy 
security by stressing innovation over regulation; enhancing 
national security through nuclear security; addressing the 
obligation of legacy management and nuclear waste; and the 
topic of today's hearing, modernizing the Department of Energy. 
With my full testimony submitted for the record, allow me to 
briefly discuss these priorities.
    Thanks to continued innovation from our national labs, we 
have ignited a technology revolution which has led to an energy 
revolution that is advancing our national security and our 
energy security. Today, we use energy cleaner and more 
efficiently, we obtain it from a wider diversity of sources, 
and we produce it more responsibly, affordably, and in greater 
abundance than previously predicted. We are closing in as a 
country on full energy independence, and we are on a path to 
achieving the administration's goal of energy dominance.
    For far too long, U.S. energy policy has been hampered by a 
false choice between two goals: growing our economy or 
protecting the environment. The result was an overload of 
regulations that drastically reduced energy production. Our 
administration and the Department of Energy are working to 
replace the ``or'' with an ``and.'' We are reducing unnecessary 
regulations on American energy, and in so doing, we are 
allowing our Nation to benefit fully from technological 
breakthroughs that reduce pollutants while dramatically 
increasing production.
    We are also focused on ensuring the reliable delivery of 
electrical energy to the American consumer for years to come. 
America's electrical grid is strong and reliable because it is 
powered by a diverse mix of energy sources. These sources work 
together to mitigate disruptions and increase resiliency when 
periods of extreme temperatures, like the one we just recently 
faced, affect supply and demand.
    As you know, last fall, Secretary Perry proposed that FERC 
consider establishing new pricing rules that factor in the 
important contributions of baseload generation to ensure long-
term grid resiliency and reliability. FERC responded yesterday 
with the unanimous decision to direct regional transmission 
organizations and independent system operators to proactively 
evaluate the resilience of the bulk power system. We are 
encouraged by this action, and we look forward to working with 
FERC and the individual commissioners on this important issue.
    But taking steps to ensure the grid's diverse energy supply 
is but one aspect of DOE's critical mission. Today, the 
Secretary of Energy is responsible for a broad range of 
national security, scientific, and environmental activities. A 
key challenge for any large enterprise with such a broad 
mission is that it remain agile enough to adapt to tomorrow's 
challenges. Last month, the Secretary announced his intention 
to modernize the Department, to return it to its statutory 
framework, and to enable us to deploy resources more 
effectively and efficiently.
    The modernization plan directs several key changes. First, 
we have separated the Office of the Under Secretary of Science 
and Energy into two Under Secretary positions, and we restored 
of three Under Secretaries that are outlined in statute. The 
Under Secretary of Energy, the Under Secretary of Science, and 
the Under Secretary of Nuclear Security and administrator of 
the NNSA, all of whom who are here today to address this 
subcommittee and respond to your questions.
    The new Under Secretary of Energy, Mark Menezes, will focus 
on energy policy, technologies, security, and reliability, and 
certain departmental management functions. While the new Under 
Secretary for Science, Paul Dabbar, will focus on innovation, 
basic research, and environmental cleanup. General Klotz from 
NNSA, who will soon be retiring, as was mentioned by the 
chairman, is here today as well. And I would like to also 
publicly take this opportunity to thank him for his service to 
our Nation nearly 40 years, where he has served with honor and 
distinction, both in and out of uniform.
    In addition, elements of the former Under Secretary for 
Management and Performance portfolio will now fall under my 
responsibility as the Deputy Secretary. These changes are a 
vital first step to better organizing the Department to carry 
out its broad mission and to get much needed results for the 
American people. We will continue to look at ways to maximize 
our effectiveness, and we look forward to working with Congress 
and, in particular, this committee. We look forward to 
consultations with you toward that end.
    In conclusion, I would like to thank this subcommittee once 
again for inviting us to testify today. I believe each of the 
Under Secretaries has brief opening statements, and then we 
will all look forward to answering any questions that you may 
have.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Brouillette follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you, Mr. Brouillette.
    Mr. Menezes, before you start, I just want to again thank 
you for your time that you spend with us on a bipartisan 
delegation trip to look at the terrible circumstances of the 
hurricane impact in both Puerto Rico and the Virgin Islands. 
You may want to update us from when we went together down last 
month. But thank you for appearing before us, and we look 
forward to your testimony and your responses to our questions 
as well.
    Mr. Menezes. Thank you. And I look forward to giving you an 
update on the Puerto Rico situation, should the committee 
desire.

                 STATEMENT OF HON. MARK MENEZES

    Chairman Upton, Vice Chairman Olson, Ranking Member Rush, 
Chairmans Walden and Pallone, and members of the subcommittee, 
thank you for the opportunity to testify before you today, 
along with my colleagues, on behalf of the administration and 
the Department on the Department's modernization and 
realignment efforts.
    Support of the administration's goals of energy dominance 
and economic competitiveness are realized through this 
realignment effort, which more carefully aligns the resources 
and efforts of the Department to promote the responsible 
development of resources, as well as to ensure the reliability 
and the resiliency of our electrical grid. Returning to this 
committee room, I am reminded of the work accomplished on 
behalf of the American people by the members and the staff of 
this committee, some of whom are here today, and with whom I 
have had the pleasure to work when I served on the staff. In my 
2-month tenure as Under Secretary, I have had the pleasure of 
meeting with and speaking to a number of former colleagues and 
friends in endeavor to keep the lines of communication open as 
we continue to evaluate the progress made with this 
realignment.
    As Chairman Upton mentioned in early December, I was 
invited to travel with Chairman Walden's codel to Puerto Rico. 
It was my fourth trip to Puerto Rico and the Virgin Islands, 
along with eight members of this committee. And we saw the 
damage firsthand that Hurricanes Irma and Maria brought to 
these territories. Seeing the devastation to the electricity 
delivery system as well as to the healthcare and other 
services, serve as a reminder of the important work that we can 
do to ensure reliable and resilient electricity delivery which 
is critical to the lives of so many millions.
    The President's America First Energy Plan rightly calls for 
utilizing all of our energy resources in an all-of-the-above 
strategy to achieve energy security and economic strength at 
home and energy dominance through exports to markets abroad.
    Let me give a few examples of how the Department is working 
to promote the responsible development of these resources as 
well as to ensure the reliability and resilience of our 
electrical grid. DOE is the lead Federal agency for supporting 
energy infrastructure owners and addressing cyber threats to 
the energy sector. We partner with the private sector to 
prepare for, protect against, and reduce the impact of cyber 
threats. We are a member of the National Security Council, and 
bring the deep technical expertise from our 17 national labs to 
recognize and respond to cyber threats.
    The Office of Fossil Energy's national energy technology 
laboratory rare earth elements program focuses on developing 
technologies that be help recover rare earth elements from coal 
and coal by-products. The development of a domestic supply of 
rare earth elements that is economically competitive will help 
fuel our Nation's economic growth, secure our energy 
independence, by reducing our reliance on foreign rare earth 
element sources and increase our national security. 
Additionally, the National Renewable Energy Laboratory has 
conducted research that has delivered 6 cents per kilowatt hour 
utility scale solar 3 years ahead of the Department's goal. 
This success allows us to focus our research priorities on a 
more significant and long-term challenge, integrating variable 
renewables into our electric grid.
    Reliability and affordability paired with grid security 
enhancements will provide a more resilient energy 
infrastructure for the Nation. Improved policies for the 
development of energy infrastructure, including gas pipelines, 
smart grids, small modular nuclear reactors, energy storage, 
along with public-private partnerships with our national 
laboratories, bringing research technology to market, will help 
us address our Nation's energy challenges.
    The Department appreciates the committee's interest in our 
realignment, and we look forward to continuing to work with you 
on this and other opportunities to foster and promote 
responsible energy development and promote energy dominance.
    Thank you again for the opportunity to be here today, and I 
look forward to your questions.
    Mr. Upton. Thank you.
    Mr. Dabbar, welcome.

                 STATEMENT OF HON. PAUL DABBAR

    Mr. Dabbar. Thank you, Chairman Upton, Ranking Member Rush, 
and members of the committee. I am honored to highlight the 
mission of the Under Secretary of Science, which includes the 
Office of Science, the Office of Technology Transitions, the 
Office of Environmental Management, and of Legacy Management. I 
could say much about our priorities in those areas, but I will 
instead focus my remarks today on basic research, market-driven 
innovation, and environmental cleanup.
    In the area of basic research, let me highlight two near-
term projects and programs. One of the main priorities of the 
Office of Science is the accelerated deployment of the first 
U.S. exoscale-capable super computer with the intent to deploy 
the first of the three machines in 2021, maintaining our global 
leadership in computing since its inception. Computer modeling 
and simulations are vital in this era of big data and complex 
systems. And exoscale computing, which will be at a billion 
billion calculations a second, that is 10 to the 18th, 
represents the next step. The evolution of super computing 
includes advances into physical sciences and high technology 
areas. This area is of intense international competition, and 
it is key that this project will maintain our global 
leadership.
    The second project area I would like to highlight is the 
Long-Baseline Neutrino Facility and the Deep Underground 
Neutrino Experiment, LBNF DUNE, at Fermilab outside of Chicago. 
It is another important priority for our Department. Once 
completed, this international center for neutrinos will study--
will pair the world's highest intensity neutrino beam at 
Fermilab outside of Chicago with massive cryogenic detectors 
installed deep in a former mine in south Dakota. Completion of 
this project will cement U.S. preeminence in neutrino science, 
one of the frontiers of high energy physics. I can report to 
you today that America's global leadership in science remains 
dominant, as it has for the last century. In the area of 
enhancing technology transitions, the mission of the Office of 
Technology Transitions is to expand the commercial impact of 
R&D and the DOE portfolio by facilitating partnerships with 
industry and investors in close coordination with the DOE 
programs in the national labs.
    Additionally, OTT is responsible for commercialization 
activities across all the DOE programs. Commercialization is a 
high priority of mine and the rest of the management team. I 
look forward to working closely with the Energy Investor 
Center, as well as with other DOE programs and our national 
labs to continue facilitating engagement with investors and 
with industry, and expand the pool of potential investment 
capital in DOE technologies.
    In the area of environmental management, the government's 
nuclear weapons program has made significant contributions to 
our Nation's defense. But this legacy includes significant 
obligations to address liquid radioactive waste, spent nuclear 
fuel, special nuclear material, transuranic and mixed low level 
waste, contaminated soil and water, and thousands of access 
facilities. As a former radiation control worker, I am 
particularly sensitive to our obligations in the area, as well 
as the health and safety of those executing on the program.
    We look forward to successful completion of key projects 
around low activity waste vitrification in Hanford, as well as 
salt waste treatment in Savannah River. This can significantly 
demonstrate risk reduction and progress in addressing cleanup 
obligations. The new alignment of the Offices of Science and 
Environmental Management reporting to the Under Secretary of 
Science, myself, will create additional momentum in 
environmental cleanup by further leveraging the experience of 
the national lab complex, and exploring various potential 
alternatives for science and environmental management, project 
management, and contract approaches. And we hope to better 
manage costs and solve the environmental management challenges 
while ensuring the highest level of safety for our Federal and 
contract employees, the public, and the environment.
    Thank you, and I look forward to answering your questions.
    Mr. Upton. Thank you.
    And Mr. Klotz, welcome.

                 STATEMENT OF HON. FRANK KLOTZ

    Mr. Klotz. Thank you. Chairman Upton, Ranking Member Rush, 
Chairman Walden, and members of the subcommittee, thank you for 
the opportunity to represent the women and the men of the 
Department of Energy's National Nuclear Security 
Administration. We greatly appreciate your interest in and your 
strong support for NNSA missions, its major programs, its 
infrastructure modernization projects, and, most importantly, 
its people.
    As America's highest ranking military leaders have 
repeatedly said, nuclear deterrence is the bedrock of our 
national security. NNSA was established by the Congress in the 
year 2000 as a separately organized agency within the 
Department of Energy to carry out three vitally important and 
enduring missions that directly relate to nuclear deterrence. 
The first of these is maintaining the safety, the security, the 
reliability, and the effectiveness of America's nuclear weapons 
stockpile. The second is to reduce the threat of nuclear 
proliferation and nuclear terrorism at home and abroad. And the 
third is to provide nuclear propulsion to the U.S. Navy's 
aircraft carriers and submarines.
    NNSA relies heavily upon the scientific, technical, and 
engineering talent and capabilities at its national 
laboratories and its production plants in fulfilling these 
national security missions. Secretary Perry has described these 
unique facilities as our nation's crown jewels. And they have, 
indeed, done a remarkable job in applying leading-edge science 
to address the Nation's most urgent security needs.
    That said, we continue to face important challenges as an 
enterprise, and we clearly have work to do. For example, it is 
absolutely imperative that we repair and modernize NNSA's aging 
infrastructure, over 50 percent of which is more than 40 years 
old, and some facilities even date back to the World War II and 
post-war Manhattan project.
    We must also continue to improve project management and 
conduct of operations by our contractors who manage and operate 
our sites. Our initiatives, to this end, have been informed to 
either findings and recommendations of recent congressionally 
mandated and internal reviews, and include such measures as 
establishing clear lines of authority and responsibility; 
adjusting contract incentive structures; holding contractors 
accountable for safety, security, and performance; and assuring 
appropriate levels of oversight.
    The results, I think, over the last several years, speak 
for themselves. Since we created an office for project 
management in NNSA in 2011, the administration has delivered 
its $1.4 billion capital construction project portfolio, 8 
percent under the original budget. And just this year, we 
delivered the High Explosive Pressing Facility at Pantex in 
Amarillo, Texas. We delivered the TRU Waste Facility at Los 
Alamos in New Mexico. The Deputy Secretary and I cut the ribbon 
at the construction support building at the Y-12 production 
plant in Oak Ridge, Tennessee. And we are just about to finish 
the administrative support complex at Pantex, which will house 
about a third of the Pantex workforce later this year.
    Additionally, I am proud to say all of NNSA's weapons life 
extension programs are on schedule and on budget despite the 
fact that we are in one of the busiest periods we have been as 
an enterprise since the end of the Cold War. It is worth 
emphasizing that NNSA collaborates closely with other DOE 
organizations on several fronts to execute its missions. The 
three national laboratories for which NNSA has responsibility, 
Sandia, Los Alamos, Lawrence Livermore, not only support NNSA's 
missions, they also support other DOE programs.
    Likewise, the other 14 national laboratories within the DOE 
complex do substantial work in support of NNSA's missions 
because of the unique skills and resources they possess. 
Together, the 17 DOE national laboratories are greater than the 
sum of their parts creating a world-class scientific complex of 
unparalleled capability.
    One of these areas, as already mentioned by my colleague, 
is in developing exoscale computing capability. We are doing 
this jointly with the Office of Science. The project will 
dramatically advance the Nation's capabilities in science, 
medicine, applied energy technology, and national security. It 
will also ensure that America remains a world leader in the 
highly dynamic and competitive field of computational 
technologies. For this reason, this exoscale project ranks as 
one of the Department's highest priorities.
    Again, thank you for your very strong support, and I look 
forward to answering any questions that you may have.
    Mr. Upton. Well, thank you all for participating and being 
here this morning. And we wish Secretary Perry well for sure.
    Mr. Brouillette, as the DOE's chief operating officer, I 
know this is the budget time. I am a former OMB official a lot 
of years ago. And the timeframe is a little bit different than 
it was when I worked for President Reagan in that the budget 
had already been up by the first week of January, and now since 
then, Presidents have sent their budgets up a little bit later. 
Given the huge demand for resources in your important 
department, I don't know if they have actually done the 
passback yet from OMB back to DOE, but how is your relationship 
with those folks down at the old executive office building in 
terms of their response to the Secretary's budget priorities?
    Mr. Brouillette. Well, sir, Mr. Chairman, our 
relationship----
    Mr. Upton. They are not in the room. They are watching.
    Mr. Brouillette. They are watching. Yes, I will be graded 
on this response, I am certain.
    Our relationship with Director Mulvaney has been strong. We 
are fortunate to have him as an OMB Director. As you well know, 
he is your former colleague, he comes from the Congress, he 
understands the budget process very, very well.
    With regard to our processes internally, we are in active 
conversations with the OMB. We have not yet completed the 
budget process. We do expect to see the final product of their 
work very, very shortly. And we expect it will be sent to 
Congress very, very shortly as well.
    Mr. Upton. The Department's role to maintain the Nation's 
nuclear deterrent is obviously a very important and vital 
mission. Recent reviews have found that the structure of the 
NNSA has sometimes isolated DOE's work from the needed cabinet 
level leadership. Can you commit to us, and certainly Mr. Klotz 
as well, that you will be working to ensure appropriate 
secretarial leadership and management support to enhance that 
vital mission?
    Mr. Brouillette. Yes. Absolutely. As you know, Mr. 
Chairman, this committee was instrumental in 1999, in the 
general time frame, in the creation of NNSA. So we understand 
full well what the direction of the U.S. Congress is toward the 
Department. It has given us the ability to work closely 
together. The Department and the NNSA collaborate very, very 
closely on the national security mission, and as well as other 
missions, which includes environmental cleanup, the cleanup of 
those sites.
    I will defer if General Klotz has any further comments that 
he might want to make about that collaboration. But I can 
assure you and this committee that we are working closely 
together.
    Mr. Upton. General Klotz.
    Mr. Klotz. Chairman, I would echo everything that the 
Deputy Secretary said. I think we have a very close working 
relationship. We had one in the previous administration. We 
certainly have one in this administration as well.
    One of the things that Congress did in creating the NNSA 
and the position of the administrator of the NNSA is they made 
that same individual also an Under Secretary within the 
Department which allows that individual to work very, very 
closely with the colleagues and throughout.
    I might add, one of the points that I really want to foot 
stomp in my oral statement applies to that part of the DOE 
complex out in the laboratories, the 17 laboratories. And as I 
indicated, we work very, very closely together. The non-NNSA 
laboratory support us significantly in our national security 
work, and we do an awful lot of basic science research that has 
relevance to the work they are doing as well. So I think this 
is a win-win organizational structure which has been created.
    Mr. Upton. My remaining comment, I would like each of you 
to respond just briefly with regard to the cyber threats, not 
only on DOE, but obviously the facilities that you oversee. So 
we know that there had been a number of briefings, public and 
private, over the years in terms of the increasing cyber 
threats. We know that literally hundreds of times daily it is 
the--likely attempts. And what can we do to ensure the safety 
for all of our citizens?
    Mr. Brouillette.
    Mr. Brouillette. Yes, Mr. Chairman. Cybersecurity is one of 
our highest priorities. The Department of Energy is the sector 
specific agency responsible for cybersecurity within the energy 
community, or energy industry, I should say. One of the first 
steps that the Secretary directed me to take as the Deputy and 
as the chief operating officer was to ensure that our own house 
is in order. We are obviously going to work with the industry, 
work closely with what is known as the ESCC, the Electric 
Sector Coordinating Council, to take input from our industry 
partners. I am aggressively focused at the moment on our 
inside-of-the-house activities. So working closely with our own 
CIO to make sure that our Department, our complex is protected 
on cyber matters.
    Mr. Upton. And do you have any recommendations for us in 
terms of trying to make your job easier?
    Mr. Brouillette. I will happily come back to the committee 
and share with you some additional thoughts once I can get my 
arms around this complex. But, sir, at the moment, I can't 
think of anything that I would need from this particular 
committee or the Congress.
    Mr. Upton. I know my time has expired.
    Do you have something you would like to add to that 
response? If not, go ahead, Mark.
    Mr. Menezes. One thing that we are doing, in Office of 
Electricity, we are actually running a nationwide grid system 
evaluation, really, if we can continue to supply the national 
critical assets with the power and eliminate the potential risk 
of cyber attack. This has not been done, and so this will be 
done by our Office of Electricity.
    Mr. Upton. I think there was an exercise that was supposed 
to take place not too long ago.
    My time has expired. Let me----
    Mr. Menezes. Grid X. We did----
    Mr. Upton [continuing]. Yield to the ranking member of the 
subcommittee, Mr. Rush.
    Mr. Rush. Well, thank you, Mr. Chairman. To all of the 
witnesses, I want to ask questions. If you don't have answers 
to the questions in that I only have 5 minutes, I want to allow 
you to respond in writing. As a matter of fact, that would be 
good.
    Deputy Secretary Brouillette, last week, my office reached 
out to staff at DOE in preparation for today's hearing 
inquiring about the percentage of minorities and the senior 
positions within the agency as well as it is much easier for 
the agency to consider policies and initiatives that address 
the needs of minorities when there are minorities at the table 
when decisions are being made.
    Are you prepared today to share some of these figures with 
the subcommittee? Specifically, can you provide a percentage or 
number of minorities in leadership position within the 
Secretary's office, the review boards, the boards and council, 
and among the SES staff?
    Also, can you, or Under Secretary Dabbar, share with us a 
number of minority directors at the 17 national labs and on the 
percentage of senior minority staffers in leadership positions 
at those labs?
    Mr. Brouillette. Yes, sir, I would be happy to provide 
those to you. I am aware of the question. I will respond to you 
formally in writing and make those numbers available to you.
    I would also like to share with you, at least, some of my 
early experiences at the Department. My first impressions----
    Mr. Rush. Mr. Secretary, I only have a few minutes.
    Mr. Brouillette. Yes, sir.
    Mr. Rush. Let me ask Mr. Dabbar.
    Mr. Dabbar, can you answer the question? How many minority 
directors of the 17 national labs, and on the percentage of 
minority staffers in leadership positions in the labs?
    Mr. Dabbar. I apologize. Could you repeat? Someone was 
coughing.
    Mr. Rush. Can you or Under Secretary share with us the 
number of minority directors at these 17 national labs and on 
the percentage of senior minority staffers in leadership 
positions at those labs?
    Mr. Dabbar. Thank you, Congressman Rush.
    No. I will be glad to share that information with you. I do 
not----
    Mr. Rush. OK. Thank you. You don't have them.
    All right. Secretary Brouillette, are you familiar with the 
minorities energy initiatives that were created under former 
Secretary Moniz?
    Mr. Brouillette. Yes, sir, I am.
    Mr. Rush. What are your plans for moving forward with that?
    Mr. Brouillette. We are going to continue that important 
program. I understand its importance to not only Congress, but 
the communities that are served by that program. We have every 
intention of continuing it.
    Mr. Rush. Now, then, the Office of Economic Impact and 
Diversity have been moved to the Deputy Secretary level.
    What are the plans for, in this office, moving forward?
    Mr. Brouillette. The same answer, sir. We are going to 
continue that. It is a very important program. It is vital to 
the communities that it is serves. And we see its continued 
importance to the Department.
    Mr. Rush. In your response in writing to me----
    Mr. Brouillette. Yes, sir.
    Mr. Rush [continuing]. Be very specific. I would like to 
know what plans and the implementation schedule, what those 
are?
    Mr. Brouillette. Yes, sir.
    Mr. Rush. Secretary Dabbar, your jurisdiction within the 
Office of Science includes responsibility for doling out 
taxpayer research dollars in the form of grants to institutions 
of higher learning.
    Can you provide this subcommittee with a list of schools, 
universities that have received funding over the past 10 years 
from your Department as well as the amount distributed to each 
institution? Also, do you know the percentage of funding that 
is loaned to minorities serving institutions, including 
historically black colleges and universities, and Hispanic-
serving institutions over the past 10 years?
    Mr. Dabbar. Congressman Rush, yes. About $3 billion a year 
is distributed through various FOAs out of the Department. It 
is a very large portion of the budget. The vast majority of the 
$3 billion across all our various programs goes to 
universities, and I would be glad to follow up with the 
specific information in writing that you are asking for.
    Mr. Rush. And I want to know about black-serving 
institutions and historically black colleges and universities 
and Hispanic-serving institutions.
    Mr. Dabbar. Yes, sir, we will do that.
    Mr. Rush. Mr. Chairman, I have just one more question for 
Mr. Dabbar.
    You oversee national labs. Can you provide this 
subcommittee with the approximate dollar amount of contracts 
that the labs dole out to private companies and vendors? Is 
their goal to include minority contractors? Have the labs 
reached that goal? And if not, is there a plan in place to 
increase minority participation for contracting and vending 
opportunities within the labs?
    Mr. Dabbar. Yes, we will.
    Mr. Upton. Thank you. Thank you all. The gentleman's time 
has expired.
    The chair would recognize the chair of the full committee, 
Mr. Walden.
    Mr. Walden. Thank you very much, Mr. Chairman. And, again, 
thank you all for being here. We look forward to your written 
responses to Mr. Rush's questions.
    The Office of Environment Management oversees the 
environmental remediation projects at some of our nation's most 
contaminated sites, including the Hanford reservation which I 
referenced earlier, located just up the Columbia River from 
where I live.
    In 2013, then-energy Secretary Moniz moved the 
environmental management out of the responsibilities of the 
NNSA administrator to a newly created Under Secretary for 
Management and Performance. And DOE's recent realignment 
shifted the office to now be managed by the Under Secretary for 
Science. So it seems like it has been moving around a bit on 
who has the responsibility. Those of us in the northwest care 
deeply about that and even more deeply about getting it cleaned 
up and protected, especially given some of the failures that 
have occurred eventually in some of the tanks and all.
    So Deputy Secretary Brouillette and Under Secretary Dabbar, 
will you please describe the reasoning for this shift, and, for 
example, what expertise is aligned with the Office of Science 
that may prove beneficial to similar large project management 
challenges that are associated with the EM's mission and give 
us an update on the latest at Hanford and where that waste 
would go if we ever get Yucca open. So, Mr. Brouillette, maybe 
you'd like to start out.
    Mr. Brouillette. Yes, sir. Thank you, Mr. Chairman.
    I will share with you some of the thinking that we had 
behind that particular move. And it starts with some of the 
first comments that I heard when I became a young staffer on 
this committee back in 1989. And that was along the lines of 
Hanford is very complex. Hanford is very complicated. It is a 
technical issue and, therefore, we haven't cleaned it up yet.
    And Secretary Perry has heard those very same arguments. 
And the thought process that we went through was how can we 
figure out how to fix this problem. And we have some of the 
best, some of the brightest scientists in the world working at 
the Department of Energy. So we thought that perhaps by 
combining these programs and forcing some collaboration between 
the environmental management program and these scientists would 
allow us to find the technical answers that we need to find to 
begin the actual cleanup of that site as well as other 
environmental management sites throughout the country. I will 
defer to Mr. Dabbar as to what the specific steps that we will 
take. But that was the initial thought.
    From a management standpoint, you should also know, too, 
that the Office of Science within the Department of Energy 
stands head and shoulders above many Federal agencies in its 
ability to conduct proper, efficient, and effective contract 
management. They do that very, very well. So we want to avail 
ourselves to those talents as well within the Department of 
Energy.
    Mr. Walden. Thank you.
    Secretary Dabbar.
    Mr. Dabbar. Yes. Chairman Walden, as the Deputy Secretary 
mentioned, I think there are two major buckets of reasons 
that--in terms of the specifics why the coordination can help 
in the execution of the mission of environmental management 
upon this reorganization. The first is technology. There are a 
number of different areas within the national lab complex that 
have linkages to the mission of environmental management. As 
you know, within the BES area, the Office of Science, we have 
chemistry. And a large portion of the issues associated with 
environmental management are radiochemistry issues. And 
obviously, between the chemistry functions as well as the 
nuclear side, nuclear physics side of the Office of Science, 
there is an awful lot of technology overlap. On top of that, 
there are other examples such as computer modeling of various 
disposition of various radionuclides, which we can use our high 
performance computing for. So it is a great degree of 
opportunity.
    And then the other bucket is project management. As the 
Deputy Secretary mentioned, the Office of Science is one of the 
three major areas that deal with project management, and it 
generally executes on time and on budget. And we think that the 
project management skills associated with other areas including 
the Office of Science.
    Mr. Walden. So you were just out there, right?
    Mr. Dabbar. Yes, sir.
    Mr. Walden. Can you give me, in the 45 seconds left, your 
update? Are we still on target?
    Mr. Dabbar. So there are things that we are moving along 
with that we are very excited about and we think are very 
positive. And there are some areas that have challenges. In 
terms of the positive areas, finally, we are moving down the 
road of making glass at the plateau. The DF LAW, which is the 
low activity waste treatment plant, is coming online. And we 
are going to make some glass, and we are going to clean up some 
tanks.
    We are also looking at closing out our first tank farm, 
possibly, first time ever. And we are looking to ship some 
waste off sight, first time ever. So there is some very 
positive things that we are executing on.
    Mr. Walden. When and where?
    Mr. Dabbar. Well, there are some options around TRU. TRU 
Waste is the things that we are looking at, and there is a 
couple different options very specifically that we are looking 
at. We have not identified exactly which one, but there are 
specific locations. And for that shipment portion example that 
we are focused on, we are focused on TRU.
    Mr. Walden. All right. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Upton. You are recognized, Mr. Pallone, from New 
Jersey.
    Mr. Pallone. Thank you, Mr. Chairman.
    My questions are of Mr. Brouillette.
    I was pleased to see FERC yesterday unanimously terminated 
the grid resiliency rulemaking that Secretary Perry proposed 
last year. And that flawed proposal would have subsidized 
certain coal and nuclear plants under the guise of a grid 
reliability crisis. And this is chiefly a policy matter, in my 
opinion, that should be left to Congress and to the states.
    On October 12 of 2017, I sent a letter to Secretary Perry 
requesting additional details regarding the development of this 
proposed rulemaking, including a list of DOE staff who put 
together the proposal and a list of all meetings where DOE 
staff or leadership discussed the proposal with outside 
organizations. And I saw that photos were published recently 
showing Murray Energy's CEO Robert Murray handing Secretary 
Perry a so-called action plan last March, a portion of which 
states, ``Immediate action needs to be taken to require 
organized power markets to value fuel security, fuel diversity, 
and ancillary services that only base-load generating assets, 
especially coal plants, can provide.''
    And so, these photos made me question how much outside 
influence went into the preparation of the proposed rulemaking 
and who those outside parties were.
    Now, Mr. Brouillette, I haven't received response to my 
letter, which was sent nearly 3 months ago, so I wanted to ask 
first: Do you know the status of DOE's response to this letter?
    Mr. Brouillette. No, sir, I don't, but I will happily look 
into it and make sure that you are responded to.
    Mr. Pallone. I appreciate that. Obviously you are making a 
commitment to ensure I receive a total response, and you will 
do that.
    Mr. Brouillette. I was just handed a note, sir. It seems 
that our lawyers, our GC office is responding to your note, 
preparing a response, but I will ensure that you receive it.
    Mr. Pallone. I appreciate that. Thank you. Now, let me go 
to the second thing that I want to talk about, and that is this 
Secretary of Energy Advisory Board panel. I would like to ask 
about that and its current status. As far as I can tell, the 
board, which has historically provided advice and 
recommendations to the Secretary on key DOE issues has not been 
reconstituted under Secretary Perry; in fact, the DOE website 
still shows members of the board that served under the Obama 
administration, including one of the witnesses on our second 
panel today, Dan Reicher.
    Now, Secretary Menezes relied heavily on advice and 
guidance from this advisory board, which put together several 
comprehensive reports during his tenure, and it seems to me, my 
opinion is that Secretary Perry, who had little experience on 
national energy issues before taking the helm at DOE, and even 
proposed eliminating the Department all together, when he was a 
presidential candidate, would benefit from such a group of 
advisors.
    So my question first is, am I correct that the Secretary of 
Energy Advisory Board has not been reconstituted under 
Secretary Perry? Is that accurate?
    Mr. Brouillette. I think it is accurate to say that it has 
not been disbanded. The Secretary's advisor board still exists. 
The Secretary is still in the process of evaluating membership 
on that board. But at this moment in time, I don't think he has 
made any decisions with regard to that particular board in 
terms of its membership. But I can tell you that it is an 
important component of the advisory function at DOE, and I 
think he has every intention of maintaining it.
    Mr. Pallone. So from what you said, and I don't want to put 
words in your mouth, you are saying that he does intend to keep 
it and appoint some members, it is just that he hasn't gotten 
around to it.
    Mr. Brouillette. I think that is correct.
    Mr. Pallone. I just think it is important that the 
Secretary have the guidance of a body like that.
    Mr. Brouillette. Yes, sir.
    Mr. Pallone. As he makes key decisions.
    Mr. Brouillette. Yes, sir.
    Mr. Pallone. And obviously, you agree.
    Mr. Brouillette. Yes, sir.
    Mr. Pallone. And hopefully, he is going to move ahead with 
that.
    Mr. Brouillette. Yes, sir, he will.
    Mr. Pallone. OK. Thank you so much. I yield back, Mr. 
Chairman.
    Mr. Upton. Mr. Barton.
    Mr. Barton. Thank you, Mr. Chairman, and welcome to this 
subcommittee. Two of you, especially, should be very familiar 
with this room. You worked with a lot of the portraits that are 
up on the walls. So it is good to see you all back. I don't 
know whether to congratulate you on progress or to commiserate 
with you on regression, but I am glad to see you.
    Before I ask my questions, I doubt that too many people--
General Klotz was talking about Pantex, and one of the unknown 
stories in my life is that in 1972, I was offered a job at 
Pantex as an industrial engineer with a company called Mason & 
Hanger, which was a contractor. It is the weirdest plant 
interview I ever did. They said, we can't let you see the 
plant. We can't tell you what we make. We can't tell you what 
you are going to do, but we really want you to come to work. 
And I asked a couple of questions, and they just said, we can't 
tell you.
    So then when I left the office, out in Amarillo, or outside 
of Amarillo, I saw this big bomb casing, big, big bomb casing. 
I said, well, that gives me a clue as to what they do here. But 
not too many members probably know what Pantex--I don't know 
what they do now, but then they actually made some of our 
nuclear weapons, and maybe they still do or they just maintain 
those.
    Mr. Klotz. Well, two thoughts, sir. One is, your career 
turned out OK, even though he didn't come work for us. And, 
two, the Pantex is the one facility where all the various 
components that make up a nuclear weapon are shipped, and it is 
the highly skilled workforce of people in the panhandle region 
that----
    Mr. Barton. Well, I know they are very proud of it. 
Chairman Thornberry is very proud that that facility is in his 
district. Well, I have a number of questions in terms of the 
Department's structure and reauthorization. Chairman Walden has 
asked that I try to lead an effort to reauthorize the 
Department on a bipartisan basis. So I just have some kind of 
general questions I want to ask Deputy Secretary Brouillette.
    What is the number of direct personnel that is actually 
working at the Department right now, not contractors, but full-
time Federal employees?
    Mr. Brouillette. Sir, it is approximately 13,000. Just 
north of 13,000.
    Mr. Barton. How many contract employees does the Department 
have authority over?
    Mr. Brouillette. The approximate number is going to be just 
north of 100,000.
    Mr. Barton. 100,000. OK.
    Mr. Brouillette. Yes.
    Mr. Barton. Do you know in terms of the contractors how 
many of the primary contracts are competitively bid as opposed 
to no bid contracts, sole source contracts?
    Mr. Brouillette. No, sir. In terms of an absolute number, I 
can't give you that, but I am happy to respond for that on the 
record. We will do the research and provide that information to 
your office.
    Mr. Barton. OK. Again, in terms of these contracts, I know 
some of them are long-term contracts. Do you have any idea what 
the average length of the prime contracts are?
    Mr. Brouillette. It really depends on the work that is 
being done, but I will defer to the two Under Secretaries who 
may be able to provide you with a more precise answer. Paul.
    Mr. Dabbar. Yes, Chairman Barton. It does depend on which 
ones, but in a typical science contract, many of them are 5 
years with a 5-year extension. That is a typical contract. 
Obviously, within a lot of our national labs, some have very 
long-term relationship needs and are linked to universities. 
Some of them are more engineering and construction jobs, so if 
you take environmental management or some of the general areas, 
those are very project specific. So depending on the length of 
the project, many times they could be 3 or 4 years. And some of 
the very longer term ones, such as at Hanford, they are a bit 
longer, given the length of the construction.
    Mr. Barton. Could the Department give the committee a list 
of these large primary contracts and when they are next 
scheduled to be up for renewal?
    Mr. Dabbar. Yes, sir.
    Mr. Barton. If we are going to do a reauthorization bill, 
that is some information we would need.
    Mr. Brouillette. Yes, sir, we would be happy to provide 
that to the committee.
    Mr. Barton. One of the things that now Senator, then 
Congressman, Ed Markey, and I worked on 10 or 15 years ago was 
the creation of a northeast gasoline reserve in fuel oil 
reserve. And I notice those have now been established in almost 
every State in the northeast--has either/and a fuel oil and a 
gasoline reserve--are these facilities similar to tank farms 
where you actually store fuel onsite, or is it a contractual 
arrangement where the private sector has to provide the fuel if 
it is called on to?
    Mr. Brouillette. Sir, with regard to the strategic 
petroleum reserve, we actually retain the fuel onsite.
    Mr. Barton. So these gasoline reserves and fuel-off 
centers, like in Massachusetts and New York and New Jersey, 
they actually have the fuel onsite?
    Mr. Brouillette. I will check on the gasoline reserves in 
the northeast to ensure that this answer is correct. It is my 
understanding that at least partially those fuels are stored 
onsite. But with regard to the strategic petroleum reserve----
    Mr. Barton. I know the crude oil is.
    Mr. Brouillette. Yes, it is.
    Mr. Barton. My last question is. Is the Department and the 
Trump administration supportive of a Department of Energy 
reauthorization bill in this Congress?
    Mr. Brouillette. Sir, I am sorry, the question is, do we 
support a reauthorization bill?
    Mr. Barton. I have had informal contact and discussions 
with Secretary Perry, but I have never asked for a formal 
response on the record, so I am now doing so.
    Mr. Brouillette. Sure. We would be very enthusiastic about 
working with Congress to reauthorize the programs. With regard 
to the actual policy, OMB is going to be a part of this process 
as well. But as a Department, I can assure you that we stand 
ready to assist the committee if it proceeds.
    Mr. Barton. I appreciate that. And I yield back, Mr. 
Chairman.
    Mr. Upton. Thank you. Mr. Peters.
    Mr. Peters. Thank you, Mr. Chairman. Thanks to the 
witnesses for being here. Mr. Deputy Secretary Brouillette?
    Mr. Brouillette. Yes, sir.
    Mr. Peters. You said something that I have said in my 
campaign speeches for 20 years, 15 years, however long I have 
been doing this, which is that the choice between a clean 
environment and a prosperous economy is a false choice. And I 
wanted to follow up just in terms of the Department's policy 
with respect to that.
    I read through the testimony, I saw some stuff about 
environmental cleanup, but what I didn't see was reference to 
some of the more current discussion around greenhouse gases. 
And I just wanted to ask you, is it a policy in any respect of 
the United States Department of Energy to limit the emission of 
greenhouse gases and short-lived climate pollutants, including 
methane and black carbon?
    Mr. Brouillette. Is it the policy of the Department to 
limit it?
    Mr. Peters. To limit those emissions.
    Mr. Brouillette. Well, we are not the regulator, if that is 
your question. We don't regulate those types of emissions, that 
falls more to the EPA. But with regard to finding technological 
solutions, using the scientists in our labs to develop new 
technologies, that would limit those types or reduce those 
types of emissions. Absolutely, that is part of the 
Department's mission.
    Mr. Peters. Would that be a reference to carbon capture 
specifically, or do you mean----
    Mr. Brouillette. Yes, it is. The Secretary has been very 
gauged on that issue. He just returned, as a matter of fact, 
from overseas, where he was part of a clean energy ministerial. 
We have been working with our international partners around the 
world to see that technology further developed and utilized in 
other countries around the world.
    Mr. Peters. Beyond that, are there any other technological 
solutions the Department is pursuing to reduce or limit 
greenhouse gas emission?
    Mr. Brouillette. I might defer to our Under Secretaries as 
they run those programs.
    Mr. Menezes. Specifically, our Office of Fossil, for 
example, is developing new technologies on small coal units, 
for example, where one of the criteria is reduced emissions. So 
it is actually in the production of electricity is where the 
technology is focusing on, not just post-combustion where you 
capture it and store it.
    We are developing really, across the broad spectra, we are 
looking at fuels that can be produced and used at the front end 
to lower emissions than during the actual combustion process 
itself to reduce emissions, and then post-combustion capture 
and sequestration.
    Mr. Peters. Mr. Deputy Secretary, let me just say, is it 
fair to say that, in developing resiliency and energy security, 
it is not part of your calculus to determine which energy 
sources are cleaner than the other, to be abbreviated about it?
    Mr. Brouillette. I think the Nation is served by the all-
of-the-above strategy. I don't know that we are going to pick 
and choose the generation sources or the energy sources, that 
is where the American people--for other policymakers. But if 
your question is related to our support of an all-of-the-above 
strategy, the answer to that is clearly, yes, we do support 
renewables, we support wind, we support solar, we also support 
nuclear, as well as coal and natural gas.
    Mr. Peters. Do you have a position on the Tax Code's 
treatment of any particular energy source?
    Mr. Brouillette. No, sir.
    Mr. Peters. I guess the other question I have is with 
respect to energy. First of all, I was struck by what we all do 
agree on. We talked a lot in this committee about cybersecurity 
and grid security, we want solid distribution, and basic 
research. And I pointed out before that the ARPA-E program, I 
think, since it was created in 2009, has provided $1.5 billion 
in funding to more than 580 projects that has led to the 
formation of 56 new companies, 68 projects with other 
government agencies, including Defense that has attracted more 
than $1.8 billion in additional private sector investment.
    Mr. Dabbar, is that the kind of investment you want to see 
continued when you talk about basic science research?
    Mr. Dabbar. Overall, we are very supportive of the programs 
that we have at the Department around commercialization. ARPA-E 
is certainly a portion of it. If you think about the large FOA 
bucket, which is a grant bucket, we have about $3 billion a 
year across our various different areas. And ARPA-E is about 
$300 million of that, so it is about 10 percent.
    Mr. Peters. I was concerned that the President's initial 
budget zeroed it out. And I spoke to the Secretary about it 
when he was here. He indicated that maybe he didn't agree with 
that, I certainly don't. I want to say that I am sympathetic to 
all the agencies that come testify for us in the wake of this 
so-called tax reform that added at least $1 trillion to a 
national debt. And we are looking at $1 trillion deficits going 
forward. I think it puts a lot of pressure on that. But I do 
want to highlight that as something that I agree deserves our 
support as a Congress and hope that we can figure out a way to 
responsibly fund that.
    With that, I yield back.
    Mr. Upton. Yield to Mr. Olson. Thank you.
    Mr. Olson. I thank the chair, and welcome to our four 
witnesses. A great panel. Two neighbors from Louisiana, 
Secretary Brouillette and Secretary Menezes. A Naval Academy 
graduate, a fellow sailor, a submariner, Mr. Dabbar. And 
Lieutenant General Klotz, who has the high honor of being a 
native born Texan, Lubbock, Texas. Welcome.
    As a former naval aviator, over 1300 hours of P-3 Orion 
submarine hunter, I was trained to track, attack, and destroy 
Russian ballistic missile submarines. And while I can never 
confirm nor deny that I flew with nuclear weapons, we were 
qualified to drop what is called a B-57 nuclear death bomb. 
That bomb was designed to destroy Russian submarines where it 
created a big wave of air on the break and keel by the weight 
of the boat. That bomb has since been retired. But as you all 
know, we still have nuclear weapons as part of our strategic 
deterrence.
    My first question is for you, General Klotz. DOE and NNSA 
has the task of keeping, as you said, our nuclear weapons safe, 
reliable, and effective. And you have years of experience 
administrating the nuclear security programs of the Department. 
You understand the challenges to this complex mission.
    My question is, please discuss the role of the national lab 
system, not only the weapons labs, but the whole system in 
maintaining our nuclear deterrent and national security?
    Mr. Klotz. Thank you, sir. That is a wonderful question. 
People often ask me what was I most surprised about coming into 
this particular job 4 years ago, and one of my answers is, I 
understood how the three national laboratories, which NNSA has 
responsibility for, contribute to that mission. What I didn't 
realize, until I went out and visited all of the other 14 
laboratories is how much work is being done throughout the 
entire system. We use the other laboratories because of the 
special scientific and engineering skills that are resident in 
those laboratories, some of the unique equipment that they 
have. But I would say of all 17 laboratories, we have direct 
funding going to the vast majority of them. And even those 
laboratories that we do not directly fund, many times they are 
subcontractors to other laboratories doing work for the NNSA, 
both in the weapons activity account, and in the defense 
nuclear non-proliferation account, as well as naval reactors.
    Mr. Olson. Thank you. My next question is for Secretary 
Brouillette and Secretary Dabbar. Houston, my home town, is the 
oil and gas capital of the entire world. I am proud of that. As 
we say in Texas, that ain't changing any time soon. Natural gas 
is now very abundant, and it has now become the core of 
electric grids across the country. At the same time, though, 
the fastest growing jobs in Texas are actually in wind power. 
We are exploding, number one in America in production of wind 
power.
    We have an important role to play, but some have said that 
unlocking that source of energy, it is right, will have to have 
better batteries, better transmission lines, and also the wind 
is always blowing when we need it and where we need it.
    Could you talk about how DOE balances and supports new 
developments like wind, a crucial source of energy, while 
moving forward with research to alternative energy?
    Mr. Brouillette. Yes, sir, I can. As you know, sir, as a 
Texan, and as a part-time resident of Texas myself for 12 
years. I was down with USAA in San Antonio, Texas. I understand 
the record of Secretary Perry, I wanted to call him Governor 
Perry. But as Governor of Texas, he approached this with an 
all-of-the-above strategy. Texas is now the largest wind energy 
producer--one of the largest, I should say, in the United 
States. It is a very, very important component of our diversity 
mix for the purposes of generating electricity.
    What we are doing at the Department of Energy is trying to 
find ways to manage the variability of those intermittent 
sources on the grid, as well as using the science labs to 
develop the next stage, the next level, if you will, of battery 
storage, of battery power. And I will let Under Secretary Paul 
Dabbar speak to the specific activities that he has undertaken 
as the head of our science labs.
    Mr. Olson. Commander Dabbar.
    Mr. Dabbar. Thank you, Congressman. As someone who grew up 
in Oklahoma and saw the wind come over from Texas, I am very 
much appreciative of that--we kind of caught the tail end of 
what wasn't used in Texas.
    One particular area of the Office of Science, and this goes 
back to our previous question around renewables, is in the 
battery area. One of the big strengths of what the Office of 
Science does is in the area of battery technology beyond 
lithium. Actually, at our laboratory in Oregon, they branded 
the chemistry area for batteries beyond lithium. So there is at 
least a little bit of marketing in the science organization.
    There is a number of different batteries that we are 
working on: multiple batteries, including magnesium ion, which 
includes solid state that we are working on at a very early 
stage; flow batteries, which can be used for grid applications; 
and next generation lithium ion, using our light sources and 
other modeling techniques on the computer side to improve upon 
existing lithium ion.
    We think this is a major idea in terms of being able to 
take applications from technologies in the Office of Science 
and really move forward and really leverage renewables from an 
intermittent source to something that can be more 24 by 7.
    Mr. Olson. Thank you, my time has expired. USAA member for 
life. I yield back.
    Mr. Upton. Mr. Doyle.
    Mr. Doyle. Thank you, Mr. Chairman. And thank you to the 
witnesses here today. Secretary Brouillette, in your testimony, 
you highlight the importance of energy security and explain 
that this energy security, as well as our economic prosperity 
depends on continued American ingenuity and innovation. And you 
continue by saying that Secretary Perry and yourself are very 
proud of the advancements that DOE's research and development 
has spurred. That DOE-funded R&D is truly inspirational. I want 
you to know that we all agree with that statement, however, 
many of my colleagues and myself are greatly concerned by the 
budget request we received from the Department of Energy 
earlier this year.
    And I just have a few yes-or-no questions about the budget 
proposals for you. For instance, you emphasized the importance 
of reliable electricity, but the proposal proposes cutting 
electricity delivery and energy reliability budget from $206 
million to a $120 million, which is a decrease of over 40 
percent. Can you tell me just yes or no, do you anticipate 
revising that cut for this year's budget request?
    Mr. Brouillette. It is hard for me to answer yes or no, 
sir, because we are going through the process that is ongoing.
    Mr. Doyle. Try your best to do that because our time is 
limited.
    Mr. Brouillette. Sure. I think this office is very 
important. We are going to work with OMB to find an appropriate 
number.
    Mr. Doyle. OK. Thank you. Also, President Trump's repeated 
promises on clean coal throughout the campaign and presidency, 
I want to point out that many members on both sides of the 
aisle support technological innovations that aim to achieve 
that goal.
    In fact, my colleague on this committee, Representative 
McKinley and I, lead a letter each year that would boost 
funding for that research. Last year, we proposed increasing 
the funding for fossil R&D by over 30 percent to $829 million. 
However, the Department of Energy's budget request proposed 
cutting the fossil energy R&D budget by $352 million. That is 
an over 55 percent cut down to $280 million. And it is Mr. 
Reicher's testimony that we will hear when the second panel 
gets here highlights, it actually cuts R&D funding for CCUS 
specifically by nearly 85 percent.
    Do you anticipate increasing the Department's budget 
request for fossil R&D, and specifically, for CCUS next year?
    Mr. Brouillette. I anticipate that the Congress will want 
to support that at a higher number.
    Mr. Doyle. Yes. Yes, they will.
    Mr. Brouillette. That is exactly right. That is exactly 
right.
    Mr. Doyle. Your testimony also sings the praises of energy 
and technological innovation. But the budget proposes, as Mr. 
Peters pointed out, eliminating ARPA-E. This is very perplexing 
to a lot of us. The nonpartisan National Academy of Sciences, 
Engineering, and Medicine released a report last year that 
analyzed ARPA-E, a congressionally-authorized program. And that 
report says ARPA-E is, in many cases, successfully enhancing 
the economic and energy security of the United States by 
funding transformational activities. And it continues to say, 
importantly at this early stage, the committee has found no 
signs that ARPA-E is failing to deliver on its mission and 
goals, or is on a path to failure, or is in need of reform.
    Do you plan on revising your budget requests for next year 
with regards to ARPA-E?
    Mr. Brouillette. That is a decision, sir, that is going to 
be made by OMB. But there are differences of opinion about 
whether or not the Department should be in that particular 
business. We have offered a proposal to the Congress, but I 
will assure you the Congress funds the agency or funds ARPA-E, 
we will execute to the letter of the law.
    Mr. Doyle. Yes, we will be doing that, too. Thank you. I 
want to also highlight a DOE study published in 2016 that 
highlights the importance of CCUS technologies. In it, the 
authors describe the industrial CCUS as the low-hanging fruit 
among CCUS projects, because many industrial processes produce 
relatively pure streams of CO<INF>2</INF>.
    DOE has previously funded industrial CCUS pilot projects 
through the American Reinvestment and Recovery Act. And though 
there have been proposals to delineate natural gas CCUS 
technology and coal CCUS technologies in the previous 
administration's budget request, would you support separate R&D 
funding source for industrial CCUS?
    Mr. Brouillette. I would, sir, but again, that is a final 
decision that is going to be made by OMB and the Congress 
itself.
    Mr. Doyle. Thank you. And let me just finish by saying that 
I am pleased to participate in an energy efficiency and 
manufacturing roundtable hosted by Scott Energy Innovation 
Institute at Carnegie Mellon this coming Friday, and 
Representative McKinley, a leader on this issue, will be 
joining me, as will many manufacturers and energy companies in 
my district.
    President Trump has placed a special emphasis on the 
manufacturing sector, and understandably so, as the industry 
has been suffering for too long. In this proposed 
reauthorization of DOE, would you want to change the Advanced 
Manufacturing Office or the Clean Energy Manufacturing 
Initiative, and if so, what kind of changes would you foresee?
    Mr. Brouillette. As a former executive at Ford Motor 
Company, I understand full well and understand keenly the 
important work that is done by the advanced manufacture and 
technology folks at DOE, and I happen to support what they do. 
With regard to future changes, I would like to work with you 
and this committee to determine what those might be. I have not 
given it significant thought before you asked me the question, 
but I will do so.
    Mr. Doyle. Thank you. We appreciate you being here today, 
and we look forward to working with you.
    Mr. Brouillette. Thanks.
    Mr. Doyle. I yield back.
    Mr. Upton. Thank you. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. It is great to have 
you all here. I am going to try to go quick. I have got four 
short questions.
    First, Dan, Secretary Perry has stated that it is the 
Federal Government's legal and moral obligation to permanently 
dispose of spent nuclear fuel and defense waste. If Congress 
provides the funding, is DOE prepared to reconstitute the 
Office of Civilian Radioactive Waste Management, which we call 
OCRWM, and resume its statutorily required regulatory review of 
the Yucca Mountain license application?
    Mr. Brouillette. Yes, sir. If you provide the funds, we 
will execute to the letter of the law.
    Mr. Shimkus. Great. Thank you. I have been flipping around. 
Mr. Dabbar, just because you mentioned it. I understand what 
making glass means in this whole Hanford debate. Had we not 
broken the law with the last administration, and had we kept to 
the timeframe per the Nuclear Waste Policy Act and its 
amendments, where would that glass go?
    Mr. Dabbar. Thank you, Congressman. So the vitrification I 
was referring to for DF LAW, which is the new vitrification 
facility which is coming on line, is low activity waste. That 
can be stored onsite at Hanford. It does not need to go to----
    Mr. Shimkus. What part of the Hanford waste is designated 
to go to the final repository? And you can name that for me.
    Mr. Dabbar. Yes, sir. That would be the high level waste, 
which that building is still under construction, but that also 
is planned to be vitrified in the future, and that would need 
to be disposed of offsite.
    Mr. Shimkus. And if we were on schedule, per the law, where 
are you and DOE designing the cast and the delivery systems to 
finally go to? There is an easy answer.
    Mr. Dabbar. So, in general, there has been, I think, a lot 
of debate by this House about whether----
    Mr. Shimkus. I am not asking about the debate by this 
House, I am asking about the Department's position and current 
law.
    Mr. Dabbar. Yes. The previous analysis of where it was 
supposed to go was to go to the Yucca Mountain site.
    Mr. Shimkus. That is where it is supposed to go per law. 
And had we not broken the law and not derailed the timeline, 
that is where it would be going. So, thank you, that was a lot 
harder than I thought.
    Let me go to Mark real quick. Under the Office of Energy 
Efficiency and Renewable Energy, they are doing a study called 
Co-Optima. I am not sure if you are aware of that. I would ask 
you to look into it and report back to me on this. It is 
basically an energy efficiency in transportation vehicles.
    Actually, Secretary Brouillette might know a little bit 
about it, but it is going to be very, very helpful to us as we 
try to thread the needle on this RFS debate. And it is really a 
high-efficiency, high-octane research project that you all are 
doing. And I need to know when you are going to be done with 
that, and that will be very, very helpful in this. So could you 
get back to us?
    Mr. Menezes. We will. We will look into it and we will 
provide the response.
    Mr. Shimkus. Dan, do you want to add anything to that since 
you----
    Mr. Brouillette. No, sir. I know that this is an ongoing 
conversation between you and the administration and others in 
Congress, and we will get right back to you on the results of 
that study, or at least the progress of that study.
    Mr. Shimkus. Yes, because that study I think it is linchpin 
on how we can thread the needle on this, if it comes out the 
way I think a lot of us have hopes and expectations. Mark, I 
want to go back to you--and maybe there will be some other 
folks that this kind of addresses some of the other agencies 
here. Secretary Perry signed a--this is on the uranium market, 
and Secretary Perry, let me see the--I have the Honeywell 
Conversion Facility in Metropolis, Illinois that is idle 
because we think--part of the reason is the DOE's activity and 
the uranium market through the Uranium Bartering Program, 
Secretary Perry wrote a letter last year in reference to how 
that should not affect uranium mining, and our individual 
processing facility, and our ability. We think it is. Can 
anybody comment on this because of the idling of that?
    Mr. Dabbar. I would be glad to take that, sir. I think, as 
you know, a previous administration had looked at funding part 
of the Portsmouth D&D through funding of sales of uranium, and 
that there is a requirement that the Department does an 
analysis on the impact of those sales. That current program is 
expected to be completed in 2021. And the Department earlier 
this year, and the Secretary signed off on a detailed analysis 
that took down the amount that we are selling this year to 1200 
MTU. And that is the current plan. Once again, the current plan 
is that it will end by 2021.
    Mr. Shimkus. I would just say, it is impacting the jobs and 
the economic activity in my district in this plan. I would hope 
you all would take that into consideration.
    Mr. Upton. Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman. Secretary Menezes, in 
Puerto Rico, over 40 percent of the electricity customers have 
been without power now for about 4 months. And I understand 
that that is well over half a million American citizens. I was 
surprised that in the emergency aid package, what was proposed 
by the Trump administration, and passed at the end of the year 
in the House, it did not include a lot of direction and 
flexibility for the Department of Energy working with FEMA and 
the Army Corps of Engineers to build the more resilient grid 
that we discussed in this committee.
    Can you give us an update on what is happening right now 
and the division of labor to help get the power back on, and do 
it in a resilient way that protects the American taxpayer in 
the future?
    Mr. Menezes. Let me use this as an opportunity to just 
update with the numbers. As of the 6th, we have 80.8 percent of 
the normal peak load restored, and now we have 60 percent of 
the customers with power--that is 885,000 homes and businesses. 
We have 87 percent of the substations that are operating. And 
we still have 3,000 personnel down there working every day to 
restore power to the people of Puerto Rico.
    With respect to the request for assistance, that is going 
to be an OMB, I think, agency answer to provide for you. I know 
we certainly gave them----
    Ms. Castor. Do you feel like you have the authority, 
working with the Army Corps and FEMA, to build a more resilient 
grid, to not just build back what was there that was outdated 
and it was bankrupt, but to do something to protect taxpayers 
in the future?
    Mr. Menezes. Yes.
    Ms. Castor. Or do you need additional authority from the 
Congress to do that?
    Mr. Menezes. Well, again, I can't speak for the 
administration, but from my own personal observations of having 
been involved in the Puerto Rico efforts since I have been 
sworn in, it is clear that DOE's expectations of what it can do 
exceeds its authorities and the resources that are provided to 
it, particularly----
    Ms. Castor. I think I understand your question that you 
need greater authority.
    Mr. Menezes. Particularly on the resiliency, though, 
however, we are leading the interagency effort to model to 
determine how when we move toward--after restoration toward 
rebuild----
    Ms. Castor. I am afraid it might be too late by that point 
if we are doing the modeling now, because we have the 
technology. The national labs and industry have all the tools 
at their disposal. But if we are just going to restore power 
the way it was, it is not going to work as well.
    I want to move on. I heard what you all said, you are 
committed to innovation, you are committed to diversity of 
sources, but everything going on at the Department of Energy 
just belies that fact when you look at the very significant 
proposed budget cuts by the Trump administration last year. A 
$2.7 billion decrease, including drastic cuts in clean energy, 
electric grid operations, next generation energy technologies. 
That is not a recipe for innovation.
    And then, thank goodness, the FERC unanimously rejected 
Secretary Perry's proposal yesterday to give financial relief 
to some sources of energy when we need really a competitive 
wholesale market. And resiliency and reliability doesn't mean 
you just double-down on what has been our energy sources of the 
past, but to look at all the energy sources for the future.
    Then you add on the Department of Energy's backpedaling on 
our very popular and cost-effective energy efficiency appliance 
standards. That is not a recipe for innovation and diversity of 
sources. I hear what you are saying, that the policy is 
dominance, but I think that all of this added together is 
taking America backwards at a time when other countries and 
businesses across the world are investing. Thank goodness 
America still remains the leader in research and development, 
and there is fantastic research going on in the national labs, 
in our higher education institutions, and with business.
    But I think when you backpedal, when you say, we are not 
going to invest in the science that we have in the past, you 
are just weakening our ability to compete with companies like 
China. They want to be the world leader now. And it is no 
secret.
    All of that put together, Secretary Brouillette, how do we 
keep America's competitive edge in all of these sources of 
energy, all of the technology, when policies of the Trump 
administration seem to be going backwards?
    Mr. Brouillette. Thank you for your question. I hear your 
concern, I am not sure I agree with every premise, but I do 
hear your concern in your argument. Let's just start with the 
NOPR, with regard to what the Secretary in proposing a rule to 
the Federal Energy Regulatory Commission, the point of that 
rule was not to pick winners and losers as it has been 
described or to subsidize in certain cases certain forms of 
energy. What it was proposed for and the rationale behind it 
was to preserve baseload generation, which provides, in many 
respects, the resiliency and the reliability that we currently 
enjoy with our grid.
    Ms. Castor. But weren't you then asking customers across 
the country to pay for more expensive sources of energy, and 
that would cost customers billions and billions of dollars? 
That doesn't seem like a path for innovation and diversity 
sources.
    Mr. Brouillette. Sure. Well, in some respect, it wasn't the 
Department of Energy asking, it was the people who actually run 
the grid, the PJM folks, in particular, and others who were 
asking for changes to their market rules because they, 
themselves, acknowledge, in certain cases, the providers of 
this type of electricity are not properly compensated for the 
services that they provide. So they have sought changes as well 
to their own market rules, and that is what we were 
participating in, was that conversation to do exactly that.
    So it wasn't an effort to subsidize dirty fuels or to take 
a step backward, if you will, it was to provide a more 
appropriate compensation for services that are provided each 
and every day. So that was the intent behind that rule.
    With regard to the budget and the science and the 
innovation that the Department is currently undertaking, in 
certain cases, while we may see some reductions in certain 
areas of the Department, it is the focus of the Secretary and 
the focus of the administration to have the Department focus on 
basic science rather than applied science. So to the extent you 
see some reductions in areas, it may be that you are looking at 
reductions in applied science, simply because we want the focal 
point to be basic research, which we feel is a very strong 
point of the Department of Energy. We feel that they do that 
very, very well, and we want to encourage those activities.
    Mr. Upton. The gentlelady's time is expired. The gentleman 
from Ohio, Mr. Latta.
    Mr. Latta. Thank you, Mr. Chairman. And thank you very much 
for our panel for being here, it is very, very interesting and 
informative, so I appreciate your time here today.
    In recent Congresses, this committee has taken steps to 
give DOE new authorities that modernize its energy security 
missions. Response for enacting legislation in the FAST Act to 
give the agency additional critical infrastructure protection 
authorities, particularly for the electric grid. We also 
enhance authorities for emergency preparedness for energy 
supply disruptions.
    And in my district, again, to give you an idea, northwest, 
west central Ohio, I have got 60,000 manufacturing jobs and a 
couple--several years ago, not too many years ago, we had a 
very, very tough winter, and we were fearful that we might have 
some energy disruptions. When you got 60,000 type manufacturing 
jobs out there doing everything from float glass to steel and 
everything else, you just can't shut down lines. So we are 
heavily dependent on baseload capacity out there to make sure 
we can keep things running.
    It is also interesting in the last year, year and a half, 
that they have been out, not only talking with all of my folks 
from my electric co-ops to my municipal electrics and you go on 
down the line, that not only talking with customers, but also 
the individuals that work and run the facilities. There is a 
lot more concern out there about cyber attacks, and what could 
be happening out there.
    And, Mr. Menezes, I understand that you have received the 
Cyber and Emergency Energy Supply Responses functions in the 
Department; is that correct?
    Mr. Menezes. With respect to the program in the Office of--
--
    Mr. Latta. Let me ask you this: In your experience with the 
emergency responses in recent months, do you believe the 
Department should have a larger role in energy and cyber 
emergencies at this time?
    Mr. Menezes. Again, it has been my experience since being 
with the Department that the expectations do exceed the 
authorities that we have. We see it in all emergency response 
across the board. We are looked at to provide answers and 
expertise, which we have in support of rebuild efforts, 
protection efforts, et cetera, as I mentioned. We are on the 
NFC, which gives us insight into certain classified information 
that others do not have. And, yet, when you look at our 
authorities, it is limited.
    Mr. Latta. All right. Let me ask you this then. As you talk 
about that limited authority that you have, are you committed 
to work with this committee to identify and enhance your 
authorities, and really work with us to say, what are the tools 
out there that you need to have to make sure that you can do 
your job?
    Mr. Menezes. Yes, sir. We are committed to working with 
this committee as long as you let us bring our OMB counterparts 
with us.
    Mr. Latta. OK. General Klotz, again, as from the other 
members on the committee, thank you very much for your service 
to our Nation. And with your responsibilities to cover 
emergency response relating to radiological emergencies. Is 
that correct?
    Mr. Klotz. That is correct, Congressman. Although, most of 
the work in terms of emergency response is a responsibility of 
state and local responders or National Guard. Our primary 
function is to support them by, one, training them, and two, 
being there with the tools that are necessary to measure and 
characterize any radiological or nuclear release.
    Mr. Latta. Let me follow up with that then. When you are 
out there training, especially the National Guard and local 
responders, because that is, again, who I hear from the most 
because I am out in my district all the time. Do they feel that 
they are getting the information that they need to have from 
you all to make sure that they can get the tools that they need 
for these responses that they might have to deal with?
    Mr. Klotz. Sir, the feedback I get is very, very positive, 
that this is a very useful course. In fact, we usually get 
asked to come back and either expand the number of people we 
reach in our particular courses, or go through a program of 
training the trainer so that they can do that themselves.
    I might add, one of the other things we do is because this 
is the season for large sporting events, we are also the 
organization that goes out and measures the radioactive 
characteristic picture of a given community before an event. So 
if there is an event, we can very quickly home in on that. So 
you may see, from time to time, a helicopter or aircraft flying 
over areas where that is being done, that is the NNSA out there 
doing that work.
    Mr. Latta. With my last 17 seconds that I have left, just 
to follow up real quick. Now, who pays for the local response? 
Is it through you or----
    Mr. Klotz. No, I think that that comes through a different 
funding stream. What we basically do is we fund the training, 
as I said. We have teams at each of our national laboratories, 
and I mean the broader DOE complex of national laboratories, 
which can be deployed with equipment to support state and local 
or military responders, and so we fund that part of the 
process.
    Mr. Latta. Well, thank you very much. Mr. Chairman, my time 
has expired.
    Mr. Upton. Yes. Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chair. First, I thank all of the 
Secretaries for being here this morning. Secretary Brouillette, 
thank you for reiterating a point that Secretary Perry made 
when he testified before this subcommittee last year. Spurring 
energy innovation is an essential part of the Department's core 
mission.
    The national labs are often rightly called the crown jewels 
of America's research infrastructure. They produce major 
achievements in advancing science, energy innovation, and 
national security. Much of their work is cross-cutting and 
promotes all of these goals. I saw this firsthand when I 
visited Brookhaven last year.
    When Secretary Perry appeared at our hearing earlier, he 
expressed his support for ARPA-E. However, the budget request 
from the administration, which included the virtual elimination 
of ARPA-E and 70 percent cut to the Office of Energy Efficiency 
and Renewable Energy, did not reflect, in my opinion, the 
importance of innovation in DOE's role in supporting the next 
generation energy technology.
    So, Secretary Brouillette, do you believe a robust R&D 
budget, as well as a qualified DOE workforce, are critical to 
maintaining U.S. leadership in science, energy, and security?
    Mr. Brouillette. Yes, I do. Do you want me to elaborate?
    Mr. Tonko. Just quickly.
    Mr. Brouillette. Sure. Yes, sir, I do. Sir, as you and your 
colleagues begin this budget process, it is going to be a 
negotiation between you and the White House, and I just want to 
assure you that at some point, the Congress and the White House 
will come to an appropriate funding number for those labs, and 
we will honor those commitments.
    Mr. Tonko. I would hope the message from the agency will be 
forceful----
    Mr. Brouillette. Yes, sir.
    Mr. Tonko [continuing]. In making certain that progress is 
the----
    Mr. Brouillette. Yes, sir.
    Mr. Tonko [continuing]. Is the mission here. As this 
committee and DOE's leadership consider the future of the 
Department, can you explain your vision for the R&D portfolio 
for the next 3 years? What are the goals and what are the 
priorities?
    Mr. Brouillette. Sure. I will also defer to Under Secretary 
Dabbar, as the new Under Secretary of Science, he has some 
specific things that he would like to share with you. But I can 
tell you that we will continue the progress that has already 
been made by those 17 national laboratories, they are, in fact, 
crown jewels. I appreciate the fact that you would take the 
time to visit Brookhaven. I would also like to invite you to 
attend and to visit the rest of the laboratory system so that 
you can see firsthand the rest of the work that is being done 
there.
    With that, I will defer to Under Secretary Dabbar.
    Mr. Dabbar. I thank you, Congressman Tonko, and I remember 
following your energy work prior to this particular role 
throughout New York. Across the whole complex, including New 
York, the Department is very much focused on innovation. As you 
know, Brookhaven is one of our premiere laboratories, as well 
as our other complex that we have through NNSA, SPRU, West 
Valley through NYSERDA, there is a lot of focus that we have to 
the state, and of course, to the whole Nation.
    The Office of Science is obviously the preeminent position 
in the world across all the different areas of physical 
science. The particular areas that we are focused on, as were 
mentioned earlier, was on exoscale computing, that has the 
ability for us to really move the ball forward across a number 
of the areas of physical science. In the areas of particle 
physics, we are obviously moving forward, and LBNF/DUNE, which 
is out of Chicago, as well as a number of other high energy 
particle physics that spread in Michigan from Chairman Upton's 
area.
    So there is a number of areas that we are focused on. I 
also mentioned batteries with Brookhaven, the chemistry side, 
which we think has particular potential advantages across a 
number of energy areas.
    Mr. Tonko. Thank you. Thank you very much. I am 
particularly concerned about the proposed elimination of the 
Weatherization Assistance Program, which is among the 
Department's expired authorizations. And I urge this committee 
to examine reauthorization as part of this effort. We just 
experienced dangerous winter conditions throughout much of the 
country. Wind chills were as low as negative 30 degrees for 
sustained days in my hometown in upstate New York. In the 
Adirondack to the north of my district, the temperature, in a 
number of places, never got above zero degrees for several 
days. People deserve a response from a weatherization program; 
those especially who live in poverty, who live paycheck to 
paycheck and still have a difficult time providing for their 
energy cost.
    Not only are the energy efficiency benefits from WAP 
critical to low income families budgets, but these homes are 
often unhealthy and unsafe.
    Through WAP, DOE provides funding to states, tribes, and 
U.S. territories. So whether it is the weatherization program 
or the State Energy Program, do you believe DOE should play a 
role in supporting state energy offices and the work they do? 
Senator Brouillette or Senator----
    Mr. Menezes. Well, again, just to echo the comments of the 
Deputy Secretary, we look forward to working with this 
committee and the appropriators, to reach an appropriate 
number. The organization is alive and well now at DOE under the 
CR, and we look forward to working with a number and then 
carrying out the intent of Congress on that.
    Mr. Tonko. Thank you, Secretary. And last year the House 
passed the reauthorization of state energy programs. Would the 
Department welcome Congress taking a look at how to improve the 
weatherization program?
    Mr. Brouillette. Yes, sir.
    Mr. Tonko. I believe my time is up, but I yield back, Mr. 
Chair.
    Mr. Upton. Time is up. Mr. McKinley.
    Mr. McNerney. Thank you, Mr. Chairman. I guess probably, 
Brouillette, it is to you on this. If I could just get this 
question out, where I really want to go. I have been over to 
the NETL Laboratory in Morgantown. I know Mike Doyle has got a 
facility up in the Pittsburgh area, and we have one in 
Morgantown. There has been a request to do a mission alignment 
study under DOE. Can you give me an update on where that might 
stand?
    Mr. Brouillette. With regard to the structure of the labs 
or----
    Mr. McKinley. Yes. Over the years, people talk about 
consolidation.
    Mr. Brouillette. Yes, sir.
    Mr. McKinley. And I think the uncertainty is still swirling 
there to give them comfort. Secretary Chu had said there will 
not be a consolidation at Morgantown with anyone else. Mooney 
said the same thing. I am just curious----
    Mr. Brouillette. And I am unaware of any plan to 
consolidate those two facilities.
    Mr. McKinley. OK.
    Mr. Brouillette. We are looking at missions throughout the 
Department. It could be that we utilize NETL's resources in 
both locations to attack a singular problem, but I am aware of 
no plan in terms of a reorganization to combine the two 
organizations.
    Mr. McKinley. Thank you. To the core, last month when we 
had a hearing with DOE, some folks that we were talking, it 
opened up a different subject, and that was the importing of 
energy from Canada, particularly in the northeast. I was 
unaware of that. I think most of the people here in this group 
in Congress were unaware of the amount; 76 gigawatts of power 
coming in from that.
    My concern was--76 gigawatts of power, on average, may be 
100 power plants that aren't existing in America because of 
that, bringing in Canadian-subsidized utilities. I want people 
to understand the impact of that.
    Just if you take at NEI's, their own website, with a 
nuclear, they are talking about, for each nuclear power plant, 
it generates around $16 million of taxes, local taxes, and to 
the Federal Government; it is $67 million for each one. We are 
short about 100 power plants because importing the Canadian-
subsidized or government-owned, where they are creating excess 
electricity.
    I am curious, from DOE's perspective, when the negotiations 
are underway under NAFTA, or when they get taken place, will 
this be taken into consideration so that we might be able to 
see some consideration for that where we are supporting 
Canadian energy producers rather than American?
    Mr. Menezes. Well, regarding----
    Mr. McKinley. It shifts over to you then.
    Mr. Menezes. First of all, I definitely agree with your 
comments on the amount of energy that we actually import from 
Canada, it is a huge amount, and it is one of our largest 
trading partners in energy. Most of it is into the tight power 
pools in the northeast, it doesn't surprise anyone where. 
Regarding----
    Mr. McKinley. My concern is that when we do that, that 
means we are not--our local tax base is--it is non-existent. 
There are the things that take care of our schools, our roads, 
our infrastructure. We are supporting the infrastructure of 
Canada rather than having 100 power plants in the United 
States.
    Mr. Menezes. Yes. And our research is aimed toward smaller, 
like small modular nuclear, for example, as well as I had 
mentioned before, some of the smaller coal facilities, the low 
emission, zero emission coal facilities. This would allow you 
to put smaller units closest to the load pocket. And whereas it 
is difficult to build interstate transmission lines, as we 
know, but if you can't increase the transmission lines, you can 
at least begin to site clean generation closer to the load 
pocket. That would minimize our dependency on interstate 
transmission----
    Mr. McKinley. If I could reclaim--I am holding my time 
here. As long as we are continuing to import something that is 
government-owned, and it is cheaper when it comes in here, they 
are competing unfairly with America energy producers.
    All I am asking is that when we hit with NAFTA, that we 
have some discussion about the importing of all of this 76 
gigawatts of Canadian power at the expense of American jobs.
    Mr. Menezes. You have our commitment, and we are certainly 
monitoring the NAFTA situation.
    Mr. Brouillette. Congressman, if I could add just real 
quickly. You do have our commitment on that. The Secretary did 
initiate a conversation with Minister Carr of Canada and his 
counterpart in Mexico. Recently, he held a meeting in Houston, 
Texas, among the three energy ministers, I will commit to you 
that we will ensure that this issue is discussed in those 
conversations.
    Mr. McKinley. Thank you very much. I yield back.
    Mr. Flores [presiding]. Mr. Loebsack is recognized for 5 
minutes.
    Mr. Loebsack. Thank you, Mr. Chair. I want to thank all of 
you for being here today, obviously, and I always learn a lot, 
I don't get to ask questions until the end here, but it is 
really great for me to listen to my colleagues ask questions 
and to hear your answers, I do appreciate that very much. But I 
want to follow up on what Mr. Tonko asked about weatherization.
    First, I just have to say for the life of me, I cannot 
understand why anybody could possibly propose dramatic, drastic 
slashes in a weatherization program as this administration did, 
it is completely beyond me. If anybody has ever, as I have, 
visited any of the local community action programs, for 
example, that implement weatherization programs and gone to 
homes of seniors or low income folks or disabled folks who have 
benefited from weatherization, and it is not just in the 
winter, it can be in the summer as well in either the midwest 
or in the southern parts of our country, we can see that there 
is job creation. They employ local folks to weatherize homes. 
Sometimes they have even high school kids, for example, who are 
trying to learn a trade who participate in this kind of a 
program.
    So for the life of me, I just don't understand why there 
was this proposed cut on the part of the administration. And 
Mr. Brouillette, sorry, I was not here when you were here or on 
this committee, I should say. Can you give me some 
justification or rationale as to why those cuts were proposed 
in the first place?
    Mr. Brouillette. Well, I don't think it is because we 
disagree with the ultimate goal of those programs. And I can't 
speak to your specific concern on the specific program or this 
specific amount that you are proposing--there are better ways, 
sometimes there are different ways to achieve the same 
outcomes. And I can commit to you that we at DOE are attempting 
to do those things.
    I was just fortunate enough to attend the solar decathlon 
out in the western part of the U.S., and I saw many of the kids 
that you were referencing in your comments. They built homes 
that were energy efficient; they built homes that were safe; 
they built homes that were frankly astounding in their 
technological advance. We want to continue to support those 
types of activities.
    Mr. Loebsack. Can we get your commitment that you will 
press as hard as you possibly can----
    Mr. Brouillette. Yes, sir. Yes, sir.
    Mr. Loebsack [continuing]. On this front?
    I realize it won't be--make the final decision, but----
    Mr. Brouillette. It is always a negotiated effort, sir, but 
you have my commitment.
    Mr. Loebsack. Because it is important, as it is with so 
many other programs, that we get that commitment from you folks 
as part of the administration.
    And with respect to the reorganization that is being 
proposed, how will that play out when it comes to something 
like this to make sure that the weatherization program--let's 
assume that we do get adequate funding for it--that it is 
implemented properly and that it continues as it has been?
    Mr. Brouillette. Yes, sir. I don't see any changes. The 
reorganization does not fundamentally alter or change the 
direction of these particular programs that were set up by 
Congress.
    Mr. Loebsack. That is good to know.
    Mr. Brouillette. We are simply changing an organizational 
chart and providing a different structure by which we manage 
the agency.
    Mr. Loebsack. Thank you.
    I would like to go back also, if I could, to the question 
having to do with storage for electricity, if I can, Mr. 
Dabbar. Is that how you pronounce it?
    Mr. Dabbar. Thank you.
    Mr. Loebsack. Naval Academy grad, you said? Is that 
correct?
    Mr. Dabbar. Yes, sir.
    Mr. Loebsack. Yes. My stepson and his wife are both Naval 
Academy grads and Active Duty Marines at the moment. So thank 
you for your service.
    But it is true that Texas does produce the most wind energy 
of any state. But Iowa produces the largest percentage of its 
electricity from wind, and it is upwards of 37, 38 percent. 
Could you give us some kind of a timeframe to follow up on Mr. 
Olson's question? Because it is great that we are seeing--you 
mentioned beyond lithium--a lot of R&D, a lot of work going 
into how we are going to store this electricity so that we can 
do more with respect to wind energy or with respect to solar 
energy. But can you give us a timeframe down the road what kind 
of number of years we are talking about?
    Mr. Dabbar. Yes, Congressman. The time is now. It is one of 
the most exciting areas within the Office of Science, dealing 
with applied energy in terms of developments of something that 
can be sent to the grid.
    I mentioned a number of technologies in my previous 
conversation. I won't go through it. But the list of companies 
that we are working with specifically on those various 
different types of technologies is vast. We are working with 
big companies such as United Technologies and Dow and Johnson 
Controls and General Motors. We are working with startup 
companies. The list that is across our various labs that deal 
with chemistry in the battery area is, give or take, around 80 
different companies today.
    And so there are various different types of technologies 
that have different uses in terms of weight-to-power ratio. And 
some are better for transportation. Some are better for utility 
scale. And so we intend to push that very hard on the basis of 
what we have been developing, and so we look forward to doing 
that promptly.
    Mr. Loebsack. Thank you so much.
    Thank you so much, and I yield back.
    Mr. Flores. Mr. Kinzinger is recognized for 5 minutes.
    Mr. Kinzinger. Thank you, Mr. Chairman. Thank you all for 
being here, again, spending some time with us on these 
important issues.
    I would like to start by commending all of you, led by the 
Secretary, for your renewed focus on the vital role of the DOE, 
our science and energy workforce, and our energy resources have 
to play in national security. It has been an area that I think 
has been way underdiscussed when it comes to issues of 
countering Russia, countering our enemies overseas, et cetera. 
It is something I have often stressed in this committee, and I 
look forward to continuing to work with all of you on it.
    To Mr. Brouillette and Menezes, did you guys get the 
hardest names possible to come here? I thought Kinzinger was 
tough.
    In the hearing with Secretary Perry a few months ago, I 
raised concerns that DOE was not always fully represented or 
engaged on energy matters pursued by the State Department due 
to the establishment of an energy bureau at State.
    Will you discuss the value of DOE engagement 
internationally. When the U.S. meets with other nations' energy 
ministers, why is it important for DOE to be at the table? 
Either one of you can start.
    Mr. Brouillette. Sure. Well, sir, as I leave for Saudi 
Arabia and UAE tomorrow, I can speak firsthand to the 
importance of those conversations. I did return from several 
overseas trips. I represented the President and the Secretary 
in Kazakhstan; Tokyo, Japan; and Santiago, Chile, just 
recently.
    Each one of those conversations brought new ideas. They 
brought a richness. And, candidly, I know some concerns were 
raised here about U.S. interests. It gave us an opportunity to 
articulate and, in some cases, to protect U.S. interests with 
regard to energy development and security.
    We value those conversations very deeply. The Secretary 
does. I do. We do have a very robust and a very aggressive 
international affairs department within our organization. It is 
led by an assistant secretary. He is not yet confirmed or she 
is not yet confirmed. I don't know who the nominee will be, but 
it will come forward shortly to the U.S. Senate. But we hope to 
have that position filled very, very shortly. We are going to 
continue these conversations around the world.
    With regard to our State Department colleagues, we interact 
with them very closely. I never travel internationally without 
collaborating with the State Department and, in many cases, 
integrating our work. So that process----
    Mr. Kinzinger. All of us, when we travel, we work with 
State. But do you send silos? Are there areas we need to break 
through those silos where there is duplicative action or 
counter action?
    Mr. Menezes. Well, we work closely with our State 
Department colleagues, as the deputy said. We are trying to 
enhance our collaboration so that we can have much fuller 
communications between the two. Because in the past, there 
really has been a break, at least with respect to the energy 
component at the State Department. There appear to be sometimes 
conflicting missions. And so we are now working, taking 
positive steps to try to see and understand what they do. We 
know what we do. And so we hope that we can work together to 
achieve some efficiencies and really gain an understanding of 
what they are doing and what they hope to accomplish.
    Mr. Kinzinger. Good. Thank you. I am also on this 
committee, but I am also a member of the Foreign Affairs 
Committee, so I have traveled a lot in that capacity. And it 
really does blow me away the number of times. And I get that we 
have a government but that I see sometimes State countering the 
message of other parts of government. So I think the more you 
guys can coordinate and work together, the more beneficial it 
is not for DOE or State, but for America.
    General Klotz, and thank you for your service to the 
greatest branch of the military. On the nuclear security front, 
I understand that DOE and the National Nuclear Security 
Administration have done considerable work to enhance detection 
of radiological smuggling from former Soviet states, along with 
almost 60 partner countries. Can you provide an update about 
the process of the Nuclear Smuggling Detection and Deterrence 
program and what you are doing to ensure that we can safely 
transition to a model where countries fully fund the 
sustainment and maintenance of the equipment we supply? And I 
want to add on that, that is something that people don't think 
about much anymore because it is just out of our purview, so--
--
    Mr. Klotz. Well, thank you very much for that question. The 
nuclear detection and smuggling program is one of the most 
important ways in which we try to work to make sure that 
special nuclear materials do not get in the hands of bad guys, 
whether the bad guys are a rogue nation that wants to develop a 
nuclear weapon or a terrorist that wants to use nuclear 
radiological materials in an improvised bomb to sow terror and 
panic.
    We have worked, as you said, with a number of different 
countries. Our business model, basically, is to go in, deploy 
technology that has been largely developed through our national 
laboratories, including the non-NNSA national laboratories, 
train the individuals who operate this, help them for a period 
of basically 5 years. And over that 5-year period, the 
objective is to transition the maintenance, the 
recapitalization, and the training necessary to operate that to 
the host countries.
    We have sent a couple reports, since I have been in the 
seat on, where we are doing that, when the progress is. And I 
would be happy to make sure your staff gets the most recent 
copy of that.
    Mr. Kinzinger. Again, thank you all for being here.
    And I yield back.
    Mr. Flores. Mr. Schrader, you are recognized for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman.
    Mr. Brouillette, the administration last year proposed 
privatizing transmission assets owned by the Bonneville Power 
Administration. The proposal to sell off BPA's assets 
represents about three-quarters of the grid in the Northwest, 
was supposedly a major savings reform effort offered by the 
administration in its fiscal year 2018 budget. As you can 
imagine, those of us in the Pacific Northwest are pretty 
concerned, Chairman Walden, Mrs. McMorris Rodgers, and myself 
here on the committee.
    Frankly, BPA manages the majority of the transmission in 
our neck of the woods. It is clean energy. It seems very 
misguided since Federal hydropower actually makes us money, 
doesn't cost us money, some upfront money, but with interest it 
gets paid back. I don't understand the logic of that. We are 
totally against that idea, very concerned about that, would 
hope that your agency as well as the administration might 
commit here and now not to pursue that in this coming budget.
    Mr. Brouillette. Thank you, sir, for that question. I am 
aware of the concerns of the delegation throughout the 
Northwest. I have met with Chairman Walden as well as several 
Senators to discuss this issue in my confirmation hearings. And 
as I said there, and I will say here again publicly, the 
Congress really does control whether or not we actually sell 
anything with regard to those assets. So without some statutory 
change by the Congress, I can assure you that nothing will be 
sold.
    Mr. Schrader. All right. I appreciate that. I assume you 
yourself think it is a wise asset to retain?
    Mr. Brouillette. It has provided cheap energy in the 
Northwest. We enjoy our relationship with the PMAs. We are 
looking at them very closely, frankly, to learn from them as we 
address issues like cybersecurity and other matters.
    Mr. Schrader. Sure.
    Mr. Brouillette. DOE is uniquely positioned with both a 
science agency and a research agency. We are also an asset 
manager and owner through the BPA, and others, SWPA and WAPA, 
and whatnot. But we enjoy our relationship. We look forward to 
working closely with them.
    Mr. Schrader. That seems to fit into all the above energy 
strategies using different types of components.
    Mr. Brouillette. Yes, sir.
    Mr. Schrader. Along the same lines, BPA currently reports 
to you, as I understand it. And given the size of the agency 
and the importance, as I just outlined, to the 12 million 
people in the Pacific Northwest, we consider it very important 
to have the ear of someone higher up in the agency. There was a 
proposal, as I understand, to change that. Maybe have BPA 
report another under secretary or something along those lines. 
Could you commit today to maintaining the current 
organizational structure with regard to how BPA reports 
directly to the deputy?
    Mr. Brouillette. Well, sir, I would be hesitant to commit 
to any future plans we might have simply because I want the 
opportunity to review the entire department. The PMAs have 
reported to the deputy secretary for some time. There was a 
time in the past when they reported actually to an assistant 
secretary within the Department. So I would like the 
opportunity to continue reviewing the department and perhaps 
report to you on my findings and work with you on any future 
changes that we might make or we may not make.
    Mr. Schrader. If you could commit maybe to at least 
consulting the delegation before you made a final decision----
    Mr. Brouillette. Yes, sir. Yes, sir.
    Mr. Schrader [continuing]. We could give a little input. 
Given the nature of energy security these days, it is more and 
more important, I think, to make sure we have direct access to 
people and power that make these----
    Mr. Brouillette. I can assure you they will always have 
direct access. And I will give you a commitment to work closely 
with you.
    Mr. Schrader. Thank you.
    Mr. Menezes, given the climactic changing events we have 
had this past year, huge floods, huge hurricanes, the big fires 
out West all the way from the Canadian border down to 
California, very concerned about grid reliability and the 
hardening of the grid. There seems to be diverse opinions about 
what that hardening the grid means. Some would say it is a lot 
more renewable energy. Others would say making sure we have the 
redundancy and the assets we have on the ground, as was alluded 
to in some earlier questions, or rebuilt to withstand some of 
these huge events, these devastating nature events that we 
haven't seen in the past.
    Where is the Department going with regard to reliability? 
Where are we going to put most of our efforts and our funding?
    Mr. Menezes. Well, currently, we had the modern grid 
consortium, the laboratory consortium, where we have been 
modeling how to make grids more resilient. We are bringing that 
to bear in Puerto Rico where we are going to make 
recommendations when we begin to rebuild and restore in Puerto 
Rico.
    The advent of integrated microgrids, for example, is a key 
component of that. In New York and other states they have been 
looking at this. And our labs have been doing modeling. And in 
Puerto Rico, we are actually going to find three pilot 
microgrids so that we can bring the actual research that the 
labs have been doing and put them into action in Puerto Rico. 
In my response to Representative Castor, we had run out of 
time. But I wanted to tell the committee that we are actually 
using the work of the labs to actually model and to build more 
resilient grid structure.
    Mr. Schrader. Thank you.
    I yield back.
    Mr. Flores. Mr. Johnson, you are recognized for 5 minutes.
    Mr. Johnson. I thank you, Mr. Chairman. And I thank our 
panel for being with us today.
    The United States is currently positioned well to utilize 
our vast energy resources, including oil, natural gas, and 
coal, as a positive geostrategic tool to advance our Nation's 
interests globally. It is also important that we enable 
domestic nuclear technologies to compete in the international 
market to assure we have a seat at the table on critical issues 
relating to peaceful use of civilian nuclear technologies and 
nonproliferation.
    The Department of Energy plays an important role in that 
process through what is known as the Part 810 approval process. 
Recently, Secretary Perry affirmed his commitment to streamline 
the regulatory review process. NNSA is responsible for 
overseeing the approval, while consulting the Office of Nuclear 
Energy and the DOE general counsel in addition to interagency 
coordination.
    So, Deputy Secretary Brouillette and Secretary Menezes and 
Administrator Klotz, do you recognize the importance of U.S. 
engagement in the global civil nuclear market? And can you 
assure me that you will continue to implement greater 
efficiency in this program?
    Mr. Brouillette. Yes, sir, on both accounts. We recognize 
full well. We are engaged in several conversations around the 
world, in essence to create opportunities for our civil nuclear 
programs and our industry partners throughout the U.S.
    I will defer to General Klotz, perhaps, for a more detailed 
discussion on 810 and NNSA's role.
    Mr. Johnson. OK.
    Mr. Klotz. Congressman, I think the premise of your 
question is extraordinarily important, and that is if we want 
to be leaders in nuclear security, nuclear safety, nuclear 
safeguards, and nonproliferation, then we need to have a seat 
at the table. And the only way you get a seat at the table is 
to be a knowledge leader in this particular industry.
    You also touched on--we hear the frustrations from the 
commercial companies about how long it takes to do 810 
processing, and we share that frustration. It is true the DOE 
and the NNSA are the stewards of this process, but we are not 
the owners of the process. And the long poles and the tent many 
times are outside our control. In particular for those 
countries which require a specific authorization, the State 
Department has to get assurances from the host government that 
the requirements will be followed by the host government. 
Sometimes those take 12, in some cases even 18 months.
    So we are working very hard. We continue to work very hard 
in a process improvement program that you know about for the 
810 process. In the areas where we can cut down and make this 
much more streamline and efficient, we will continue to push on 
that.
    Mr. Johnson. OK. Good.
    Mr. Menezes, do you have any comments to add to that, or do 
you concur with what they have said?
    Mr. Menezes. I certainly concur with them. We at the DOE 
are uniquely positioned to see the importance of maintaining 
global leadership in this. And that was, frankly, part of our 
domestic electricity policy. Our 403 letter meant to ensure 
that our base load nuclear units continued to run economically, 
because we are losing the leadership certainly on the civilian 
side. And as we see other countries developing civilian nuclear 
fleets, we want to be there. We do not want to be on the 
sidelines.
    Mr. Johnson. Can any of you identify further policy and 
process options to assist our domestic nuclear industry to 
remain competitive in the international market? And we will 
just go right down the line with the three of you again.
    Mr. Brouillette. Sir, I think Under Secretary Dabbar wants 
to chime in, being a Navy nuke.
    Mr. Johnson. OK. All right. Go ahead.
    Mr. Dabbar. Congressman, one additional point I think 
addresses that specific question is that the White House has 
actually convened a cross-agency group, specifically in these 
particular areas. And we have participated in that. But it also 
includes Defense, it includes State, and a number of other 
areas. And there are very specific verticals in the areas that 
you listed. They are being evaluated by groups. So 
participation in the fuel chain. Participation and 
commercialization on an international basis, on security of the 
fuel chain. And so we are participating and getting very much 
into the details, along with other members across agencies on 
this topic.
    Mr. Johnson. OK. I don't have time to get into my other 
question, because it is fairly long. Let me just paraphrase it 
real quickly and get your affirmation.
    LNG exports, big, big deal for us, big geopolitical 
leverage point for the United States. I have got legislation 
that is designed to help expedite the permitting process. I 
know the Secretary and I have talked about this. Are you folks 
committed to working with us to expedite this as well?
    Mr. Brouillette. Yes, sir, we are. We have taken some 
initial steps. We look forward to working with the committee to 
further refine the permitting processes.
    Mr. Johnson. OK. Great.
    I yield back.
    Mr. Flores. Mr. Long, you are recognized for 5 minutes.
    Oh, Mr. Welch. I am sorry. You are recognized for 5 
minutes.
    Mr. Welch. Thank you very much, Mr. Chairman.
    I wanted to ask Mr. Brouillette and Mr. Menezes a few 
questions. Energy efficiency, incredibly important, enormous 
bipartisan support for it on this committee, a lot of 
leadership on both sides of the aisle. We are going to be 
hearing, I think from the next panel, about some things like 
master limited partnerships, like energy saving performance 
contracts. Mr. Kinzinger has been a big champion of those, 
along with me. So I will wait for the next panel.
    But one of the questions is about efficiency standards. And 
there is some debate on this because it does involve 
regulations. And there is general skepticism about regulations 
in the new administration, and some of it well-founded. But it 
is standards, like applying standards have been extremely 
helpful to industry and to consumers in saving money. And there 
is a number of deadlines that Congress had set for efficiency 
standards, and some estimates indicate that could be about a 
$43 billion annual savings by 2035. But the latest regulatory 
agenda, as I understand it, that has been released by DOE, 
removed the target completion date for these standards and put 
them in a, ``longterm action section,'' a category that OMB has 
said is specifically for rules where no action is really 
intended. And there have been five deadlines, I think, since 
2017.
    So my question here is what is your position, and what do 
you intend to do to comply with the law to complete these rules 
by the established deadlines?
    And again, the premise of my question is that these rules 
actually are helpful to industry and helpful to consumers. We 
might have some debate on it. But if the regulations are well-
designed, then I think they achieve the positive goals of 
energy efficiency. So could you both comment on that?
    Mr. Menezes. I am happy to start. Certainly, when I was 
here with the committee, energy efficiency and applying 
standards were a key part on the major legislation that we 
passed in 2005. And Congress set a lot of the deadlines that 
the Department had to meet. Some think that they were 
aggressive or not. But in my 2 months since being there, a lot 
of things had been piling up and coming across my desk. And a 
couple of them are on the mandatory reports to Congress that 
this committee had put in the legislation back then to provide 
the very reports that you are probably looking at.
    I will be honest, I had not seen them before. And we very 
clearly set forth those deadlines that we had met, those that 
we still hadn't met. And as you had said, we are not shy about 
it. We actually admit some of the difficulties that we have 
had. The goal is to, of course, meet the statutory deadlines 
and obligations.
    I know the other body is looking at some legislation that 
would give us a little flexibility, I think, to look at this to 
be able to meet those deadlines. But the Department is 
committed to following the law to have these standards in 
place, according to the deadlines that are set in the statute. 
And I know that you have the same report that I just reviewed 
probably a few days ago. And I have been in discussions with 
the general counsel's office on how we can improve this.
    Mr. Welch. I think I am being reassured here. You are 
telling me that full speed ahead on meeting the standards, not 
a detour to slow walking the standards or not implementing them 
altogether.
    Mr. Menezes. You do have our assurance of that. It is quite 
stark when you see our very own reports that are very clear on 
when we have met them and when we haven't.
    Mr. Welch. And I am taking from this a full-throated 
support for efficiency standards and the benefits that they 
provide in savings to consumers and, of course, incidental 
reduction in carbon emissions.
    Mr. Menezes. Well, certainly, in meeting our statutory 
deadlines, you have my full-throated support on that, because 
the hallmark of this administration is to comply with the laws 
that are applied in the Department.
    Mr. Welch. OK. Thank you.
    I yield back.
    Mr. Flores. The gentleman yields back.
    Mr. Long, you are recognized for 5 minutes.
    Mr. Long. Thank you, Mr. Chairman.
    And, Mr. Menezes and Mr. Dabbar, you are responsible for 
some scientific and nuclear office labs that are examining 
hardening of the grid from a tax such as electromagnetic pulse, 
EMP, incidents, which is something I have been harping on ever 
since I arrived in Congress.
    What activities are priorities for the Department to ensure 
the industry can benefit from your research and infrastructure 
capabilities?
    Mr. Menezes. Well, as we have said in response to other 
questions on this, our labs are doing quite a bit of research 
on making the grid more resilient, particularly with respect to 
the EMPs, and the GMDs for that matter. We have been working 
with Oak Ridge and EPRI in the industry to identify ways to 
ensure that we had the sufficient transformers necessary in the 
event that there be such an event. Our laboratory consortium is 
also looking at this issue. And that, together with our efforts 
in cyber, we hope will eventually, you know, provide us the 
information to make the grid even more resilient.
    Mr. Long. Mr. Dabbar?
    Mr. Dabbar. I have nothing more to add on that, sir.
    Mr. Long. OK. EMPs can happen in nature or through 
malicious acts, correct?
    Mr. Dabbar. That is correct.
    Mr. Long. Pardon?
    Mr. Dabbar. Yes, sir.
    Mr. Long. OK. And, General Klotz, the broad crosscutting 
nature of the Department's mission is evident in my home State 
of Missouri. The National Nuclear Security Administration, or 
NNSA, maintains the Kansas City National Security Campus, which 
is responsible for manufacturing and procuring components for 
the nuclear weapons programs. Additionally, the Department of 
Energy helps support the University of Missouri's MURR nuclear 
research reactor. The MURR reactor is seeking approval to 
produce lifesaving medical isotopes in partnership with NNSA 
and is currently studying a partnership with NNSA to convert 
the reactor to use low-enriched uranium instead of highly 
enriched uranium.
    Will you please describe NNSA's programs to convert 
research reactors to this low-enriched uranium?
    Mr. Klotz. I would be delighted to. But first of all, 
thanks for mentioning our Kansas City plant, which produces all 
the nonnuclear components that go into a nuclear weapon, which 
is about 80, 90 percent of what goes in there. And for members 
who have not had a chance to visit that, it is an example of 
the kinds of things that can be achieved by recapitalization of 
this 40-, 50-year-old enterprise that I talked about earlier.
    But specifically for the reactor conversion, as I said 
earlier, sir, one of our strategies is to prevent terrorists 
from getting their hands on special nuclear material or rogue 
nations getting their hands on special nuclear materials from 
which they could make an explosive device. One of the ways we 
do that is to help research reactors and other institutions 
stop using highly enriched uranium, which can be used in a 
nuclear weapon, for the research purposes to use low-enriched 
uranium.
    We have already worked with, converted, or verified the 
shutdown of over 100 facilities worldwide in transitioning 
either no longer using any uranium or using low-enriched 
uranium. And our current efforts include close cooperation with 
Missouri University Research Reactor, MURR, to qualify a new 
high-density, low-enriched uranium fuel that can be used to 
convert that particular reactor.
    Mr. Long. OK. And what proliferation challenges keep you 
awake at night?
    Mr. Klotz. I think--that is a good question, and I think 
about it a lot. My sense is nuclear terrorism remains among one 
of the most significant threats to the security of this 
country, to the security of our allies, and the security of our 
partners. So making sure that we have done all we can do to 
lock up, safeguard these materials that are an important part 
of our civil nuclear industry, both here and abroad, is one of 
the things I worry the most about.
    Mr. Long. And how does a highly enriched uranium conversion 
program fit within NNSA's mission relating to nonproliferation?
    Mr. Klotz. Well, again, it is one of many arrows in the 
quiver or one of many of a multifaceted strategy to make sure 
that those special nuclear materials, like highly enriched 
uranium, their use is minimized and that people convert to 
using low-enriched uranium or other types of phenomenon to do 
their research.
    Mr. Long. OK. Thank you all for being here today.
    Mr. Chairman, I yield back.
    Mr. Flores. The gentleman yields back.
    Dr. Bucshon, you are recognized for 5 minutes.
    Mr. Bucshon. Thank you, Chairman.
    Secretary Brouillette, the Department's 17 national 
laboratories are the boots on the ground, so to speak, that 
execute the activities that enable DOE to fulfill its missions. 
Have you engaged with the lab directors to assure the 
Department's alignment, or alignment readjustment, will be able 
to fully unleash the potential of the national labs?
    Mr. Brouillette. Yes, sir, I have. We have done that both 
directly and as a collaborative group effort. We have within 
the Department of Energy known as a lab operations board. And 
we have a smaller executive council made up of lab directors 
that both advise me and the Secretary. I have consulted with 
the lab directors, and I think you will hear from one on 
another panel about this reorganization plan and perhaps what 
it should look like. And they have submitted ideas, many of 
which we have accepted.
    Mr. Bucshon. OK. So then you can probably share some of the 
recommendations from the lab directors that were provided to 
you and some of the specifics of that with the committee?
    Mr. Brouillette. Sure. Absolutely. Yes, sir, I think I can.
    Mr. Bucshon. Just for the record, as we look to maybe a 
reauthorization, that is maybe some information on how the labs 
in the Department----
    Mr. Brouillette. Sure. Would you like me to do that 
formally, sir, in writing? Would you like me to----
    Mr. Bucshon. Yes, that would be great.
    Mr. Brouillette. Yes, sir, I will do that. I will follow up 
with you.
    Mr. Bucshon. Thanks.
    This is for a number of people, but a frequent concern 
raised by DOE labs and contractors relates to the burdens of 
unnecessary oversight that detracts from effective and cost-
effective mission performance on the other hand, sound 
oversights necessary to ensure safety and security and protect 
taxpayer interests. The development of mature contractor 
assurance systems has been identified in congressional reports 
and in this committee's work as critical to enabling a more 
efficient oversight framework that will help unleash the 
benefits of the labs and other programmatic work.
    So I guess, Secretary Brouillette, you can comment first. 
What can you tell us about what you are doing to ensure more 
mature contractor assurance system? Basically, effective and 
efficient oversight versus onerous and top-down oversight.
    Mr. Brouillette. Well, we have looked at the design 
standards within the Department. For instance, I will just give 
you an example. We just went and visited a facility in Oak 
Ridge that is a multimillion, billion dollar project. What we 
are looking for is making sure that our processes internally 
inside of the Department of Energy don't require certain things 
of contractors that either slow down the process or make things 
just exorbitant in terms of cost.
    So if we are going to build, for instance, a simple office 
building, something you have seen a million times in your 
practice, it is simply there to house reception staff, we 
probably don't need a 90 percent design build plan in place 
before we allow the contractor to begin the initial stages of 
that work. If we are going to talk about a nuclear facility, 
however, we want to be very, very careful. It is looking at 
simple things like that and working with the contractors 
directly that we hope to bring some efficiencies and perhaps 
some better processes toward the Department's efforts.
    Mr. Bucshon. Anybody else have any comment?
    Mr. Dabbar. Yes, sir. I will go ahead and add the reference 
that the Deputy Secretary made about the lab operations board. 
And one of the initiatives that the Secretary wanted to take 
onboard and for us to execute on, and we are now in the second 
wave of that, is basically a management and an efficiency 
review at a very specific level along the lines of what he just 
described. And the lab operations board actually includes lab 
directors, people from inside DOE headquarters, contractors 
across all of our various different labs and programs. And what 
we have been doing is looking at not only general points, but 
actually very specific points along the lines of what stands in 
the way of accomplishing the mission.
    I will give you an example of one of the things that came 
up and we have changed. The labs were required to submit 15 
different human resources reports a month. And what we decided 
was do we need all 15 of those or were there some overlap? As 
you could probably guess, there was some overlap. And we have 
actually consolidated some of those. And I believe we are down 
to 10. So it is shorter than 15 a month, and we are now down to 
10 a month.
    But we are doing that in collaboration, to your particular 
question, with the lab directors for us to review what is 
really required in terms of our oversight requirements for, in 
this case, human resources, but want to make certain that it is 
not overlapping, that things that had been added over the years 
were maybe duplicative.
    Mr. Bucshon. Yes. And I would say I know a number of people 
have talked about budgetary concerns. And from my viewpoint, 
every Federal agency that does this, that makes themselves more 
effective and efficient, also utilizes taxpayer resources in a 
more effective and efficient way. And in that vein may not 
necessarily need as many resources.
    With that, Chairman, I yield back.
    Mr. Flores. The gentleman yields back.
    I will recognize myself for 5 minutes.
    Secretary Brouillette, one of the questions I want to talk 
about is budget itemization and micromanagement. The Department 
has a heavy reliance on outside contractors using M&O contracts 
to conduct DOE's research and development activities that 
manage your facilities and perform environmental cleanup 
projects. Any time you have this government public-private type 
of relationship, it results in a high degree of transactional 
activities, both internally within the Department and 
externally with these outside entities.
    Recently, the Commission to Review the Effectiveness of the 
National Energy Laboratories, or CRENEL for short, identified 
transactional compliance and budget itemization, as they called 
it, as a costly burden that inhibits DOE from fully realizing 
the benefits of the contractor model. According to the CRENEL 
report, the chief financial officer maintains thousands of 
control points which, in turn, require management approval and 
disbursement at the expense of DOE's overall efficiency. This 
is not something that rose on your watch, but it is something 
that has crept into the Department over years, if not decades.
    So my question is this, Secretary Brouillette: Do you 
acknowledge that the cost and burdens associated--or do you 
acknowledge the costs and burdens associated with budget 
itemization?
    Mr. Brouillette. Yes.
    Mr. Flores. OK. Will you work with the CFO and the relevant 
program offices to reduce this micromanagement policy?
    Mr. Brouillette. Yes, sir, I will. And I am familiar with 
the CRENEL report and its findings. And I look forward to 
working with the committee and the Congress overall to help 
implement those.
    Mr. Flores. That was going to be my next point. To the 
extent that you need additional support from Congress to--if 
there is something Congress has done that has created that, 
then let us know and we will try to help fix that.
    Mr. Brouillette. Yes, sir, I will point those out.
    Mr. Flores. My next question is for Under Secretary 
Menezes. This has to do with low-enriched uranium fuel. As you 
know, the new technology, nuclear reactors may use innovative 
fuels to improve reactor efficiency and safety. Currently, 
commercial nuclear fuel that is available is generally enriched 
below 5 percent. However, these new technology reactors may 
require fuel that is enriched beyond 5 percent.
    Your department maintains a significant stockpile of 
uranium, and DOE may be able to consider options to provide 
this enhanced nuclear fuel just as it does with university 
research reactors. Do you see a role for DOE to steward this 
type of nuclear fuel to assure that potential fuel access 
issues will not inhibit technological innovation from our 
Nation's next generation nuclear engineers?
    Mr. Menezes. Yes, sir, we do. And we look forward to 
working with you to get your input on how best to accomplish 
that.
    Mr. Flores. OK. And since we are talking about 
reauthorization of the Department, I do have sort of a wildcard 
question as respects energy in this country and as respects 
reauthorization.
    Secretary Brouillette, what keeps you awake at night, and 
how does it--with respect to energy, and how should we look at 
that with respect to reauthorization?
    Mr. Brouillette. What keeps me up at night, sir, at the 
moment is cybersecurity and its relation to the distribution of 
energy throughout the country. We are facing some significant 
challenges, both from internal sources here in the U.S. We are 
all familiar with the kid in the basement who plays at night. 
That is certainly a security concern. It is not the highest 
security concern. What we are seeing across the world 
increasingly are state actors who are taking very aggressive 
steps to infiltrate certain security components of our grid as 
well as our national pipeline infrastructure. And if I had to 
point to one thing that keeps me up at night, it would be that.
    Mr. Flores. OK. General Klotz?
    Mr. Klotz. As I stated to an earlier question, the thing 
that keeps me up at night is the threat of nuclear terrorism. 
The devastating economic psychological consequences of a dirty 
bomb or a nuclear device set off by a rogue nation would be 
horrendous. And so everything we can do to make sure that we 
have safeguarded, locked up, secured special nuclear materials, 
reduced reliance on highly enriched uranium, plutonium, I think 
is a positive thing.
    Mr. Flores. OK. Secretary Dabbar?
    Mr. Dabbar. In my particular area, it is around Radcon 
conditions with workers at our environmental management sites. 
We are decontaminating and decommissioning a number of 
buildings that have plutonium contamination. We have a number 
of liquid waste tanks, some of which have had challenges over 
the years that we need to clean up and we need to put away into 
our permanent location. So obviously, handling the environment 
in those particular locations and making certain that the 
health and safety of the workers during those very challenging 
situations is paramount.
    Mr. Flores. Secretary Menezes, 10 seconds.
    Mr. Menezes. It is cybersecurity, a threat of our secrets 
and our proprietary information that has given rise to other 
countries being able to produce more than the very things that 
we have developed and that we hold the patents to. I find that 
very disturbing.
    Mr. Flores. Thank each of you for your responses.
    Mr. Duncan, you are recognized for 5 minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    First off, I want to align myself with the comments made by 
Mr. Shimkus earlier. The vitrified waste coming out through EM 
activities in the Hanford and Savannah River Site needs a 
longterm stable storage facility, and that stable storage 
facility is Yucca Mountain. Speaking of waste and residual, 
DOE's plutonium disposition plan are relative responsibilities 
that you have regarding the Nation's nonproliferation 
agreements.
    In 2003, the DOE, in my home State of South Carolina, 
entered into an agreement that DOE would remove one ton of 
plutonium from South Carolina within a decade. The deadline was 
repeatedly extended, and the DOE has yet to date fulfilled its 
legal obligations. In fact, due to a number of the previous 
administration's policy, the deadline is further out of reach. 
The South Carolina DOE agreement included a stipulation that 
provides for financial penalties to be paid to South Carolina 
up to $100 million a year. The South Carolina attorney general 
has had to sue the Department of Energy to receive this 
payment, and further litigation is expected.
    Deputy Secretary Brouillette, are you familiar with this 
issue? And what is the DOE's plan to keep the commitment to the 
South Carolinians that are affected?
    Mr. Brouillette. Yes, sir, I am familiar with it. I have 
known General Wilson for many, many years, and he has raised it 
to my attention. Unfortunately, as it is subject to litigation, 
I am not allowed to comment in detail, but I am happy to follow 
up with you and your office as we move through this pending 
litigation.
    Mr. Duncan. So talking about waste and talking about 
plutonium, rather, we spent a lot of money on MOX at Savannah 
River Site. And there was a report that was issued by the 
Department transmitted to Congress September 14 of 2016. It was 
called ``An Updated Performance Baseline for the MOX Facility 
at the Savannah River Site, South Carolina.'' I say mislabeled 
because this Department did not file, as we require in the 
fiscal 2016 NDAA, its own order 413.3B for setting project 
baselines and updated baselines.
    So do you believe, Mr. Deputy Secretary, that a project 
that is about 70 percent complete today, which the MOX facility 
in Savannah River Site is about 70 percent complete today since 
its construction started in 2007, could still take another 30 
years to finish?
    Wait a minute. We built the first nuclear weapon at the B 
Reactor at Hanford in a little over a year.
    Mr. Brouillette. Sure. We agree with that. And we would 
like to see that sort of efficiency brought to the MOX facility 
in South Carolina. It has taken quite a long period of time to 
get to this point, and I think that has raised the concern of 
the budgeteers both here in Congress and in the White House. We 
have met with the contractors. We are in active conversations 
with contractors on the ground.
    There is, to be quite honest, some disagreement about that 
70 percent number and whether or not they are, in fact, 70 
percent complete. Folks on the ground in DOE have a different 
opinion of that, and we have expressed it, and we are in, as I 
said, very candid conversations with the contractor.
    I would ask General Klotz or others if they want to opine 
further on this and perhaps provide you with more information 
as to where we currently stand.
    Mr. Duncan. I appreciate the work that DOE does at sites 
like Savannah River Site. The nuclear laboratory down there is 
a valuable asset.
    Mr. Brouillette. Sure.
    Mr. Duncan. There is also a component Savannah River Site 
is a valuable asset that was almost mothballed under the Obama 
administration. That is H Canyon.
    Mr. Brouillette. I'm sorry?
    Mr. Duncan. The last--H Canyon.
    Mr. Brouillette. Yes, sir.
    Mr. Duncan. The last chemical separation facility in the 
United States. So please assure me that this administration is 
not going to even consider mothballing H Canyon.
    Mr. Dabbar. Thank you for the question. H Canyon we 
consider very important, and we want to keep it up and running, 
we think, to process. We think there are actually options that 
we could use for continued operations. So it is an important 
part of the portfolio.
    Mr. Duncan. Yes, sir.
    Mr. Klotz. I would like to echo what you said, Congressman, 
and that is the importance of Savannah River Site to the entire 
DOE enterprise. It is particularly important in the NNSA side, 
because that is where we do our tritium operations, tritium 
extraction, tritium recycling. Tritium being an extraordinarily 
important component for all of our nuclear weapons.
    The laboratory there, again, having visited all the 
laboratories in DOE, again, I was astounded to find out how 
much work they are actually doing in the weapon's activity 
program for us, NNSA, as well as in the nuclear 
nonproliferation area.
    So I have talked a lot with the people down there, and I 
think one of the things I can say, maybe as leaving government 
and looking forward to the future, that is one of the things we 
ought to think very seriously about is what is the longterm 
future of the laboratory and of the entire Savannah River Site, 
and what can it contribute and continue to contribute for 
decades in the national security. I think this is a fruitful 
area for discussion.
    Mr. Duncan. Yes, sir. Savannah River Site is a valuable 
asset, and they are looking for more missions. And I hope we 
can give it to them.
    And I yield back. Thanks.
    Mr. Flores. Mr. Griffith, you are recognized for 5 minutes.
    Mr. Griffith. I thank the chairman. I appreciate you all 
being here very much. It is an important hearing.
    Deputy Secretary Menezes, thank you for mentioning rare 
earth technologies in your opening statement. I do appreciate 
that. There is a lot of potential for coal in my district in 
rare earth and combining the two to create a product that is 
more profitable than it may be at certain times in the past and 
in the future.
    So can you give me an update? Where do we stand on that? 
When do we think that the technology will actually be ready for 
prime time?
    Mr. Menezes. Well, I am not sure I can give you a specific 
timetable, but I am happy to get our program experts on it and 
give you a briefing so that you can know exactly where we are.
    Mr. Griffith. I know there is a lot of research dollars 
that have gone into Virginia Tech in my district and in other 
places. But I also know that I saw a map of slag heaps. And one 
of the things people may not realize is is that a lot of the 
rare earth elements or minerals actually exist in the coal, but 
it is closest to the rock. So in the slag heaps, we can clean 
up slag heaps and reap a benefit for the United States at the 
same time and create some jobs, at least in the short run. 
Short run being a decade. My folks would really appreciate 
that.
    Let me----
    Mr. Menezes. The program experts are very excited about the 
prospect that you can go to, really, the slag heaps, the waste 
product piles, and be able to extract rare earth elements. And 
think about it: We would no longer be dependent on China for a 
large percentage of our rare earth elements.
    Mr. Griffith. Yes. And what could be better? We are 
cleaning up something that ought to be cleaned up anyway as a 
part of our environment, and we are taking business away from 
one of our largest international competitors. I think that is 
great.
    Along those same lines, but shifting gears a little bit, I 
want to talk about research on burning coal more cleanly. When 
you look at the world as a whole, while coal used for producing 
power in this country is down, it is still accelerating in the 
rest of the world. There are lots of places it is going to be 
used when people talk about the ill effects of the pollutants 
that come from burning coal or have come from burning coal in 
the past. Many of the countries that are going to be expanding 
coal facilities don't have the regulations we have. They are 
going to continue to use coal. I would like to see us continue 
to use coal but burning as cleanly as possible.
    Can you give me an update on some of the research that is 
going on? And I am particularly, and always have been, 
interested in chemical looping. And I understand there has been 
a little bit of a breakthrough using a different substance as--
for lack of a more scientific term--the primer in the chemical 
reaction.
    Can you give me an update on where we stand on that and 
whether or not DOE is still positive? I know you are on natural 
gas, and I get that. But also using chemical looping for coal 
so we can transfer this technology to other parts of the world 
and burn coal more cleanly, not just here, but worldwide to 
help the environment.
    Mr. Menezes. Again, yes, sir. Our national energy lab is 
doing a lot of the research that you have been discussing. And 
I think that both of us would benefit from a briefing from our 
program people as to timetables and where we are.
    In response to an earlier question, though, I did emphasize 
that the research is no longer limited to, if you will, carbon 
capture sequestration technologies. While it is important, we 
are looking again at the front end, where the fuel that is to 
be combusted and see if there are technologies that we can make 
it on the front end less emission, more efficient, and then 
during the combustion itself.
    So we have some exciting opportunities. It has been a very 
top priority for the Office of Fossil. Others have asked about 
our full-throated support of certain issues. We have given 
full-throated support, certainly during the budget process, to 
get the resources to the Office of Fossil to evaluate, engage 
in studies along the lines that you have been mentioning today.
    Mr. Griffith. And I should say that, along these lines, it 
is not just this administration. The Department of Energy has 
always been interested in putting research into these areas. 
And so even though I disagreed with the previous administration 
on a lot of things, their DOE was doing some good things in 
this arena, and I appreciate you all continuing to do that good 
work.
    And with that, Mr. Chairman, I will yield back.
    Mr. Flores. The gentleman yields back.
    Mr. Harper is recognized for 5 minutes.
    Mr. Harper. Thank you, Mr. Chairman. And thanks to each of 
you for taking time to be here with us today.
    I would like to talk to you, if I could, for a minute, 
Deputy Secretary Brouillette. The National Nuclear Security 
Administration was established as a semiautonomous agency 
within the DOE in 2000. And as you know, the NNSA administrator 
reports directly to you as the Deputy Secretary.
    However, when Congress established the NNSA, the statute 
required an NNSA general counsel, legislative affairs office, 
and public affairs office separate from those respective 
functions under you and the Secretary at DOE headquarters. And 
those offices effectively serve the administrator, not the 
Secretary.
    While establishing separate functions may have been well-
intended, review by the congressionally chartered Augustine-
Mies Panel in testimony of this committee noted the inherent 
problem of dual offices that limit and can conflict with the 
Secretary's leadership over the nuclear enterprise.
    So would you agree that there could be problems if, say, 
the NNSA general counsel considers his client the administrator 
and not the Secretary of Energy, who is ultimately responsible 
for the mission?
    Mr. Brouillette. That is a loaded question. The short 
answer to your question, sir, is we respect what Congress did 
in 1999 with the creation of the NNSA. And until Congress 
changes that law, we will honor it.
    If you are asking me for my personal opinion, however, it 
does make management of the agency somewhat awkward. We work 
well together. General Klotz and I have a great both personal 
and professional relationship, and we work diligently to ensure 
that the agency speaks with one voice. We try to do that as 
effectively as we can.
    However, as a manager, as a chief operating officer, when I 
look at the enterprise, I am hard-pressed to make the argument 
for separate offices and separate parts of the building doing 
essentially the same functions.
    Mr. Harper. All right. Well, let's just talk a little 
further, then, about that. As we consider those potential 
reforms to improve DOE's efficiency, give us some observations 
or your take of what you make regarding the duplicative 
functional offices in NNSA and DOE, let's say. Can you 
elaborate a little more?
    Mr. Brouillette. Well, I think you just articulated the 
most obvious examples of the duplicative offices. Those 
particular functions are, in my own personal opinion, easily 
served by one office representing the entire Department. I 
can't speak to any other specific examples.
    I can tell you with regard to policy, with regard to 
execution, particularly with regard to the nuclear weapons 
programs, the Under Secretary, the Deputy Secretary, and the 
Secretary decide both the policy and the execution of that 
policy within the departments, within our authorities, and we 
execute them with one voice and as one management team. We do 
so appropriately, as Congress directed us to do. So there are 
no other folks within the larger DOE complex directing the 
NNSA. And I think the general would attest to that. All of the 
instructions are given through the Secretary and the Deputy 
Secretary toward the NNSA.
    Mr. Harper. Thank you.
    And let's talk about maybe streamlining decision-making for 
just a moment, if we could. You were at a town hall last month, 
and you were asked about steps that can be taken throughout the 
Department to improve efficiency and specifically reduce 
burdensome paperwork that is associated with what is known as 
the concurrence process. And you acknowledged the need to 
improve this process. Would you please elaborate the problems 
with this process and tell us what you see is the impact of 
your efforts?
    Mr. Brouillette. Yes, sir. I was fortunate and privileged 
to serve in the Department of Energy as an assistant secretary. 
I was confirmed in 2001. I was confirmed for this position 
almost 5 months ago now. I was somewhat dismayed to learn, 
frankly, when I walked back into the building, that the same 
green folders that we used to achieve concurrence on certain 
matters, sometimes letters that you sent to us, are still 
there. They are literally paper folders, green in color. And we 
circulate them manually by hand throughout the Department for 
opinion.
    In this day and age, it strikes me as odd that we wouldn't 
do that electronically. A much more efficient way of doing it 
and, candidly, a very good way of maintaining accountability. 
Other members of this committee have expressed some dismay and 
some concern about the lack of engagement or the timeliness of 
our engagement with this committee. I would suggest to you that 
that is perhaps part of the problem, that we still do things 
very manually within the Department.
    Mr. Harper. A basic thing that can be corrected.
    With that, I yield back.
    Mr. Brouillette. Yes, sir.
    Mr. Flores. Mr. Cramer, you are recognized for 5 minutes.
    Mr. Cramer. Thank you, Mr. Chairman. And thanks to all of 
you for--really been a fascinating hearing, in my view. I also 
a want to express the special recognition that the deputy 
secretary issued on behalf of General Klotz. Those of us from 
North Dakota, as you know, the model at Minot is only the best 
coal north. I am very familiar with your leadership, and we are 
grateful for it. Thank you. And you, by the way, are in the 
perfect place at this time in your life, at least for the 
country. So thank you for that.
    The first issue I want to raise may not surprise those of 
you who know me well, is I want to talk about what I see as a 
lack of a research bridge, if you will, for large-scale carbon 
capture sequestration utilization projects. Basic research, 
very good. It goes to the utilities where regulators, like I 
used to be, warn them against investing in things like this, 
that there is sort of an antirisk culture, certainly among 
utilities, which I think was highlighted in your grid study, 
Mr. Deputy Secretary.
    And so what I am wondering is can we--or am I right, first 
of all, and how can DOE play a role in the demonstration part 
of carbon capture sequestration technologies that, like I said, 
find basic research, not quite enough muscle to get it to the 
commercialization side. Maybe, Under Secretary Menezes, you 
could help me with that.
    Mr. Menezes. Well, this committee has been a key player in 
identifying carbon capture sequestration of the clean coal 
power initiative, for example, and providing the authorization 
for appropriate levels of funding. Of course, appropriate 
levels of funding is a key thing. But over time, when you look 
at what we have done here, the DOE has, over the years, 
identified several projects, whether it be coal or natural gas, 
for example, or other uses, to try to figure out how it is that 
post combustion you can capture and then sequester or use the 
carbon dioxide.
    What we have today is we had the Petra Nova plant, for 
example, in Texas. Of course, Kemper is usually pointed to as a 
DOE investment. We have others. We have yet to really figure 
out how it is that we can have the technology to scale to 
perform at the efficiency level that we want and then to be 
able to do with the carbon dioxide that we would like.
    We have not stopped funding programs. We have a pilot 
project in India, for example, which would look to enhance oil 
recovery. But each of these projects are unique with respect to 
the combustion, the fuel combustion. So this is not a one size 
fits all. It is not a one technology that fits all combustion 
types. So the fuel use is important. And even within coal, the 
type of coal. As you know, lignite is certainly different from 
other coal.
    Mr. Cramer. It certainly is.
    Mr. Menezes. And your state has had the longest active 
capture program in use.
    So we are committed to it. Sometimes it is a question of 
resources. I think it is a fair question to ask, have we not 
sufficiently funded the most promising technologies and perhaps 
funded other technologies that may not have been promising 
when, in fact, they received the moneys. And I think as we--the 
knowledge is maturing, and I think we are close to, hopefully 
figuring out how, in fact, is the most efficient way on a 
multiple range of fuels to capture and use the carbon.
    Mr. Cramer. Well, I know you will find advocates on this 
committee, as you pointed out. And we will continue to work 
with you on providing those resources. And I appreciate the 
very good answer, very thorough answer.
    I just, in my last minute, just raise one other issue that 
is a bit different than you might expect. But because General 
Atomics is--that is an important corporate citizen at the Grand 
Forks Air Force Base in North Dakota, and particularly at the 
Grand Sky UAV park. I have had the opportunity to go down to 
San Diego a couple of times. In my most recent visit about a 
year ago, I visited their ITER project. I don't know how 
familiar you are with it. But, yes, the International 
Thermonuclear Experimental Reactor project, which, to me, just 
seems to present a lot of opportunity with a mega fusion 
project. And I know it is housed in San Diego. Thirty-five 
countries are part of this. As I look at the U.S. commitment to 
it, again, financially, I sometimes think we are coming up a 
little bit short. And I just want to highlight it, either for 
comment or for further discussion as we go forward.
    Mr. Dabbar. Thank you, Congressman. Yes. Quite a different 
topic than my family's farm in Hazen where they would mine the 
coal seam that was surface mined.
    Mr. Cramer. Yes.
    Mr. Dabbar. The ITER project is a very interesting project 
as a part of the Office of Fusion, which is in the Office of 
Science. The ITER project was negotiated a very long time ago 
as a large international consortium. For those of you who don't 
know, building a 500 megawatt peak fusion plant in the south of 
France. That would be large. That would be a large normal power 
plant. It is a very large project in terms of dollar amounts 
and the contribution from all around the world, including us. 
Fusion is important to us. General Atomics also has a fusion 
reactor in San Diego that you visited. So the overall is very 
important.
    The challenges around ITER is project management. I think 
you have heard a lot before about us as a management team 
having private sector experience around project management. The 
biggest challenge around ITER is that it is six times 
overbudget and it is 10 years late in terms of timing. And so I 
know that on a very bipartisan basis there has been a big 
debate about funding of that and how that affects overall 
budget and the performance.
    The performance of the ITER project has improved since they 
changed out the management team there, and so they are getting 
back on being able to perform. And we look forward to working 
with the Congress here on the appropriations side should you 
want to continue funding it.
    Mr. Cramer. Appreciate it. Thank you, and I am well over 
time, Mr. Chairman.
    Mr. Flores. Yes, you are. The gentleman's time has expired 
long ago.
    I would like to thank this panel for attending. Seeing that 
there are no other members wishing to ask questions, this panel 
is excused and we will move to Panel II.
    Mr. Flores. All right. Let's go ahead and get started. We 
want to thank all our witnesses for being here today and taking 
the time to testify before the subcommittee. Today's witnesses 
will have the opportunity to give opening statements, followed 
by a round of questions from members.
    Our second witness panel for today's hearing includes 
Thomas Zacharia, Director of the Oak Ridge National Laboratory; 
Donald Levy, who is the Albert A. Michelson Distinguished 
Service Professor Emeritus, University of Chicago and Co-chair 
of the Panel to Track and Assess Governance and Management 
Reforms in the Nuclear Security Enterprise; Sarah Ladislaw is 
the Director of Energy and National Security Program at the 
Center for Strategic and International Studies; Steve Wasserman 
is the Director of Lilly Research Laboratory Collaborative 
Access Team, Advanced Photon Source of the Argonne National 
Laboratory, on behalf of the Society for Science at User 
Research Facilities; Dan Reicher is the Executive Director at 
Stanford University Steyer-Taylor Center for Energy Policy and 
Finance and Senior Fellow at the Brookings Institution; lastly 
but not least, Rich Powell is the Executive Director of the 
ClearPath Foundation.
    We appreciate all of you being here today.
    We will begin the panel with Dr. Zacharia, and you are now 
recognized for 5 minutes to give an opening statement. We would 
request that each of you adhere to the 5-minute limit. Thank 
you.
    Dr. Zacharia.

  STATEMENT OF THOMAS ZACHARIA, DIRECTOR, OAK RIDGE NATIONAL 
  LABORATORY; DONALD LEVY, ALBERT A. MICHELSON DISTINGUISHED 
SERVICE PROFESSOR EMERITUS, UNIVERSITY OF CHICAGO AND CO-CHAIR, 
PANEL TO TRACK AND ASSESS GOVERNANCE AND MANAGEMENT REFORMS IN 
  THE NUCLEAR SECURITY ENTERPRISE; SARAH LADISLAW, DIRECTOR, 
ENERGY AND NATIONAL SECURITY PROGRAM, CENTER FOR STRATEGIC AND 
    INTERNATIONAL STUDIES; STEVE WASSERMAN, DIRECTOR, LILLY 
   RESEARCH LABORATORIES COLLABORATIVE ACCESS TEAM, ADVANCED 
 PHOTON SOURCE, ARGONNE NATIONAL LABORATORY, ON BEHALF OF THE 
 SOCIETY FOR SCIENCE AT USER RESEARCH FACILITIES; DAN REICHER, 
 EXECUTIVE DIRECTOR, STANFORD UNIVERSITY STEYER-TAYLOR CENTER 
  FOR ENERGY POLICY AND FINANCE AND SENIOR FELLOW, BROOKINGS 
  INSTITUTION; AND RICH POWELL, EXECUTIVE DIRECTOR, CLEARPATH 
                           FOUNDATION

                  STATEMENT OF THOMAS ZACHARIA

    Mr. Zacharia. Thank you, Chairman Flores, Ranking Member 
Rush, and members of the committee. Thank you for inviting me 
to testify.
    My name is Thomas Zacharia, and I am director of the 
Department of Energy's Oak Ridge National Laboratory. As you 
heard from the earlier panel, Department of Energy is 
responsible for the missions of science, energy, national 
security, and then LANL legacy cleanup.
    The role of the national labs is to provide the science and 
technology capabilities and solutions the Department needs to 
accomplish these missions. My written testimony provides 
several examples of how Oak Ridge had leverage capabilities and 
resources and works with other national labs, industry, and 
universities to meet DOE's mission needs. In the interest of 
time, I will speak to only one of these.
    The Summit supercomputer, which will begin operating at 
ORNL later this year, will surpass what is now the world's most 
powerful computer in China. Summit resulted from CORAL, the 
Collaboration of Oak Ridge, Argonne, and Livermore, meant to 
streamline the procurement process and maximize the government 
buying power. Six labs are partnering with an extensive network 
of American companies, academia, and laboratories on the 
Exascale Computing Project to ensure that U.S. researchers will 
have access, not only to the computing systems with 50 times 
the power of today's most capable machines, but also to the 
applications and software that they will need to use these 
machines effectively.
    This partnership shows how the national labs individually 
and collectively play a pivotal role in developing new tools 
for science and technology, to include reliable and resilient 
infrastructure in applying those tools to DOE's mission needs 
and in sustaining U.S. competitiveness.
    Most DOE national labs are GOCO facilities, government-
owned/contractor-operated. The relationship between DOE and the 
contractors who manage and operate the labs is ideally a 
partnership in which DOE determines what is to be done and 
contractors determine how to achieve it.
    Many aspects of the GOCO model work very well. However, 
some reviews have identified problems in program execution and 
increased costs. In 2015, the Commission to Review the 
Effectiveness of the National Energy Laboratories made several 
recommendations for improving lab management, many focused on 
rebuilding the GOCO partnership. DOE is responding by working 
to drive fundamental change in its management of the national 
labs.
    First, DOE has adopted a planning process that is improving 
the strategic alignment of the labs and enabling them to work 
more effectively to focus on national priorities. In terms of 
governance, DOE is working with its contractors to streamline 
contract mechanisms, while ensuring that contractors are held 
accountable.
    DOE's lab appraisal process has become a useful tool for 
evaluating and incentivizing contractor performance and for 
informing decisions on whether to extend or compete expiring 
contracts. Contractor assurance systems are providing new tools 
for determining the proper level of oversight. For example, 
ORNL offers a fast-track CRADA program. This program 
streamlines execution of cooperative research agreement and 
major technology of transfer mechanism by exploiting robust 
contract assurance processes. Our partnership with DOE's ORNL 
site office was a key factor in implementing this new 
mechanism.
    DOE's regulatory reform task force identified regulations 
governing lab operations as a target of opportunity. The task 
force embraced several proposals from the National Laboratory 
Directors' Council that focused on these regulations. Cross-
functional teams are implementing some welcome changes, as 
described in my written testimony.
    This process has fostered an alignment in which DOE and its 
contractors are working together on common goals. Continuing 
efforts along these lines should produce additional savings and 
operational improvements.
    With regard to policy reform, Secretary Perry is realigning 
the Department to advance its policy goals consistent with the 
statutory requirements. At ORNL we look forward to working with 
our DOE sponsors to support them in the execution of their 
missions.
    Finally, DOE is encouraging the national labs to work with 
industry to turn early-stage innovations into products. New 
approaches include the agreements for commercializing 
technology mechanisms now available to all labs and support for 
early-career innovators.
    The actions that DOE has taken to make the national labs 
more efficient and effective will enable these institutions to 
focus on delivering the science and technology needed to ensure 
our energy security, national security, and global 
competitiveness in the 21st century.
    The M&O contractors are committed to working with DOE to 
build and maintain a culture of trust and accountability that 
will ensure the greatest possible return on the Nation's 
investment in the national labs. Thank you, again.
    [The prepared statement of Mr. Zacharia follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton [presiding]. Thank you.
    Dr. Levy. You need to hit that button on the----

                    STATEMENT OF DONALD LEVY

    Mr. Levy. Chairman Upton, Ranking Member Rush, members of 
the committee, I am Donald Levy, Professor of Chemistry 
Emeritus at the University of Chicago. The University of 
Chicago is a management and operating contractor for the 
Department of Energy, operates two Office of Science 
Laboratories: Argonne National Lab and Fermi National 
Accelerator.
    Ten years prior to my retirement in 2016, I was vice-
president for research and national laboratories at the 
university and the person responsible for executing our M&O 
contract.
    I am a member of the National Academy of Sciences, and I am 
here today as co-chair of the joint panel of the National 
Academy of Sciences and the National Academy of Public 
Administration, which is charged to monitor the efforts of the 
National Nuclear Security Administration, NNSA, to address 
issues raised in several reports concerning NNSA's management 
and governance of the enterprise. I also wish to acknowledge my 
NAPA co-chair for the study, Jonathan Breul of Georgetown 
University. I very much appreciate you giving me the 
opportunity to discuss insights we have gained so far in the 
course of our panel's study.
    Our study was requested by Congress in the National Defense 
Authorization Act of fiscal year 2016, being carried out by a 
very strong panel whose membership has extensive experience and 
excellent credentials in both nuclear security and public 
administration. It is supported by the NNSA, which has gone out 
of its way to provide the panel with full information relevant 
to its tasks.
    The congressional request that formed our panel came about 
because of the long series of reports that identified serious 
concerns in the operation of the nuclear security enterprise. 
By one count there were more than 50 critical reports over two 
decades. In spite of all those reports, problems persisted. The 
concerns in these reports are not about the safety and security 
incidents you may occasionally read in the paper, and certainly 
not about the quality of the work being done. Rather, they 
arise from serious and systemic management and governance 
problems which have persisted for many years and were perceived 
as an eventual threat to the national security mission of the 
NNSA.
    Our first report was released last March and the second is 
in preparation. Our work will run through the fall of 2020. The 
Authorization Act asked in particular that NNSA create a plan 
to address concerns raised in the most recent critical report, 
which was produced by a panel co-chaired by Norman Augustine 
and Admiral Richard Mies.
    The Augustine-Mies report identified five serious concerns, 
which are called, and I quote from the report, ``systemic 
problems in both management practices and culture that exist 
across the nuclear enterprise.'' These are: Number one, a lack 
of sustained national leadership, focus, and priority. Number 
two, overlapping DOE and NNSA headquarters staffs and blurred 
ownership and accountability for the nuclear enterprise 
missions. Number three, lack of proven management practices, 
including dysfunctional relationship between the program line 
managers and mission support staffs. Number four, dysfunctional 
relationships between the government and its management and 
operating contractors, which has led to burdensome 
transactional oversight rather than management focus on mission 
execution. Number five, insufficient collaboration between NNSA 
and Department of Defense weapons customers, resulting in 
misunderstanding, distrust, and frustration.
    These concerns are not merely vexations or opportunities 
for improvement. Rather, they each represent a risk, which if 
not addressed, would eventually erode the Nation's ability to 
provide adequate nuclear security. Each of the concerns in the 
Augustine-Mies report mirror similar findings in many previous 
reports.
    Our studies found, through multiple site visits, numerous 
meetings and phone calls with NNSA staff members and study of 
relevant documents, that NNSA has initiated a large number of 
changes in response to the Augustine-Mies report and others. 
But as noted in our first report, quoting from that report, 
``it has not identified success and it lacks qualitative or 
quantitative metrics to identify and measure change.''
    Moreover, the changes that have been made seem piecemeal 
and not as part of a larger strategic plan intended to address 
longstanding problems. Our panel continues to press for 
measures, quantitative or qualitative, that can indicate 
whether progress is being made against the serious and 
persistent concerns.
    In our upcoming report, we will provide a more detailed 
analysis of some of NNSA's more promising changes. But the 
panel has also heard first-hand from the laboratory staff that 
in spite of these changes, problems persist.
    More broadly, NNSA is embarking on a large-scale program of 
change management in order to alter practices and attitudes 
that have settled in over decades. In its first report, our 
panel explained that the experience of many organizations have 
revealed some common steps that are necessary for effective and 
lasting change to take root. Not all of those steps are in 
place at NNSA, and our upcoming report will delve into this.
    Successful change management, especially this scale, also 
requires buy-in and leadership from the top. It is important 
for the next NNSA administrator and DOE leadership to recognize 
the magnitude and persistence of the problems and take on this 
challenge.
    Thank you again for the opportunity to testify today. I 
remain at your disposal for questions.
    [The prepared statement of Mr. Levy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you.
    Ms. Ladislaw.

                  STATEMENT OF SARAH LADISLAW

    Ms. Ladislaw. Chairman Upton, Ranking Member Rush, and 
members of the committee, it is a pleasure to be here to speak 
with you today about DOE modernization.
    I run the CSIS Energy and National Security Program. It is 
one of the country's oldest and most well-known think tank 
program focusing on energy policy and geopolitics. It was 
created around the same time as the Department of Energy and 
for many of the same reasons. The views I express today are my 
own.
    The Department of Energy was created in the late 1970s 
during an inflection point in America's energy history. Today, 
the United States faces a new energy inflection point. Unlike 
the scarcity atmosphere of the 1970s, the United States has 
been leading the world in a new age of perceived energy 
abundance and rapid technological change. With it come new 
challenges and opportunities.
    For example, while the United States is now the world's 
largest producer of oil and gas, we are still vulnerable to 
energy supply disruptions in a globally integrated market. 
Electric power systems are becoming more distributed and 
complex, which brings enormous benefits but also operational 
and security challenges.
    Efforts to create and manufacture new technologies or 
capture market share in developing economies is leading to 
stiff competition and creating new trade relationships and 
geopolitical dynamics. Concerns over air pollution, water 
resources, and the global climate challenge are fundamentally 
altering the investment environment for energy companies and 
the policy decisions taken by governments around the world. The 
United States is blessed with many advantages in this 
environment, but the potential for disruptive change is higher 
than ever.
    The Department of Energy has an important role to play in 
addressing all of these challenges. First, the DOE should take 
a leadership role in conducting analysis regarding the safety, 
reliability, and optimization of the Nation's energy 
infrastructure. As we continue to witness, abundant supply does 
not in and of itself provide energy security. Transmission, 
delivery, and distribution infrastructure is critically 
important to ensuring adequate supplies of energy.
    Second, the DOE should continue to maintain emergency 
preparedness planning and response functions. Most notably, DOE 
manages the Nation's strategic petroleum reserves, the world's 
largest government-owned and managed emergency stockpile of 
crude and home heating oil. The DOE should modernize and 
Congress should safeguard this important asset.
    Third, energy efficiency promotion should remain a core 
mandate at the Department of Energy. One of the original 
mandates of the Department of Energy was to enact efficiency 
standards. The role that the Department plays in setting those 
standards is often overlooked or criticized, but has paid 
important economic and security dividends over the years.
    Fourth, scientific research and innovation are essential to 
meeting DOE's mission across the board and should be 
strengthened. The role that DOE and the national laboratories 
play in national research and development ecosystem are 
critical. Government does not constitute the entirety of the 
U.S. innovation landscape, but makes important contributions to 
funding research not undertaken by private interests, feeding 
into the personnel and intellectual supply chain of the 
research community, and working collaboratively with the 
private industry and universities to catalyze important areas 
of research.
    Fifth, energy strategy and analysis are more important than 
ever, so the DOE should maintain and strengthen its energy 
policy and analysis function. It is critically important for 
DOE to have a strong energy policy and analysis function in 
order to play an active and authoritative role in the 
interagency policymaking process and to engage with industry 
and other stakeholders.
    Sixth, independent and impartial energy information is 
essential. For decades, the country has benefited from the data 
collection, reporting, and analytical function of the Energy 
Information Administration. EIA provides unbiased, market-
relevant research on a regular basis through reports, and 
provides an important policy neutral voice in the energy 
policymaking process.
    Seventh, DOE should increase its capabilities when it comes 
to understanding, managing, and engaging in global energy 
issues. DOE plays an underreported role in managing 
international affairs in geopolitics as they relate to energy. 
The International Affairs Office should be strengthened and 
expanded to have a stronger analytical function designed to 
inform DOE leadership and thinking about global energy trends 
and the emerging challenges we face.
    The Department of Energy has a long history of supporting 
the Nation's security, economic, and environmental priorities 
and objectives. It was born during a time when the Nation's 
energy outlook was dangerous and uncertain. Today's energy 
outlook is no less uncertain as the country prepares for more 
interconnected and interdependent energy systems driven by new 
consumers, new priorities, and stiff competition. Preparing for 
this future requires the same amount of dedication and 
commitment that the DOE has delivered for the last 40 years.
    Thank you for the opportunity to provide my thoughts on DOE 
modernization. I look forward to taking your questions.
    [The prepared statement of Ms. Ladislaw follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you.
    Dr. Wasserman.

                  STATEMENT OF STEVE WASSERMAN

    Mr. Wasserman. Chairman Upton, Ranking Member Rush, and 
members of the subcommittee, my name is Stephen Wasserman. It 
is a pleasure to be at this hearing on modernization of the 
Department of Energy to discuss part of the Department's 
science mission: the DOE scientific user facilities. DOE's 
creation and operation of these facilities, an important part 
of its support of research and energy and the physical 
sciences, is a major success story of the Department.
    This morning, I appear on behalf of the Society for Science 
at User Research Facilities, SSURF, on whose board of directors 
I currently serve. SSURF is a new scientific association, 
founded in 2016. It continues efforts that began 27 years ago 
to foster cooperation between the large research facilities of 
the U.S. Government, as well as between the facilities and the 
scientists who use them.
    As we peer into the Department of Energy's future, it is 
useful to briefly look back at the path that has led to today. 
In 1945, Dr. Vannevar Bush, the director of the Office of 
Scientific Research and Development during World War II, issued 
a report, ``Science, the Endless Frontier,'' in response to a 
Presidential request a year earlier. In his text, Dr. Bush 
stated that, ``research involving expensive capital facilities 
beyond the capacity of private institutions should be advanced 
by active government support.'' The current DOE user facilities 
are the result of such support.
    The facilities are the Nation's shared toolbox for research 
and innovation. The individual tools are large, often extremely 
so. Access to them is merit-based, with each operating an 
independent review system for proposed experiments.
    The DOE Office of Science operates 26 user facilities. 
Additional ones support the security missions of the National 
Nuclear Security Administration. No other nation has the number 
and variety of scientific capabilities that U.S. scientists can 
avail themselves of here at home.
    The user facilities are embedded in our scientific psyche. 
Over 30,000 scientists from university, industry, and 
government laboratories currently perform experiments at one or 
more facilities. These researchers come from all 50 states and 
from every continent, except Antarctica. Three hundred seventy-
five companies use the DOE facilities, including more than 50 
members of the Fortune 500. In addition, most Federal agencies 
which have a scientific component to their mission sponsor or 
perform research at DOE locations.
    Today, I would like to highlight two examples of the impact 
of the facilities. These represent only a minute sample of the 
thousands of research projects that are pursued each year 
within the DOE facility network.
    The first example comes from the Oak Ridge Leadership 
Computing Facility, OLCF. General Electric manufactures large 
turbines fueled by natural gas for the generation of electrical 
power. In 2015, GE used the Titan supercomputer at OLCF to 
simulate two turbine designs: one current, the other then under 
development. The simulations reproduced observations from the 
current system and predicted successful performance in the new 
model. Full scale tests of the new turbine later confirmed the 
simulations. The first of the new turbines, which increased 
efficiency by 2 percent, a major improvement in the field of 
power generation, were installed in Texas in mid-2017.
    The second example is from the DOE X-ray sources. These 
sources are vital to research and development in human health. 
Virtually every major pharmaceutical company in the U.S. uses 
these sources to probe the structures of proteins implicated in 
human disease. This area is one in which I have been involved 
for 20 years, currently at Eli Lilly and Company.
    Scientists in the pharmaceutical industry continually 
investigate how potential new medicinal compounds interact with 
their biological targets. These efforts have aided the 
development of drugs to treat cancer, diabetes, hepatitis, and 
autoimmune diseases, as well as ongoing research to find 
approaches to the treatment of Alzheimer's.
    New medicines whose developments included experiments at 
one of the DOE synchrotron sources can be found in each year's 
approvals by the Food and Drug Administration. In a recent 
example that is for me close to home, in September, the FDA 
approved abemaciclib, a new treatment for certain forms of 
breast cancer that was developed by Lilly. I and my co-workers 
at Lilly performed experiments at the Advanced Photon Source as 
part of the research that lead to this medicine.
    Today, our country is focused on the need to upgrade the 
Nation's infrastructure. The user facilities are a type of 
infrastructure that, like transportation and utilities, needs 
to be maintained and improved. The DOE Office of Science has 
been an admirable steward of this infrastructure. However, the 
office has been handicapped by budgets whose buying power has 
significantly decreased over the last decade.
    Current fiscal constraints mean that renewal often occurs 
at the slower pace than the facility's age and that timelines 
for upgrades are lengthened or delayed. The current levels of 
support have already left our Nation behind in the capabilities 
available at a small subset of the facilities. Continuing this 
trend risks a gap in innovation and technology between the 
United States and other nations.
    In conclusion, I would like to return to ``Science, the 
Endless Frontier.'' Near the end of his summary, Dr. Bush 
observed that responsibilities for scientific research are the 
proper concern of the government where they vitally affect our 
health, our jobs, and our national security. We at SSURF and 
our colleagues in the user facility community could not agree 
more. The user facilities are a critical part of the greatness 
of the U.S. scientific endeavor. We need them for our economy, 
security, and quality of life. Thank you.
    [The prepared statement of Mr. Wasserman follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you.
    Mr. Reicher, welcome.

                    STATEMENT OF DAN REICHER

    Mr. Reicher. Thank you.
    Chairman Upton, Ranking Member Rush, and members of the 
subcommittee, I am pleased to share my perspective on the DOE's 
mission.
    I have spent more than a decade at the Department under 
four secretaries and have a deep respect for the agency. So it 
pains me to say that DOE, under the Trump administration, is 
heading in a problematic direction when it comes to the 
innovation, commercialization, and deployment of U.S. clean 
energy technology.
    The administration has sought unprecedented cuts in DOE's 
budgets for energy efficiency and renewable energy, electricity 
reliability, fossil energy, and nuclear power. It has proposed 
to eliminate the Loan Programs Office, ARPA-E, the State Energy 
Program, and the low-income weatherization program. It has 
begun putting the brakes on energy efficiency standards and has 
not reestablished the Secretary of Energy Advisory Board.
    Let me be clear, DOE continues to make progress in critical 
areas, but this progress is slowing as important programs keep 
personnel, longstanding advisory functions, and related funding 
are hollowed out. These challenges come at a time when 
worldwide investment in clean energy is growing, roughly $750 
billion annually today, and there is a global race for 
dominance in this massive market.
    The Chinese have a well-organized plan to dominate clean 
energy. From wind, solar, hydropower, and storage, to nuclear 
power, advanced vehicles, energy efficiency, carbon capture, 
and transmission, China is not only leading in manufacturing 
and deployment, but increasingly in R&D and commercialization, 
the traditional U.S. strong suits.
    This committee should look at the risk posed by these 
trends and ensure that DOE's applying a full set of resources. 
We preceded our peril in hobbling the U.S. Government's work 
with industry to advance our Nation's competitive position in 
clean energy, a sector where much energy innovation has come 
from the U.S., often at taxpayer expense.
    My testimony addresses several issues. First, Congress 
should resist the administration's proposed 69 percent cut in 
funding for energy efficiency and renewable energy or EERE, and 
urge the administration to propose robust funding in fiscal 
year 2019. In a June letter, all seven of us who are EERE 
assistant secretaries, both Republicans and Democrats, 
emphasized that cuts of this size would do serious harm.
    Second, this committee should resist the pending rescission 
of funds by House appropriators that would effectively end the 
work of DOE's Loan Programs Office, LPO. LPO, originally 
authorized by this committee, is carrying out its emissions 
well, helping to commercialize advanced nuclear fossil and 
renewable energy as well as transportation technologies, and 
managing the existing $36 billion investment portfolio.
    In a June 4 letter to this committee that I would like to 
submit for the record, 17 CEOs wrote that the LPO is often the 
only way to get innovative energy technologies commercially 
deployed. LPO has $41 billion in remaining loan-making capacity 
that would be a big down payment on the trillion dollar 
infrastructure program that Congress may soon take up.
    Third, DOE's Appliance Standards Program was one of the 
most effective approaches to saving energy, and has long 
enjoyed bipartisan support. Unfortunately, DOE recently put 
work on most new standards on hold, and could end up violating 
statutory deadlines. This committee should ensure that DOE does 
not advocate its important standard setting role.
    Fourth, a bipartisan effort over the last several years 
would open up congressionally authorized investment vehicles, 
master limited partnerships, private activity bonds, and real 
estate investment trusts to clean energy technologies, and 
thereby lower the cost of financing energy projects. The House 
should adopt the bipartisan MLP Parity Act, sponsored by 
Representatives Poe and Thompson, as well as Congressman Welch, 
and the bipartisan Carbon Capture Improvement Act sponsored by 
Representatives Curbelo and Veasey.
    Fifth, the need for electricity storage is growing fast 
with the significant increase in solar and wind. Congress and 
the administration should help advance both utility scale and 
distributed storage through R&D funding, grants, tax credits, 
loan guarantees, MLPs, and other tools. In this regard, 
Congress should resist the Trump administration's proposed 61 
percent cut in DOE energy storage R&D.
    Sixth, carbon capture and storage can cut emissions in both 
power generation and heavy industry. Over the past 20 years, 
DOE has relied on a variety of Federal tools--R&D funding 
grants, Federal tax credits, private activity bonds, and loan 
guarantees--to advance CCS and made good progress. The House 
should resist the Trump administration's proposed 85 percent 
cut in DOE's CCS R&D funding and adopt pending legislation that 
would improve the current CCS 45Q tax credit and authorize both 
master limited partnership and private activity bond funding.
    Seventh, the U.S. Government is the single largest energy 
user in the Nation, with an energy bill to taxpayers exceeding 
$23 billion. The committee should take note of a 2016 task 
force by a report of the Secretary of Energy Advisory Board 
that proposes many ways to cut this bill and expand the 
deployment of clean energy on Federal lands. It should also 
resist the proposed 63 percent cut to the budget of DOE's 
Federal Energy Management Program.
    Finally, this committee should encourage Secretary Perry to 
reactivate the Secretary of Energy Advisory Board that has long 
provided important expert input into the Department's programs 
and operations. Thank you very much.
    [The prepared statement of Mr. Reicher follows:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you.
    Mr. Powell.

                    STATEMENT OF RICH POWELL

    Mr. Powell. Good afternoon, Chairman Upton, Ranking Member 
Rush, and other committee members. My name is Rich Powell, 
executive director of the ClearPath Foundation.
    ClearPath develops conservative policies that accelerate 
clean energy deployment. We advocate for innovation over 
regulation, educating policymakers and conducting and 
supporting independent policy analysis. A note, we receive no 
funding from industry.
    I appreciate the opportunity to address the subcommittee on 
DOE modernization. Refocusing the Department's key research and 
development programs is crucial to securing American clean 
energy dominance internationally and facilitating a cleaner, 
more reliable, and affordable domestic energy supply.
    Our Nation is rapidly approaching a crossroads. Coal makes 
up a third of American power production, and the average plant 
will likely retire by 2030. Half of U.S. nuclear plants could 
close by 2040. Refurbishing or replacing these facilities 
presents a once in a century opportunity to develop domestic 
advanced industries.
    Meanwhile, global energy demand is projected to grow by 28 
percent by 2040. The market in India alone is estimated at $2.7 
trillion. A homegrown, U.S. advanced energy economy can seize 
this opportunity. If our Nation does not rise to that 
challenge, we run the risk of falling behind. In fact, we 
already are.
    China, in particular, is already outflanking us on next 
generation technology. It is bringing an advanced nuclear 
reactor online this year at a time when the U.S. is struggling 
just to keep its existing fleet afloat and doesn't even have a 
fast test reactor available for American entrepreneurs to test 
new designs. China is already the global leader in solar 
manufacturing and superefficient coal technology and is rapidly 
advancing in batteries and electric vehicles.
    The best way for America to outcompete in future energy 
markets is to develop increasingly advanced technologies that 
can best rival offerings, as we did with the fracking 
revolution for our shale resources. We may not be able to beat 
China with cranes and concrete, but we can win in high-skilled 
manufacturing of carbon capturing fuel cells, printable solar 
panels, and modular advanced reactors.
    But these breakthroughs do not happen overnight. Hydraulic 
fracturing and today's solar and wood technologies took decades 
and significant investment from both private and public sources 
before their widespread deployment.
    The private sector is often ill-positioned to pioneer new 
and capital-intensive technologies alone. DOE must remain 
central to America's clean energy innovation dominance, linking 
academic research and commercial products. Too often, however, 
we think of DOE's R&D role in terms of research capabilities or 
dollars spent, rather than delivering disruptive new 
technologies to solve particular problems or address market 
challenges. Spending more with a business-as-usual approach 
will not win the global energy innovation race.
    The Department should reorient itself toward moonshot 
technology goals that empower industry to tackle the challenges 
of breakthrough technologies. Clearly articulated, longterm 
research priorities could insulate critical RD&D efforts from 
changing political winds. Used appropriately, they would 
leverage limited Federal resources towards the most important 
priorities.
    Big goals at DOE have worked before. The 2011 SunShot 
Initiative aligned secretary-level resources to reduce the cost 
of solar power by 75 percent within 10 years. Last year, DOE 
reached the goal ahead of schedule. More such goals are needed. 
For example, an advanced nuclear MoonShot could implement 
Secretary Perry's call for an increased emphasis on the 
development of new nuclear technologies.
    For ambitious technology development goals to succeed, the 
Department should implement a few systematic reforms. First, 
DOE should adopt more private sector management practices. 
Major Moonshots and interim subgoals could provide yardsticks 
to evaluate progress. If specific bets don't meet milestones, 
dollars should be redirected; a practice common today at ARPA-
E.
    Second, a soup-to-nuts approach to energy research is 
needed, especially for capital intensive technologies such as 
carbon capture and advanced nuclear. Striking a balance of 
supporting demonstration while avoiding market interference is 
a delicate one, but is necessary to maintain international 
competitiveness. Prematurely ending private-public research 
projects raises the risks that our rivals will commercialize 
them instead.
    China has no philosophical objection to funding applied 
science. They are happy to take American basic research and add 
applied dollars to demonstrate and commercialize them, reaping 
the benefits of our creations.
    In conclusion, America has an opportunity to lead the 
global market for clean, reliable, and affordable energy. But 
without a more focused and nimble government partner, American 
entrepreneurs are likely to lose the clean energy race. A 
recommitment to leading global energy innovation would not only 
improve our geopolitical position, it would reduce emissions 
and maintain low consumer prices, while seizing a multitrillion 
dollar opportunity.
    ClearPath applauds the committee for taking on this 
important and overdue task and stands ready to assist its 
legislative efforts. Thank you again for the opportunity to 
provide remarks.
    [The prepared statement of Mr. Powell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Well, thank you all for your testimony. I know 
it has been a long hearing, and you were here promptly when the 
gavel came down at 10 o'clock. I have a couple of questions, as 
I know the members do here.
    Dr. Wasserman, I was pleased to hear you talking about some 
very positive things, particularly relating to what Lilly has 
been doing and the funding to offset some of the buying power 
for new drugs and devices. As you know, this committee passed, 
every one of us, passed on a 51 to nothing vote in the last 
Congress, 21st Century Cures, which accelerates breakthrough 
drugs to address disease. We worked hard to make sure that 
there were the appropriate offsets for more funding for the NIH 
and other resources.
    Have you at all looked at what we did as it relates to the 
advancement of new technologies in the medical side?
    Mr. Wasserman. Only slightly, Chairman. As we look at new 
technologies, as a company, we are always looking for ways to 
improve our goal of getting medicines to the patients who need 
them as soon as possible. So the things that the government has 
done to foster that, including our use of the facilities, 
developing other new technologies, leveraging the things that 
both that NIH and DOE have created for us to improve our 
efficiency in the laboratory.
    As you know, it is a long slog to get a drug to market. 
And, for example, the experiments that I mentioned today on 
breast cancer were done, I think, 7 years ago, and the approval 
came down. But, again, we know it is difficult to get a drug to 
market, and every advantage that we can come up with sponsored 
by the government or with the own initiative within the 
industry.
    Mr. Upton. We worked very closely with Dr. O'Neese, 
particularly as it related to the DOE user facilities as part 
of that legislation. He was a very constructive partner as we 
worked together.
    Dr. Zacharia, you have watched our committee's action and 
you know that we have been very involved in cybersecurity. And 
I guess the question that I have for you is, what do you see as 
we try to avoid unnecessary duplication but still ensure 
breakthroughs in cyber defenses and response capabilities, in 
particular, in regard to advanced supercomputing capabilities 
to address those challenges?
    Mr. Zacharia. Chairman Upton, thank you very much. So 
cybersecurity clearly is a challenge for a system like ours or 
a society like ours because the adversary only has to succeed 
once, whereas we have to be 100 percent foolproof. And so the 
approach that we have taken working with the Department is to 
make sure that the cost of penetrating critical assets is 
increasingly higher. So just like if your own home, the higher 
the walls, gates, et cetera, the alarm systems, it forces the 
people to go look elsewhere. And so cybersecurity, broadly 
speaking, is focused on new tools and technologies and software 
solutions, building on the computing capabilities that we have, 
the supercomputing capabilities that we have. But also within 
the DOE space, we also focus on the cyber physical systems 
where you are also not just focused on the penetration of 
computing and information technology, but really the gateway 
into grid and energy grid systems, which is a big challenge, as 
was noted in the previous panel.
    And, Mr. Chairman, if I can just add one more comment about 
the question about the Cures Act, is that, as you--the DOE 
supercomputer systems are used effectively in working with a 
joint program between NCI and DOE and working with a private 
sector, in this particular case, GlaxoSmithKline, in developing 
a pilot project where the computing capability and the data 
analytics are being brought forward to look at much more 
targeted personalized medicine initiatives.
    Mr. Upton. Thank you.
    Mr. Rush.
    Mr. Rush. Good morning. Thank you, Mr. Chairman.
    Mr. Reicher, I am quite interested in your influent overall 
proposal--your influent program, but in general, I am 
interested in your whole thrust here, and I think you have been 
pretty specific, and that means a lot to this committee in 
terms of some of your recommendations. But I only have 5 
minutes, so I want to zero in on the weatherization program and 
the EERE recommendations in general.
    We are in the midst of extremely cold weather throughout 
the Nation, and has this weatherization program been effective, 
and has there been a return on the investment? I mean, what is 
the cost of the investment, in your opinion, into the 
weatherization program?
    And, secondly, how will low income families be impacted if 
this program were completely phased out? And what would the 
effect be on local jobs if this program were to be phased out?
    Mr. Reicher. Mr. Rush, the Weatherization Assistance 
Program has been a very successful program. More than 7 million 
homes have been weatherized around the United States to date. I 
think it is every $1 of Federal investment leverages between $4 
and $5 of outside investment, so it is a good government 
leverage in that way. It comes at a moment when it is not only 
cold out, but we are seeing a pretty big increase in the cost 
of heating fuels, as oil prices increase, as natural gases 
prices increase. So it does a lot in that way. I think much of 
the review of that program, and I know Oak Ridge has done some 
of it, has been fairly positive about the program, to date.
    And there is some great job production in this program. It 
really puts local people to work going in and, first, measuring 
what is leaking in a house, and secondly, blowing in insulation 
and fixing windows. So it has got all the right hallmarks. So I 
really, really hope that we don't see the elimination of this 
program. It has been supported for decades. Forty years 
anniversary, I think, was last year. So I am a big fan.
    Mr. Rush. From your previous work at Argonne, can you speak 
to some of the innovative works that have taken place in the 
energy storage field? This is for Dr. Levy, I am sorry.
    Dr. Levy, you worked at Argonne. Can you share any insight 
into some of the most promising potential breakthroughs in the 
beyond lithium program? What are some of the possibilities that 
can help move us forward into the future in regards to storing 
energy and developing a more resilient and efficient 21st 
century electricity grid?
    Mr. Levy. Thank you, Mr. Rush. First of all, I must 
confess, I have been away from Argonne for 2 years, and I am a 
couple of years out of date. And I think in the battery 
business, that is an important 2 years.
    They were having very promising results in improving 
storage, and of course, that is important for two reasons. It 
is important in order to use intermittent sources of energy. It 
is also important for all sorts of other applications. So there 
is nothing but gain to be had there.
    I think the best I can offer you in terms of specifics is 
to get back to you after talking to some of the people at 
Argonne.
    Mr. Rush. OK. Mr. Chairman, I yield back.
    Mr. Upton. Mr. Shimkus.
    Mr. Shimkus. Thank you, Mr. Chairman. And I appreciate you 
all being here.
    What the intent of what I think the administration is 
trying to do is, and what we are trying to do, is look at the 
Department of Energy after 40 years, and how do you update it? 
How do you modernize it? How do you make it efficient? And 
really how do you tell the story? I think part of the problem 
is the public really doesn't know the story, and that is part 
of our challenge too.
    I have been to Argonne and I have been to Oak Ridge, but 
those are special trips that people have to make. And if you 
are not a member from that area, then you just don't get there. 
So we have got great scientists, they work real hard.
    And then the other part is, you know, Members of Congress 
easily can go back to why did we create the Department of 
Energy? And if you go back to the history, remember, it was the 
energy crisis of the 1970s, which some of us were a lot younger 
then. And then we get to Congress and we still have an energy 
crisis.
    So the creation of the Department of Energy in the 1970s 
didn't solve the crisis. And I would argue that it is 
individual investment. And right now, it is the fracking 
technology that really has transformed this whole world's view 
now, not just within the continental United States, but really 
the international energy markets. I also do a lot in eastern 
European freedom issues, so the energy extortion by the 
Russians is real.
    So that is kind of the intro into my questions. I want to 
go to Ms. Ladislaw first in addressing the SPRO. I was a big 
SPRO supporter when we were importing a lot of crude oil, and 
we are, but we are also exporting. So we are having that 
debate, right, $2 million to modernize it, and then what, 
right? I have been quoted as saying, ``I am not even sure why 
that should be part of our portfolio anymore.'' I think in your 
statement you disagree with that, and I would ask why.
    Ms. Ladislaw. Thanks very much for the question and for 
your interest in the Strategic Petroleum Reserve. I find you 
are right, a lot of people don't know about its existence in 
addition to all the things that the Department of Energy has 
done over the years. I was not around the Department's 
creation. I have worked with----
    Mr. Shimkus. Let's go to someone else then. No.
    Ms. Ladislaw. I have worked with people that were, though. 
And what I find really interesting is that, as we remember it, 
the Department was created during a time of crisis, and we 
thought it was going to get much worse. And a lot of it had to 
do with deregulating our domestic environment and making a 
whole suite of challenges and deciding that we were going to 
commit to this internationally connected and efficient market 
for oil and gas and things like that. And we have pursued that 
for 40 years. And I actually think that the Department and the 
United States should take a lot of credit for that system that 
we have created. It is what is going to allow us to sell a lot 
of the oil and gas resources that we have in a free and open 
market, and I think that is a huge advantage.
    Mr. Shimkus. Let me just go ahead, real quick, because I am 
running out of time.
    Ms. Ladislaw. I was just going to say, I think that the 
reality, though, is that we have, as forecasters, been wrong, 
time and time again over that 40-year period about near-term 
market changes, whether we are going to have enough resources 
or not have enough resources. And a lot of that has to do with 
situational type of things that we couldn't foresee, like 
Hurricanes Katrina and Rita and things like that.
    Mr. Shimkus. Just because I want to be respectful of my 
colleagues' time. So, we have got the Bakken now and we have 
got the Pennsylvania shale, we have got, obviously the oil 
sands, we have got Keystone, and hopefully eventually we will 
get Keystone XL Pipeline. And we now, after much consternation, 
export crude oil, which I think has been a huge benefit. It has 
been a benefit for our identification location recovery, 
keeping the prices at a place where we still have people 
looking in the continental United States, and so I think that 
has been a net plus for the country and for jobs and the 
economy.
    I get from your testimony, and correct me if I am wrong. I 
think that is true for LNG too. And I would like to hear your 
comments on that. Do you believe that that would be the same 
type of response if we were more active in LNG exports?
    Ms. Ladislaw. Sure. I think LNG exports are certainly good 
for the U.S. economy.
    Mr. Shimkus. OK. Great.
    Mr. Chairman, that is all I have. I yield back.
    Mr. Upton. Ms. Castor.
    Ms. Castor. Thank you, Mr. Chairman. Thank you to all the 
witnesses for your very interesting testimony.
    I have to say, Mr. Reicher, I share your concern that the 
Trump administration's policies they are putting forth in the 
beginning of the administration appear to want to hollow out 
our Department of Energy, and that would be to the detriment of 
this great country. At this time, it just doesn't seem like the 
way they are thinking matches the challenges that we face and 
takes advantage of all of the fantastic technological advances 
and natural gas revolution, and as Ms. Ladislaw said, the 
energy abundance that we have at this point.
    You, Mr. Reicher, pointed to the drastic cuts in clean 
energy, the electric grid operations, the next generation 
energy technology. You pointed to the inexplicable back 
peddling on energy efficiency standards for household 
appliances. But you have particular expertise as the former 
assistant secretary for EERE. Will you explain the consequences 
of such drastic diminishment of energy efficiency and renewable 
energy under what the Trump administration has put forward?
    Mr. Reicher. So I think it hurts us in a variety of ways. I 
think it hurts us in terms of people's pocketbooks, if we 
really do pull back, if we don't take advantage of the savings 
that we can achieve, if we don't take advantage of a variety of 
other things, weatherizing people's homes. So I think it hits 
there.
    It obviously hits from an environmental standpoint. We have 
made a lot of progress in cutting carbon emissions, both 
because of the rise of natural gas, but also because of the 
deployment of a variety of renewables. It definitely hits us in 
terms of our competitiveness. And I will have to tell you, I am 
very worried about what we are doing.
    We published a major report at Stanford that actually DOE 
funded, looking at the Chinese solar industry and how it is 
that it has gotten so very strong. And it has gotten so very 
strong because there is a highly organized effort in China, 
industry and government, in each of these major energy 
technology categories to begin to, essentially, own these 
energy industries. They now make 70 percent of the world's 
solar panels. And it is not just cheap manufacturing, it is 
also now R&D.
    The Chinese are getting very good at solar R&D. They are 
getting very good at nuclear R&D. They are getting very good in 
carbon capture, in transmission. And I really worry that, from 
a competitiveness standpoint, we're going to really hurt 
ourselves. And it is, in fact, this industry government 
partnership that has been active for the last 40-50 years that 
has really kept us in the ball game.
    And, lastly, I will say, much of what China is moving 
forward with was technology invented in the United States, and 
a lot of that at government expense, taxpayer expense. So I 
really think we need to think from a competitiveness standpoint 
where we are headed.
    Ms. Castor. And your point is not lost on me on how much it 
is costing the rise in carbon pollution because I come from the 
State of Florida, and I think the insurance industry earlier 
yesterday or at the end of last week released the totals for 
the damages from hurricanes. Now, the direct link isn't there, 
but what the consensus is that these extreme weather events are 
intensified because of higher carbon levels. We have the best 
scientists in the world and we have the technological edge, why 
would we cede that to China?
    Ms. Ladislaw, you also highlighted the importance of energy 
efficiency. You said it is important to the economy and it pays 
great dividends for security. Could you expand on your concerns 
about receding in America's leadership on energy efficiency and 
renewables?
    Ms. Ladislaw. Sure. Working for a security organization, I 
think people think, in particular at this time of abundance, 
that the way that you are secure is you have more, right? If 
you just have more, then you are thereby secure.
    I think the original sort of mandate for the Department of 
Energy was to use less and produce more, more in variety and 
more in quantity, and that use less piece has been huge. The 
Alliance to Save Energy has remarkable figures that I included 
in my testimony about how much the U.S. has saved. And I think 
that what we are finding now is, around the world, developing 
countries that don't want to develop along the same lines that 
the United States did, want to benefit from purchasing those 
technologies or making those technologies themselves. It is a 
very competitive marketplace out there for additional energy 
efficiency.
    And we shouldn't forget that part of the reason why the 
United States has enough oil to export today is not just 
because we produce it, but it is because we use so much less of 
it than we thought we were going to. And so I think that energy 
efficiency just struggles from being one of those untold 
stories with really big strategic advantages both today and 
that we can pay forward to the future as well.
    Ms. Castor. Thank you. I yield back.
    Mr. Upton. Mr. Flores.
    Mr. Flores. Thank you, Mr. Chairman. I also thank the panel 
for joining us today. It has been enlightening testimony.
    Mr. Powell, you and I both agree that as Congress looks to 
allocate scarce resources, that investment in basic research 
has great value in terms of translating into the seed corn of 
future economic opportunity.
    In that regard, I was enthused by your talk about setting 
MoonShot approach. Can you expand on how setting technology 
moonshots can ensure the efficient use of taxpayer dollars 
versus the status quo?
    Mr. Powell. Sure. Thanks very much for the question. So I 
think we should remember that the sort of energy miracle of 
this past decade, the shale gas revolution, was heavily 
influenced by research conducted at the Department of Energy, 
on hydraulic fracturing, horizontal drilling, diamond-headed 
drill bits. It is very possible the shale gas revolution would 
not have occurred without that research at DOE in partnership 
with private industry.
    And so the question is, how do we produce more of those 
miracle technologies? In our view, it is very hard to get 
somewhere if you don't know where you are going. And so one 
first step is simply to establish the sorts of performance 
benchmarks that we are looking for, for new sort of miracle 
technologies. So what does an advanced reactor look like that 
would actually be right for today's energy market. So smaller, 
more modular to build, probably a much lower cost point for 
energy. And then aligning resources at DOE to overcome 
bottlenecks to achieve a goal like that.
    Again, in the SunShot Initiative, they put a very 
aggressive time-based, cost-based goal out there. They broke 
down every part of the cost of grid scale solar systems, and 
they subjected each of those parts of the costs to very 
rigorous research and analysis and found ways to overcome them, 
and then helped rapidly bring them down.
    So we think that this kind of approach could be applied to 
advanced carbon capture technologies, grid scale storage, 
advanced nuclear, certainly in the transportation space, and 
certainly in the industrial emissions space as well.
    Mr. Flores. That takes me to the second part of my 
question. You said that ClearPath engages collaboratively with 
outside organizations, businesses, and think tanks about the 
future of energy in this country. And in that regard, can you 
share with us any insights you have as to examples of moonshots 
that Congress and the DOE should be considering----
    Mr. Powell. Sure.
    Mr. Flores. When it comes to the energy space?
    Mr. Powell. Well, I think one that is low-hanging fruit is 
grid scale storage. So we have talked a lot across this hearing 
about grid scale storage today. The nice thing about grid scale 
storage is actually you have a lot of dollars, a lot of bang 
for the buck in expanding. So if we were to set a goal of, say, 
grid scale storage systems at less than $100 per megawatt hour, 
that would be a disruptive change. Right? It would greatly 
improve the ability for grid scale storage to compete with 
peaker power plants. It would also be very good for the further 
expansion of solar and wind technologies.
    And to accomplish a goal like that might only be 
incremental 10 of millions of dollars in appropriations in a 
year. But it is simply having that focus and increasing that 
level of ambition.
    Mr. Flores. What is another example? You and I have talked 
about advanced nuclear in the past.
    Mr. Powell. Yes. Certainly, advanced nuclear. So if we were 
to set a goal, a very ambitious performance-based goal to say, 
empower the private sector to demonstrate four advanced nuclear 
reactors within a decade, we are actually on track with a 
number of our programs already, like the Advanced Reactor 
Concepts Program, that is working with two advanced reactor 
developers right now, X-energy and the Southern-TerraPower 
collaboration on Molten Chloride Fast Reactor.
    So we have a new scale power as well that could certainly 
qualify for something like that. So we have a number of horses 
already in the race, and this would encourage us to get more 
advanced reactor developers into collaboration with DOE and 
hopefully get four of those demonstrated.
    Mr. Flores. Thank you. Ms. Ladislaw, as you discussed in 
your testimony, and as many of us on this panel know, the 
change in the U.S. energy profile has really had huge 
geopolitical impacts. And the State Department's primary 
mission is diplomacy, but the Department of Energy has a 
critical role there to play as well, whether it is to authorize 
exports or provide technical assistance on trade energy flows. 
In your view, what should Congress do to support the Department 
of Energy's international affairs mission, in 30 seconds or 
less?
    Ms. Ladislaw. Thanks very much for your question.
    I think, first and foremost, it is really important to 
recognize the work that the Department is doing, both in 
science and technology and on policy evaluation in an 
international affairs realm. So the Department of Energy Bureau 
is a wonderful department, and I fully support that as well. I 
think that sometimes it leads to an either/or; should it be at 
the State Department or at the Department of Energy, they 
should be complements to each other. There is enough to analyze 
and act on out there that they should be able to be both very 
robust and complementary offices.
    Mr. Flores. OK. Again, I thank the panel for their 
testimony.
    I yield back the balance of my time.
    Mr. Upton. Mr. Tonko.
    Mr. Tonko. Thank you, Mr. Chairman.
    Ms. Ladislaw, I really appreciated your written testimony. 
You highlighted the original congressional intent from the 
findings of the DOE Organization Act. I think it is clear that 
Congress intended for DOE's mission to evolve alongside our 
Nation's energy challenges. We need to face the issues of our 
time. In the 1970s, it was oil use and reliance on foreign oil. 
Today, we should be considering our Nation's current and future 
energy needs.
    So, Ms. Ladislaw, in the spirit of DOE Organization Act, is 
support for renewable energy and energy efficiency R&D 
consistent with the original goals of the Department?
    Ms. Ladislaw. I believe so.
    Mr. Tonko. As I mentioned during the first panel, I think 
DOE's role in supporting innovation is essential. And based on 
everyone's testimony, it sounds like you would likely agree 
with that assessment. I think that, obviously, there is great 
opportunity for job growth with R&D and energy efficiency.
    Dr. Zacharia, the Grid Modernization Lab Consortium is a 
great example of DOE working with public and private 
stakeholders and making significant R&D investments in order to 
solve energy challenges and make the U.S. a global leader. 
Integrating new technologies into our electricity system is one 
of the challenges to fostering a cleaner and more reliable 
grid.
    Can you explain the role that national labs play in 
fulfilling DOE's mission, and how grid modernization fits into 
those priorities?
    Mr. Zacharia. Thank you very much.
    So the national labs clearly sit between academia industry 
in maturing important technology. In this area, the Grid 
Modernization Lab Consortium is a consortium of a number of 
laboratories. We work closely together. And as we deploy a 
number of intermittent sources, one of the key challenges is 
really being able to make sure that the grid is resilient and 
reliable. And the way we have done that is actually both in 
terms of doing research, but also working in partnership with 
industry. Let me give you an example.
    Oak Ridge National Laboratory has worked very closely with 
electric power board in Chattanooga, which is a small city 
scale utility. And we worked very closely in deploying power 
electronics such that the grid system can be managed very 
effectively. And today, as a result of that, the citizens of 
Chattanooga, when a storm comes through, and they only see a 
blip because the grid is obviously be able to manage and work 
around that.
    One of the challenges in doing that is that, as you make 
the system much more interconnected, there is also the concern 
about security. And so we are also working very closely with 
them to make sure that it is secure.
    Mr. Tonko. Thank you.
    And as I mentioned, DOE must address the energy issues of 
our times, along with grid modernization and the seamless 
integration of more clean energy resources into our energy mix. 
I believe DOE has a critical role to pay in one of the greatest 
environmental, economic, and national security challenges of 
our lifetime, that being climate change.
    Does anyone on the panel wish to comment on the 
responsibility that the Department has in helping to develop 
climate solutions?
    Mr. Reicher. Mr. Tonko, I think the Department has a great 
opportunity to develop climate solutions. It has been working 
on them for decades. And I think we are at a moment, though, 
where I think we have got to keep the pedal to the metal in 
terms of investment. And I say this with a very broad range of 
technologies in mind. It is everything from renewables and 
efficiency to nuclear to carbon capture, energy efficiency 
technology. We talk a lot about standards, but there is a lot 
that can be done.
    So I think this is both a great opportunity. And I think if 
we are going to both succeed at addressing climate--but we are 
always going to profit as a country in addressing the climate 
problem, we have two very strong reasons we should be moving 
forward.
    Mr. Tonko. Thank you.
    And Ms. Ladislaw.
    Ms. Ladislaw. I just wanted to second that last point of 
Dan's. I do think that it is a shortcoming of our political 
process that on one hand, we discount a bunch of fuels. On the 
other hand, we discount a bunch of fuels. There is a lot of 
benefit that can come to the U.S. economic system, to our 
national security, to all of our strategic objectives from 
leaning forward into some of the climate challenge issues. And 
I think that the Department would be well served in doing that.
    Mr. Tonko. Thank you.
    Mr. Reicher, I was struck by your comments about EERE and 
weatherization. And I think they do meet both social and 
economic goals being able to provide for sound-paying jobs and 
addressing a more energy friendly environment. I know that in 
upstate New York, a weatherization assistance program is 
critical. Some of the coldest weather that comes into upstate, 
and we just saw it, subzero for days in a row. It is some of 
the toughest, poorest areas of the state with lowest household 
income. And it is a social economic justice thing that we can 
advance. So thank you for your comments.
    Mr. Reicher. I just want to say, I grew up in upstate New 
York. I not only know how cold it is, but I also know how snowy 
it is.
    Mr. Tonko. Thank you. It has been both this year. So thank 
you very much.
    And I yield back, Mr. Chair.
    Mr. Upton. Thank you.
    Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman.
    I would like to take this opportunity to highlight some of 
the work the Clemson University is doing with their Duke Energy 
eGRID. I am proud to represent my alma mater, Clemson 
University, as it is in my district, and the research work they 
are doing at facilities all the across the State of South 
Carolina in partnership with other universities, funding 
agencies and industry partners is extremely impressive.
    At Clemson's Restoration Institute in Charleston, South 
Carolina at Clemson has what may be considered the world's 
largest and most capable electric grid emulator called the Duke 
Energy eGRID. eGRID has the ability to dynamically model 
electrical power grid conditions anywhere in the U.S. or the 
world. With this world class and unparalleled facility, 
Clemson's technical staff and students are making great 
advances in grid modernization and grid security through their 
work at eGRID.
    The eGRID is a key enabler of testing half-hour devices 
that are critical components of the power grid infrastructure, 
such as extra high voltage transformers. Failure of components 
such as these transformers will likely cause widespread power 
outages, which can be very difficult to recover from due to 
lack of spares, logistics of moving them, and long lead times 
for their construction. Critical components like these 
transformers can be damaged from attacks such as EMPs, 
geomagnetic disturbances from solar activity and cyber attacks. 
Clemson has acquired one of these high voltage, high power 
transformers at eGRID further positioning Clemson with the 
unique capabilities.
    Through R&D and testing of these critical components and 
systems, Clemson University's eGRID facility will be 
instrumental in modernizing and securing the U.S. grid. And I 
invite anyone on the committee that would love to go and see 
that drivetrain facility and eGRID facility in Charleston, it 
is worth the trip.
    So, Mr. Powell, you mentioned in your testimony the 
importance of the DOE working with private sector to meet 
mutual goals. The Clemson-Duke Energy eGRID is a prime example 
of successful collaboration with the private sector to advance 
innovation by not solely depending on taxpayer dollars. Can you 
provide other examples of collaboration with the private sector 
to advance the goal of modernizing the DOE?
    Mr. Powell. Sure.
    Well, the one that has been most consequential in the past 
decade, or the past two decades, was probably Mitchell Energy 
collaborating with the Office of Fossil Energy to develop shale 
technologies. That is probably the one that was the most and 
best known. I think another one that has been very, very 
successful has been the collaboration between NuScale Energy 
and the Department of Energy, particularly the Office of 
Nuclear Energy, in developing a small modular reactor 
technology. So that collaboration has now resulted in a 
successful filing for a license with the NRC.
    Mr. Duncan. Do you see MSRs as a really viable nuclear 
energy alternative?
    Mr. Powell. Well, in the United States, we see smaller 
reactors as the only viable nuclear energy alternative----
    Mr. Duncan. But at any given time, we have got 100 nuclear 
reactors floating around the seas of the world and the United 
States Navy without a single mishap. And I believe, and one 
that believes, that that SMR or type technology is a solution 
for powering small cities, or even large communities, so----
    Mr. Powell. Absolutely.
    Mr. Duncan. Do you have other examples?
    Mr. Powell. Just to finish on that. Our power grid today 
really rewards smaller power plant technologies. And so the 
smaller that we can make the reactors, the more points that 
applicability that those will be, that those will be around the 
country.
    I think we have seen very successful development in the 
wind sector in public-private partnerships, in the Wind 
Technology Center at the National Renewable Lab that has really 
brought down the price further for very large wind turbine 
technologies as well as.
    Mr. Duncan. Right. And speaking of SMRs, which kind of 
piqued an interest of mine in thorium or molten salt reactors.
    Is DOE working the private sector at all on thorium 
reactors, to your knowledge?
    Mr. Powell. I will have to get back to you on that. I am 
not sure that there is any current thorium work underway. They 
are working on molten salt reactors, so that is where the fuel 
is also the coolant, and it circulates through the reactor. 
There is currently several active points of research and an 
active collaboration between DOE and Southern Company and 
TerraPower, which is the Bill Gates'-backed nuclear development 
company.
    Mr. Duncan. Yes. Thank you for that.
    Mr. Chairman, I don't have anything further. I yield back.
    Mr. Upton. Thank you.
    Mr. Griffith.
    Mr. Griffith. Thank you, Mr. Chairman. I appreciate it. I 
appreciate the testimony of all of our witnesses here today. I 
particularly liked the testimony of Mr. Powell talking about 
researching and figuring out new ways to use the fuels that 
will power the world, not just the United States, in the 
future.
    But with that, I will yield my time to Mr. Shimkus of 
Illinois.
    Mr. Shimkus. Thank you, Morgan. I appreciate that. And I 
really want to make sure I took the time. I appreciate you 
being here. And also, you are an important panel. Again, as I 
said earlier, we are trying to figure out should we look at 
reauthorizing the DOE and what should be its assigned roles. 
And I do a lot of stuff in the nuclear space, too. And I want 
to ask a question. It is going to go to Dr. Levy first. And it 
is really about organization.
    So the NNSA, the National Nuclear Security Administration, 
is a semi-autonomous agency within the U.S. Department of 
Energy responsible for enhancing national security through the 
military application of nuclear science. But there are some 
people who question the efficiency of that, since it is semi-
autonomous.
    In fact, Admiral Richard Mies noted the separation of DOE's 
support functions from the NNSA created a problem concerning 
the Secretary's governance over the nuclear security mission. 
They noted, ``What CEO of the successful company would permit 
one of the largest, most demanding and unforgiving missions to 
be quarantined from the headquarters' staff. Or to use an 
operational metaphor, how could the commander of a ship at sea 
fulfill his or her duty if 40 percent of the crew were, 
``separately organized'? That would be both inefficient and 
risky.''
    Do you agree with that?
    Mr. Levy. I don't think I do, although I am not sure the 
present implementation of the separation is ideal. I think 
there is a way to do it. This is an issue that the Augustine-
Mies panel took up in great detail. One of the suggestions was 
that NNSA just be a separate agency. And their conclusion was, 
for a mission that important, they needed cabinet level support 
and cabinet level input.
    My own personal opinion, and it is my personal opinion, the 
panel hasn't come to a conclusion on this, is that it is a 
doable thing, but it will take a lot of attention at the 
highest levels of the Department of Energy, primarily the 
Secretary, the Deputy Secretary and the administrator, the 
Under Secretary, operating together very well.
    Right at the moment, there is a lot of overlap. There is a 
lot--certainly, the Secretary of Energy--I am not sure one 
looks at the Secretary of Energy as the commander of the ship, 
or the chairman of the Joint Chiefs. There has to be somebody 
responsible for it, and he is responsible to somebody. At the 
moment, I think there is overlap, which is not a very good 
situation, and I think that is one of the things that is 
important to clear up.
    Mr. Shimkus. I think that is good.
    Ms. Ladislaw, have you looked at this from your think tank 
arena?
    Ms. Ladislaw. It is not an area of expertise for me.
    Mr. Shimkus. OK. And I would raise it to the chairman as 
something we should look at as we move in this direction.
    The last thing I wanted to also address is--I mean, because 
there is such a different--a broad breadth is this, Dr. 
Wasserman, on the supercomputing issue, because we--I know that 
we--we are not Kim Il Jong II, so we don't blow off our nuclear 
weapons anymore because we supercompute, and we trust it, which 
is hard for many of us to believe. But we do.
    And so in this--but I got confused, and that is why I ask 
questions, because that is the best way to find out the 
answers. DOE is moving to an exoskeleton larger supercomputing 
ability. Is that separate than what the National Science 
Foundation is doing on it? Doesn't it operate in conjunction 
with other universities' supercomputing operations?
    Mr. Wasserman. The exoscale effort, and I am not directly 
involved in it, but one of my colleagues at Lilly is, actually, 
as part of a DOE advisory panel. It is a partnership with lots 
going into it.
    Let me pause for a minute. You said it is hard to believe 
that you can believe the simulation. In the example in GE I 
gave you, which admittedly is not a national security weapons 
type of simulation. But in this simulation, they could look at 
things that they could not measure in the real world. And so 
they could make a lot of progress in the simulation because you 
could do that. To build the actual test mock-up and try to do 
it physically would have not only been cost-prohibitive, but 
would have required a whole doubling of their infrastructure. 
So the exoscale is partnership. And as you can tell, if you 
look at the statistics, the U.S. leapfrogs with other 
countries. Currently China is ahead. We will catch up. I am 
sure they will change that in the future.
    But the ability to use this to look at things. When I 
started my scientific career, the type of simulations we look 
at would have been fantasy. And today, the exquisite nature of 
not only the computer hardware, but the software developments 
the people have found to use that hardware as efficiently as 
possible are exquisite.
    Mr. Shimkus. I appreciate. I yield back my time.
    The University of Illinois has Blue Waters, which is part 
of the NSF grant, and it is an awesome facility.
    And I yield back.
    Mr. Upton. Mr. Welch.
    Mr. Welch. Thank you, Mr. Chairman. And I thank the panel.
    I am going to direct my questions to Mr. Reicher, because 
he has got Vermont roots, and I want to acknowledge the good 
work everyone has done. But none of you made the wise decision 
to spend as much time in Vermont as he did. But thank you.
    You heard, I think, the first panel, and there was some 
discussion in that panel about the standard setting process. 
And I am going to ask you three questions, so I want you to be 
brief on each one. But can you just address that process and 
what you think makes sense to do and what the dangers are if we 
fall behind in what has been, I think, a bipartisan commitment 
to the standards?
    Mr. Reicher. So very quickly, Mr. Welch, there are two 
things going on. One, there are concerns that DOE is not going 
to move ahead. They kind of put a hold on issuing standards. 
The second thing they are doing is reevaluating the standard 
setting process. We did that back in the 1990s, made a lot of 
improvements. Improvements have been made since. I am hopeful 
that they won't go ahead and do more than they need to do at 
this point, because it is a pretty good process.
    Mr. Welch. All right. Next thing is there is a bipartisan 
effort to have master limited partnership status apply to clean 
energy projects. We have got Republican and Democratic sponsors 
to that, and I am one of the lead sponsors.
    Can you just offer your thoughts on the benefits that that 
would provide to the clean energy sector?
    Mr. Reicher. So master limited partnerships have been a 
very important tool for financing oil and gas infrastructure to 
the tune of about $500 billion. When the law was passed, 
though, by Congress in the 1980s, renewables and lots of other 
things were not included. You, Mr. Poe, others, Mr. Portman, 
and Mr. Moran in the Senate have introduced legislation that 
would open up these MLPs to all these other things. CCS, 
storage renewables efficiency, and it would be a big step 
because it would cut the cost of financing for these major 
energy projects. And as we ramp down the tax credits for solar 
and wind, we should ramp in this master limited partnerships 
approach.
    Mr. Welch. OK. I hope that is something we can work on, Mr. 
Chairman. We have got a Ted Poe from Texas and Peter Welch from 
Vermont, so there is some bipartisan and strange bedfellow 
situations there, so let's see if we can do something.
    On Federal energy management, the Federal Government's 
energy bill, as you know, is $23 billion a year. And a number 
of us on this committee, Republicans and Democrats, have been 
really trying to extend energy saving performance contracts. We 
have had a knotty problem on the scoring where it is a 
Byzantine process to try to get there to be resolution between 
OMB and this CBO.
    Can you comment on what the opportunities are if we go very 
aggressively in pursuit of energy savings performance 
contracts, which, as my colleagues know, don't cost taxpayers 
any money. The companies that bid on doing retrofitting of our 
Federal buildings put the money up to do that, and then they 
get repaid from the energy savings that benefit them with the 
payback, and benefit the taxpayers.
    Mr. Reicher. Yes. Very quickly. It is a great alternative 
to appropriating funds to upgrade Federal buildings. There are 
350,000 buildings. We could do a lot to cut this $23 billion 
energy bill. But there are these difficulties in scoring, the 
disagreements between OMB, CBO, and the Hill. We put out a 
report, the Secretary of Energy Advisory Board, in 2016, on 
Federal energy management. We looked at a whole number of 
issues, a big number of opportunities. And one of them that we 
explored were ESPCs. And we have suggested some ways that you 
might fix that process, so I would encourage you to take a look 
at that report.
    Mr. Welch. All right. Thank you.
    I yield back. Thank you all.
    Mr. Upton. Mr. Barton.
    Mr. Barton. Well, thank you, Mr. Chairman.
    I appreciate our scientists being here. We have still with 
us the ranking Democrat on Mr. Upton's subcommittee, the 
ranking Democrat on Mr. Shimkus' subcommittee--Mr. Shimkus was 
here until I walked in. He left--myself as vice chairman. And 
we have all been tasked with the chairman, Mr. Walden, to 
perhaps do a DOE reauthorization bill, which we have had a 
number of questions about. Part of that is going to be to look 
at the role of the national laboratories.
    I think it is fair to say that if we were starting from 
scratch we wouldn't have 17 national laboratories, but we do. 
Some of those are pretty obvious. Los Alamos, Sandia, some of 
our weapons laboratories. I think some of them show the need 
for more robust research. The renewable energy laboratory would 
fall into that category. I know Mr. Tonko is a big supporter of 
that. But some of them are not so obvious.
    I don't know who to ask this question of, maybe Mr. 
Reicher. Do we need 17 national laboratories today?
    Mr. Reicher. Mr. Barton, I think I am outside of my area of 
expertise right now.
    Mr. Barton. Well, I just poked at random. If you don't feel 
qualified----
    Mr. Reicher. I will tell you this, that there is just an 
amazing breadth of strength in those labs. Obviously, you know 
better than I, the politics of shutting down labs is----
    Mr. Barton. Not good.
    Mr. Reicher [continuing]. Not good.
    Mr. Barton. It depends on your point of view. From the 
point of view of keeping it open, it is very good.
    Mr. Reicher. Right. But I guess what I would say is I would 
take a look at the missions of each and really assess what they 
are doing, because I think they have all developed areas of 
expertise. Argonne, for example, is really one of the world 
leaders in advanced battery technologies, looking at things 
other than lithium. And you go across the board, there is just 
so much there. So missions should come first as you do on your 
analysis.
    Mr. Barton. Well, let me give an example that I know a 
little bit about. Once upon a time, there was a national 
laboratory in process called the Superconducting Super 
Collider. It was going to be in my congressional district. In 
fact, the main campus would have been about 10 miles from where 
I live right now. And obviously, if we would have built it, I 
would have been a big supporter of it. But we didn't build it. 
We decided to go a different path. And we are putting quite a 
bit of money over in Europe at CERN, but we still have the 
Stanford Linear Accelerator. We still have Fermilab. We still 
have Brookhaven. Do we need all of those national laboratories 
studying high energy physics given the fact that we decided to 
put most of our eggs in the European basket at CERN?
    Mr. Wasserman. Mr. Barton, if I may. The people at the 
national labs are incredibly creative. And as the example of 
the Stanford Linear Accelerator. Its original for which it was 
built around 1962 when it started, is no longer part of the 
DOE. It has been repurposed. And instead of a particle 
accelerator to smash things into each other to look at the 
fundamental forces of nature, it is now the basis of the Linac 
Coherent Light Source, which is an x-ray source rather than an 
atom smasher.
    And so this creativity, even though the infrastructure is 
still there, things that have outlived their life have now 
found a new use. And, in fact, the linear accelerator there, 
the LCOS, is an example of interlaboratory cooperation. For 
example, there is a device called an undulator--we won't go 
into that today--which is the basis of it. Much of the 
development work for those undulators were done at Argonne, 
where they had a lot of expertise at the advanced photon source 
on this type of device.
    So this creativity means that we can repurpose things. It 
also means that we can take multiple approaches to a difficult 
problem. As scientists, we wish that innovation were a linear 
path, but it is not. And often finding the best solution 
requires looking at several different ways to do it and finding 
the best one at the end.
    Mr. Barton. Well, my time has expired. I understand the 
quality of our scientists and our researchers. I don't deny 
that. I also understand the political reality that DOE has 
facilities in 30 different states. So that is 60 percent of the 
states. So any time you try to change something, it is going to 
be, especially in the Senate, a political difficulty.
    But I do think if we are going to reauthorize the 
Department it is only fair to the taxpayers that we do take a 
quick look, a serious look at the existing laboratories. Again, 
I do not deny that they can be repurposed. I don't deny that 
they do good work. I know for a fact from my experience with 
the Super Collider, we got a lot of brainpower that came to 
Texas. And most of it stayed. Not all of it but most of it. And 
it has benefited our state. So I am good for that. But I just 
think we owe it, if we are really going to do this 
reauthorization, that we ought to take a look at the existing 
structure.
    Mr. Powell. And my time's expired, so I am at the mercy of 
the chairman here.
    Mr. Powell. I will say very, very quickly.
    I think the key thing to look at is not whether we need 17 
labs, but whether we need 17 labs, all of whom say they can do 
almost anything, right? I think because the mission of the labs 
has shifted back and forth, they have gotten themselves--Dr. 
Zacharia might kill me for saying this--have gotten themselves 
into a posture where they are ready to go for any 
administration with any set of priorities. And I would just 
build on Mr. Reicher's point that we should be much clearer 
about what each lab is excellent at and then align those 
centers of excellence with top-down direction and goals.
    Mr. Barton. I guess my final question. Did we find the top-
quark yet? That was the whole purpose of the Super Collider, to 
find the top-quark.
    Did we find it?
    Mr. Levy. Yes.
    Mr. Barton. We did find it.
    Well, good.
    Mr. Zacharia. Mr. Chairman, if you will give me a little 
bit of time.
    The laboratories are really where the integration of the 
missions occur. And so if you look at Oak Ridge National 
Laboratory, it is one of the largest science and energy 
laboratory, about $1.5 billion. It is funded through 1,000 
proposals that RPIs have to compete. So in some sense, 
laboratories bring core capabilities, a combination of people, 
unique facilities, and programs. And we competed for the best 
ideas that funded. So in some sense, the labs thrive in a 
meritocracy. And so what I would say is that if one focuses on 
the mission of the Department, then the laboratories will self-
select based on their capabilities and abilities to support the 
missions of the Department.
    Mr. Barton. I appreciate the chairman's discretion. Thank 
you. And I appreciate you all being here.
    Mr. Upton. Yield now to a very patient Mr. Costello.
    Mr. Costello. Thank you.
    Mr. Powell, the eastern power grid has been experiencing 
some extreme stress due to what is still now a very cold 
weather, although today's not so bad. Part of the reason the 
grid has maintained its reliability has been--and I am getting 
to the issue of fuel diversity--has been the diversity of fuel 
sources on the grid. Share with me your perspective on what 
DOE's role should be to ensure grid reliability. And obviously 
this comes on the heels of a report and a FERC 5-0 decision 
yesterday, I think there is a lot of innings left in this game, 
and I am just curious on your perspective?
    Mr. Powell. So obviously, this has become a pretty 
contentious topic about whether there is a diversity or a 
resiliency problem on the grid as it currently stands.
    I think the reality, as it stands today, is that we are 
headed toward a grid dominated by natural gas power generation. 
And so the question that we have to ask ourselves is, is that a 
problem? Most of the modeling says it is not a problem. In this 
cold snap, for example, this winter, the natural gas system has 
worked well, and there hasn't been a resiliency problem with 
the grid. But we can imagine events where an attack on a 
pipeline or especially a major hub could make that a 
significant issue over reliance on one type of fuel. And we can 
imagine events where even if there is not a supply disruption, 
you could have significant price spikes to that fuel source, 
and that might result in sort of economic pain.
    And so I think now the discussion is, is there some other 
characteristic, diversity or resilience or something like that 
that we need to find and define and quantify, and should that 
be worked into the authority of FERC to ensure that, in 
addition to reliability and affordability, this resiliency 
characteristic is there as well.
    We do think that there are ways that we can define and 
value that resiliency characteristic that would not be overly 
disruptive to the existing order of the wholesale markets. The 
wholesale markets have delivered a lot of benefits to the 
country in terms of reliability and affordability. And so we 
think that it can be defined in a way. An added benefit of 
defining it would be nuclear generators are a particularly 
resilient power source, and so, we think that adding that into 
the power mix would go a long way to helping support our 
existing nuclear fleet.
    Mr. Costello. We have heard some discussion here about 
China and its role in the energy technology research 
development and deployment space. What do you believe we need 
to do as a country? And what is DOE's proper role in order to 
ensure that we don't play second fiddle to China?
    Mr. Powell. Thanks for that. I was pleased to participate 
in that event together discussing this more deeply a few weeks 
back.
    So I think the first and most important thing is that we 
need to signal that we are going to make a deep commitment to 
some of these technology areas where China is also making a 
very deep commitment.
    Mr. Costello. Is that RPE? Is that somewhere else? Is that 
purely within DOE? Where else does that come about?
    Mr. Powell. So much of it is in DOE. We discussed a bit 
today about making sure that our trade standards are correctly 
putting the right burden on industry so that we are actually 
able to compete in places like Saudi Arabia to build nuclear 
reactors there. I think we need to make a clear commitment at 
DOE through the continuation of RPE and through major mission-
oriented goals and commitments to these technologies that we 
are actually going to put the resources into these technologies 
so that our innovators don't then need to go over to China to 
get the commercialization benefits.
    If you look at just one company, for example, UET, it is a 
vanadium flow battery technology that was developed at the 
Pacific Northwest National Laboratory, spun out of it by some 
of our best researchers. China identified the technology and 
its commercial applications, and so now they are sort of 
funding the commercialization and spin-up. And they are buying, 
I believe, the largest flow battery in the world which will be 
deployed in China and not in the United States.
    And so finding ways where we can make similar commitments 
and actually show our innovators that we are serious about 
that, we will make investors and we will make innovators sort 
of not flee to China but develop a scale for innovation here at 
home.
    Mr. Costello. Final question for everyone. We have a 
potential for an infrastructure bill. Let's just say $50 
billion is allocated to energy infrastructure.
    Where is that best deployed? Anyone?
    Mr. Zacharia. Well, I will take the $50 billion since no 
one else will.
    So there are a number of areas where there are both science 
infrastructure, but also infrastructure such as small modular 
reactor that have been discussed.
    In some instances, this discussion becomes academic in 
terms of whether you are going to have a nuclear Renaissance or 
not, because if the supply chain goes away, it becomes very, 
very difficult to reboot the nuclear energy industry. And we 
are only a few years away, in my view, that, if there is not a 
procurement of some sort, then that industry will go away. And 
this is somewhat analogous to the supercomputing industry.
    About 10 years ago, the intelligence community was really 
concerned that the supply chain was going to go away. And the 
Nation stepped in and basically did the investments in 
leadership computing and the procurements that ensued that kept 
the supply chain.
    Likewise, with SMR, one of the opportunities that you have 
is that, for example, in places like Oak Ridge and Idaho where 
we have a baseload and need between Oak Ridge National 
Laboratory and Y-12 of about 150 megawatts. That is two units 
of small modular reactor. One way to incentivize the specific 
client adoption would be for the government to say is at least 
explore whether that is a good use of investment in 
infrastructure to actually buy down the risk of first applying 
deployment in a small modular reactor. But also there are 
signs, shovel-ready signs infrastructure, that is again looking 
for resources. And so those are some of the areas that I would 
consider for investment.
    Mr. Reicher. Mr. Costello, if I could quickly give you an 
answer.
    There is already $41 billion available today in the DOE 
loan program. It is allocated $12.5 billion for advanced 
nuclear, $8.5 billion for advanced fossil, $4.5 billion for 
renewables, and then a big chunk in the transportation side. We 
are about to see a rescission by appropriators in both the 
Senate and the House that would prevent major companies from 
getting access to that $41 billion.
    So that is available today. It is going to cost a couple 
hundred million that already was appropriated by the Congress a 
number of years ago. And if we could avoid that rescission, 
that $41 billion across the board would be available. It goes 
directly to what you just heard, because sitting over at the 
DOE right now in the loan program office are applications, both 
part 1 and part 2, for the Vogtle reactor, the NuScale reactor, 
the Terrestrial reactor, and a couple of more.
    So you don't need to find $50 billion. You need to make 
sure that $200 or $300 million is not rescinded by 
appropriators that would basically shut down the loan program 
office at DOE. And I can't say this strongly enough to all of 
you. Put that $200 million, $300 million back into effect, and 
you are going to have tens of billions available in the form of 
loan guarantees for nuclear, for fossil, and for renewables.
    Mr. Costello. Very helpful. I waived on, and I am 3 minutes 
over. So I don't know if I am going to ever get back on this 
subcommittee again.
    Thank you, Mr. Upton.
    Mr. Upton. I want to thank all of you for being here. 
Seeing no other members wishing to ask questions, we are almost 
ready to adjourn.
    I am going to ask you unanimous consent to submit two 
letters into the record, a letter on EERE and a letter on the 
loan program itself.
    [The information appears at the conclusion of the hearing.]
    Mr. Upton. And pursuant to committee rules, I will remind 
all members that they have got 10 business days to submit 
additional questions for the record. And I would ask that 
witnesses submit the response, if you can, within 10 business 
days. Certainly, for the first panel, Mr. Rush had a number of 
questions we would like the answers back.
    Mr. Rush. No. Mr. Chairman, I just want to ask you a 
question. Based on Mr. Reicher's passionate request concerning 
the $41 million loan program, do you have any reaction to----
    Mr. Upton. Well, I wish we were appropriators. That is not 
a role that we have. Sometimes we can take over. This is the 
most powerful committee and the oldest, and we don't have that 
authority. I have supported the loan program, I would say that. 
I have supported the appropriations.
    Mr. Rush. Mr. Chairman, I think maybe it might be in order 
for a bipartisan effort on both sides of this committee to make 
our concerns heard with the Appropriations Committee. And I 
would be willing to join with you and other members of the 
committee to have a meeting or send some letters, but I think 
our voices should be heard.
    Mr. Upton. Well, and I know that we are all anxious to see 
the administration's budget. We are going to have the 
opportunity to ask Secretary Perry questions about that as it 
gets submitted and take action on the floor. So I appreciate 
the gentleman's interest.
    Mr. Welch.
    Mr. Rush. Thank you.
    Mr. Upton. Mr. Welch.
    Mr. Welch. Well, I think we need to do something as a 
committee. That is a very compelling loss. If we forego these 
loan guarantees, it is really going to hurt the collective 
efforts of both sides of this aisle.
    And you have done this before, but this committee really 
needs to speak out, I think.
    So thank you.
    Mr. Upton. And if there are no further questions, we stand 
adjourned.
    Thank you all for being here.
    [Whereupon, at 2:40 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
